<html>
<title> - HOW TO PREVENT SALMON SPECIES FROM DISRUPTION OR EXTINCTION</title>
<body><pre>[Senate Hearing 106-780]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-780

      HOW TO PREVENT SALMON SPECIES FROM DISRUPTION OR EXTINCTION

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
66-484                     WASHINGTON : 2000

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                HARRY REID, Nevada
ROBERT F. BENNETT, Utah              BYRON DORGAN, North Dakota
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    DIANNE FEINSTEIN, California
                           Professional Staff
                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                            Christine Drager
                       Peter Kiefhaber (Minority)

                         Administrative Support
                             Joseph Norrell
                       Carole Geagley (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Slade Gorton........................     1
Opening statement of Senator Patty Murray........................     5
Statement of Representative Norman Dicks.........................     7
Statement of William Ruckelshaus, Chairman, State Salmon Recovery 
  Funding Board..................................................     9
    Prepared statement...........................................    12
    Statement of the Washington Salmon Collaboration, March 15, 
      1999.......................................................    16
Statement of Doug Sutherland, county executive, Pierce County, WA    22
    Prepared statement...........................................    24
Statement of Jerry E. Clark, deputy director for regional 
  programs, National Fish and Wildlife Foundation................    24
    Prepared statement...........................................    26
Statement of Ron Sims, county executive, King County, WA.........    27
    Prepared statement...........................................    29
Statement of Jim King, consultant, Private and Municipal Planning
  Services.......................................................    38
    Prepared statement...........................................    40
Statement of Paula Mackrow, executive director, North Olympic 
  Salmon Coalition...............................................    42
    Prepared statement...........................................    44
Statement of Peter Heide, director, forest management, Washington 
  Forest Protection Association..................................    47
    Prepared statement...........................................    49
Statement of Jack Kaeding, executive director, Fish First........    50
    Prepared statement...........................................    52
Statement of Joan Burlingame, coordinator, Friends of Rock Creek 
  Valley.........................................................    53
    Prepared statement...........................................    55
Statement of James Waldo, lead facilitator, Hatchery Scientific 
  Review Group...................................................    63
    Prepared statement...........................................    65
Statement of Peter Bergman, director, biological services, 
  Northwest Marine Technology....................................    67
    Prepared statement...........................................    69
Statement of Billy Frank, chairman, Northwest Indian Fisheries 
  Commission.....................................................    70
    Prepared statement...........................................    71
Statement of Jeff Koenings, director, Washington Department of 
  Fish and Wildlife..............................................    72
    Prepared statement...........................................    74
Statement of Frank Urabeck, member, Northwest Marine Trade 
  Association....................................................    76
    Prepared statement...........................................    77
Statement of Daniel Diggs, Assistant Regional Director for 
  Fisheries, Pacific Region, U.S. Fish and Wildlife Service, 
  Department of the Interior.....................................    86
    Prepared statement...........................................    89
Statement of Frank L. Cassidy, Jr., chairman, Northwest Power 
  Planning Council...............................................    90
    Prepared statement...........................................    93
Statement of Victor W. Kaczynski, scientist......................    97
    Prepared statement...........................................    99
Statement of Representative Jay Inslee...........................   108
Statement of Will Stelle, regional administrator, National Marine 
  Fisheries Service..............................................   112
  

 
      HOW TO PREVENT SALMON SPECIES FROM DISRUPTION OR EXTINCTION

                              ----------                              


                        THURSDAY, APRIL 20, 2000

                               U.S. Senate,
     Subcommittee on Interior and Related Agencies,
                               Committee on Appropriations,
                                                       Redmond, WA.
    The subcommittee met at 12:15 p.m., at the Veterans of 
Foreign Wars, 4330 148th Avenue, NE, Hon. Slade Gorton 
(chairman) presiding.
    Present: Senators Gorton and Murray.
    Also present: Representatives Dicks and Inslee.

               Opening Statement of Senator Slade Gorton

    Senator Gorton. Good afternoon, and welcome to a hearing on 
part of the U.S. Senate Committee on Appropriations, 
Subcommittee on the Interior. I appreciate the time that many 
of you are taking, many of you from considerable distances, to 
attend this, in some respects, summit on Washington State 
salmon recovery efforts.
    As the chairman of that Interior Subcommittee, I'm 
delighted to Chair the hearing and welcome Senator Murray. I 
believe we'll have Congressman Dicks with us relatively soon. 
And we hope that Congressman Inslee will be with us a little 
later on in the afternoon, reflecting the broadened bipartisan 
view of the importance of the issue before us.
    I want to express my appreciation to the Redmond Chapter of 
the Veterans of Foreign Wars for allowing us to have this 
meeting here in its hall. The men and women of that 
organization have distinguished themselves through honorable 
service to our country and continue to carry on the legacy and 
service to their community. We're pleased to be their guests 
this afternoon.
    Today's hearing will center on a subject of importance to 
everyone in the Pacific Northwest--how to prevent salmon 
species from disruption or extinction.
    On March 16, the Seattle Times printed an article on the 
front page with the headline, ``Are we any closer to saving the 
salmon?'' That is a question on the minds of many Washington 
residents, myself included.
    A little more than a year has passed since the National 
Marine Fisheries Service listed the Puget Sound Chinook and 
several other salmon and steelhead species as threatened under 
the Endangered Species Act. That even served as a wake-up call 
for citizens across Western Washington.
    Last year I chaired a field hearing at the Sea-Tac Airport 
at which local, State, Federal, and tribal representatives 
discussed the challenges ahead.
    Now this hearing provides an appropriate opportunity to 
measure our progress so far to recognize those local and State 
recovery and preservation efforts that have been successful, to 
acknowledge those fields in which improvement is necessary and 
to move ahead together in an even stronger and more unified 
manner to save salmon for generations to come.
    While we're here together in Redmond today--and the 
majority of those people present are residents of Western 
Washington--we must always keep mindful that this is a State-
wide crusade. Residents of Eastern Washington are deeply aware 
of the crisis facing salmon and steelhead species on the 
Columbia and Snake River and on other tributaries, and in many 
respects have been dealing with the issue for a considerably 
longer period of time.
    Farmers in the Methow Valley have lost their livelihoods as 
modifications to irrigation and canals with fish screens have 
been made to ensure that salmon are not harmed.
    Growers of millions of tons of grain, wheat and other 
commodities produced in Southeast Washington and transported 
down the Snake and Columbia rivers are concerned that their 
very existence is threatened by proposals to remove the Snake 
River dams.
    Over the last decade, some $3 billion has been spent by 
Federal and State agencies for salmon recovery, often, 
unfortunately, with little to show for that expenditure and 
even less consensus among the various stakeholders as to what 
decisions ought to be made.
    Some passionately advocate removal of the Snake River dams 
even though expensive studies by the U.S. Army Corps of 
Engineers have raised doubts as to whether the modest benefits 
to salmon would justify the enormous power, environmental, 
transportation and economic cost to the region that breaching 
dams would cause. Unfortunately, when the Corps of Engineers 
completed its study last December, it did not render a 
recommendation.
    Yesterday, I think all of us were troubled to learn that 
the reason that no recommendation was given about dam removal 
was that high officials in the Clinton-Gore administration 
directed the Corps of Engineers to suppress the Corps' internal 
recommendation that the dams be kept in place.
    That action raised serious questions about the 
administration's motives and, unfortunately, undercuts the 
trust of Washington citizens that future spending of their tax 
dollars on salmon recovery efforts would be based on sound 
science rather than on a political agenda.
    I believe there are far more productive areas which we 
should focus on in our efforts to mitigate declining salmon 
runs, including habitat restoration and preservation, reforming 
hatcheries to meet clear recovery goals, controlling natural 
factors of salmon decline and addressing the controversial 
subject of harvest limits.
    These are subjects that aren't unique to any one area of 
the State. We all share the goal of finding the most efficient 
and effective methods of preventing salmon species from going 
extinct.
    There's no question that restoring salmon will continue to 
be expensive, and it will take years to produce tangible 
results. In my view, however, giving Federal agencies a blank 
check to implement increased bureaucracy and a top-down 
management approach to salmon recovery has simply proven to be 
the wrong way.
    While the Federal Government certainly has a continued 
obligation to fund the Pacific Salmon Treaty, and all of us 
here have supported that funding, I also believe that the State 
and local restoration projects have already proven to be more 
directly effective in saving salmon and at less cost than those 
imposed by the Federal Government.
    That's why I'm pleased that Congress approved my request 
last year to direct $18 million to the Washington State Salmon 
Recovery Board, $750,000 to State-created regional fisheries 
enhancement groups, and an additional almost $4 million to the 
National Fish and Wildlife Foundation to provide a more direct 
and efficient method of funding volunteer and locally-driven 
recovery projects.
    This week the foundation will announce awards of nearly 
$1.3 million in grants to local groups State-wide, including 
the Mid Puget Sound Fisheries Enhancement Group, The Northwest 
Chinook Recovery Group and the Tri-State Steelheaders.
    I'm also proud with the support of Senator Murray and 
Congressman Dicks that we secured $8 million from the Commerce 
Appropriation Subcommittee to support Washington's tribal 
recovery efforts, and an additional $3 million for 
implementation of the Washington Forestries and Fish agreement.
    At the same time that Congress provided these important 
funds to eight local salmon recovery efforts, it directed the 
National Marine Fisheries Service by July 1 of this year to 
come up with goals and objectives of the targeted number of 
fish that the National Marine Fisheries Service seeks to 
recover for every threatened Puget Sound salmon and steelhead 
species. That is a little more than 60 days away, and I expect 
the Fishery Service to abide by that request.
    Measuring the performance of the myriad of salmon recovery 
efforts and Puget Sound in coastal regions will depend on upon 
having goals outlined in a timely manner.
    The first panel of witnesses today will focus on issues of 
funding and coordination of salmon efforts on the Federal, 
State, and local level.
    The second panel is an important transition from the first 
one. A number of regional, local habitat restoration groups are 
represented today by several individuals who are leaders not 
just in their communities but in their efforts to save salmon.
    They will continue to have my full support for the 
successful course they're taking so far. These individuals have 
been on the ground actually improving habitats stream by stream 
so that fish may survive, many of them before any Federal 
agency wrote regulations telling them how they should do it. 
Federal agencies should be making it easier, and not more 
difficult, for these groups to carry on their activities.
    So while I'm interested in the positive success stories 
they have to share, I'm also interested in their recommendation 
and thoughts on how their valuable work can be made even more 
efficient and effective by help from the Federal level.
    I add that the constraints of a 5-hour field hearing don't 
allow time to hear from the widespread great work being done 
beyond habitat restoration, including education by nationally 
recognized groups like Adopt-A-Stream, habitat preservation by 
numerous volunteer groups and local communities and regional 
efforts to remove barriers to fish passage and to improve water 
quality and streams across Puget Sound.
    These groups are all deserving of our praise and support 
and are further evidence of Washington citizens' determination 
to do all that is necessary to save our state's rich salmon 
heritage. I believe so strongly in their work that I am pleased 
when I have the opportunity to meet with these groups when I'm 
in the State.
    Tomorrow, I'm looking forward to participating in a project 
sponsored by Planet CPR, and I'll be meeting Saturday with 
organizers of the Hood Canal Salmon Enhancement Group and Long 
Live the Kings, a group that has also taken initiative to seek 
reform our State's hatcheries.
    Our third panel will be devoted to the continued role that 
I believe hatcheries must play in the overall effort to recover 
salmon. There is recently evidence of spring chinook salmon 
returning from the Pacific Ocean to the Columbia River and 
other tributaries at a rate of double or triple the average 
number of chinook that have returned at this time of year for 
the past decade.
    Many of these fish are hatchery fish. For more than a 
century, State, tribal, and Federal governments have built 
hundreds of hatcheries on the Columbia River and on Puget Sound 
and on coastal waters.
    These hatcheries have produced millions of salmon and 
steelhead that have been vital recreational and commercial 
fisheries, as well as meeting tribal treaty obligations. In 
some cases, hatcheries have also provided the means to prevent 
runs of salmon on certain rivers and streams actually from 
going extinct.
    While I support these hatcheries, I also support reforms 
that will ensure the important goal of preserving natural runs 
of salmon species and the producing hatchery fish for tribal, 
recreational and other productive uses.
    I'm pleased to have a panel of witnesses representing 
tribes, sports fishermen and State and Federal policy and 
science expertise to describe the important objectives of 
hatchery reform and to set forth how independent scientific 
research will improve Washington hatcheries and eliminate the 
need for controversial policies like clubbing to death 
thousands of hatchery fish as a means to separate wild and 
hatchery fish.
    Many have expressed skepticism about the agency-driven 
science involved in salmon recovery efforts. I share those 
concerns. Science must be accountable.
    I introduced legislation a few years ago that helped create 
the independent, scientific review panel to ensure peer review 
of the millions of dollars that are spent each year on 
scientific projects by the Bonneville Power Administration and 
to assure that such projects have merit.
    I'm concerned that the present salmon recovery science 
touted by the National Marine Fisheries Service and the Fish 
and Wildlife Service does not adequately consider factors of 
salmon decline that have no direct link to human activity.
    For example, recent studies have revealed that changes in 
the climate and the Pacific Ocean and the ocean estuary may 
greatly impact the nutrients that feed salmon and drastically 
reduce their survival rate. It's also clear that natural 
predators, such as Caspian terns, sea lions and other mammals 
feast on a significant number of salmon smolts and returning 
salmon in areas near the ocean. These factors must be addressed 
in any major policy decision that propose to regulate human 
activity. We will hear testimony from several witnesses on 
these issues in the fourth panel.
    And finally, there will be an opportunity for the Federal 
and State officials to respond to what they have heard 
throughout the afternoon by other panelists and to answer 
questions.
    I reiterate my message to the Federal agencies that they 
should be encouraging and should be giving incentives to State, 
tribal, local governments, and volunteer groups to come up with 
creative efforts to save the salmon, not to make it more 
difficult for them.
    I hope that the National Marine Fisheries Service can find 
the time to await for the important planning efforts taking 
place right now in the Tri-County region with respect to 4(d) 
rules.
    I request of the Federal officials, is that as questions 
arise about Federal actions, they will listen and offer 
constructive and concrete suggestions on how to remedy any 
obstacles created by those actions.
    A unified partnership involving all entities is the best 
way to move salmon recovery forward. And I hope that by the 
time another salmon summit is convened in a year or so, we will 
have even more positive stories to share.
    With that, we will hear from Senator Murray.

               Opening Statement of Senator Patty Murray

    Senator Murray. Thank you very much, Mr. Chairman. I'm 
pleased to be here today with you and Congressman Norm Dicks 1 
year after our last gathering to hear how salmon recovery 
efforts are progressing.
    It is really great to see so many involved and interested 
parties that have come here today to share their thoughts on 
salmon recovery efforts, and I want to thank everybody who's 
taken time to be here today to participate in this important 
hearing.
    I still believe that the people of our State and region 
continue to face the challenge of salmon recovery with the 
determination and commitment. We are faced with a remarkable 
challenge, and our State, our counties, our cities, our tribes 
and citizen groups are working together to bring our runs back 
to a healthy State, while maintaining a healthy economy, both 
of which are very important to our quality of life here in 
Washington State.
    I do believe concern and apprehension are rising across the 
State as we come closer to a decision on the four lower snake 
dams and the implementation of the 4(d) rule, and while this is 
understandable, we should be consciously trying to avoid 
unnecessarily inflating tensions.
    And I must say, I'm concerned with what I believe is a 
difference in the constructiveness of the debates that are 
occurring in different parts of our State.
    While the recovery efforts here in the Puget Sound area and 
other parts of Western Washington has its share of problems, I 
believe that there remains a shared desire to move forward in 
the recovery of salmon. On the east side, however, I worry that 
we are failing to move beyond the dam debate. Perhaps that's 
impossible until NMFS releases its biological opinion, but we 
all know changes are necessary in the other 3Hs for recovery to 
succeed, and I hope we can start to move forward to develop 
shared visions in those areas.
    There is no one-person agency or industry responsible for 
our situation. Our conscience and the law of the land say we 
have a responsibility to recover our salmon stocks, and it's a 
responsibility we all share. We can meet that responsibility if 
we cooperate, if we seek innovative solutions, and if we 
maintain open and constructive communications.
    There are good recovery planning and action efforts, both 
big and small, that are occurring across our State. Last June, 
I attended the reopening of the Hazell Dell Slough. That 
project is just one example of collaborative, on-the-ground 
activities that are occurring around our State.
    New efforts will hopefully include one in the Okanogan, 
where the Colville Tribe and the Okanogan irrigation district 
have proposed a joint effort on water use that I hope we in 
Congress will be able to help and support. Senator Gorton has 
legislation to study a similar proposal by the Kennewick 
irrigation district, and I will certainly support that effort.
    I have introduced legislation to create the Puget Sound 
Ecosystem Restoration Initiative and with Senator Gorton as a 
co-sponsor. I also want to thank Congressman Inslee for his 
leadership on this legislation in the House. He has his bill 
supported by Congressmen Dicks, McDermott, Metcalf, Smith, and 
Baird. So we do have good constructive efforts in a bipartisan 
way moving forward.
    What should be noted is that all of the initiatives I just 
mentioned were conceived at the local level. This bottom-up 
approach to recovery is absolutely vital to all of our efforts.
    Let me be clear. We need local communities. We need their 
commitment and their unique knowledge of local conditions to 
get results.
    We also need to work on larger policy and framework issues. 
The Timber Fish Wildlife agreement is a good example of a large 
scale effort to meet recovery goals and provide certainty to 
our economic base.
    I applaud those who are positively engaged in the similar 
agriculture, fish, and water process. The Governor and Jim 
Jesernig, who's director of the State's Department of 
Agriculture, have done a tremendous job of moving this process 
along, which I believe holds great promise. I hope industry 
will continue in this constructive dialogue, and I urge the 
Federal agencies to prioritize the AFW process as they did with 
the TFW agreement.
    As I mentioned, this is a shared responsibility, and I also 
want to recognize today the leadership of the Clinton-Gore 
administration in helping the region deal with this complex 
issue.
    From going toe-to-toe with Canada on the Salmon Treaty to 
providing local resources for recovery efforts, the president 
and vice president have shown commitment to this issue. From 
local communities to the administration, we all have a role to 
play, and I'd like to spell out what I think NMFS and the 
Congress needs to do to ensure that we produce real results.
    First, NMFS needs to provide clear goals, and then they 
need to help in reaching those goals, and overall, expedited 
communication.
    Congress also has responsibilities in this relationship. 
Congress needs to first ensure that NMFS is communicating with 
constituents, identifying goals and working with constituents 
to meet those goals. Congress also needs to provide resources, 
including to NMFS in the form of manpower, to ensure that when 
cities or counties have questions, there is someone there who 
can get them the answers.
    We all know that the best opportunity to protect our 
economy and our quality of life is to work together. We must 
recognize and identify problems, and then approach them 
constructively. I believe the initiatives mentioned before our 
perfect examples of such approaches, and I look forward to 
supporting more such proposals.
    As some say, the low hanging fruit has already been picked. 
The harder work is yet to come. I strongly believe, however, 
that in the end, what is best for salmon will likely be what is 
best for us and for our children's future.
    Mr. Chairman, I do want to apologize to you and some of our 
later witnesses. I do need to leave about 2:15. I have another 
hearing on youth violence that is very appropriate for today as 
well that has been planned for some time. But I will be reading 
the testimony of all the witnesses, and I do want to thank 
Senator Gorton and Congressman Dicks for participating in 
today's hearing. Thank you.
    Senator Gorton. Congressman Dicks.

                Statement of Representative Norman Dicks

    Mr. Dicks. Thank you, Mr. Chairman, and Senator Murray, 
it's good to be with you today.
    I'd like to start by offering my thanks to Senator Gorton 
for holding this hearing again this year and for asking me to 
participate with him. As a ranking Democratic member on the 
House Interior Appropriations Subcommittee, and with Senator 
Gorton chairing the Senate Interior Subcommittee, and of 
course, Patty Murray being on the Appropriations Committee, we 
all look forward to the continuing key role we can play to help 
the region respond to the salmon and bull trout listings.
    Many of the witnesses that we will hear from today also 
participated last year. I look forward to hearing their 
perspective now that we are a year into our recovery effort and 
beginning to face important deadlines under the Endangered 
Species Act.
    We are both very pleased that so many of our colleagues are 
able to join us today. And Representative Inslee, as I'm told, 
will be joining us a little later this afternoon. And we each 
extend our appreciation for the individuals and groups who will 
be providing testimony.
    We thank you for your time and commitment to restoring 
these salmon runs. I'm pleased that we can again listen to the 
region in this forum. I think it is imperative that Congress 
fully understands the significance of these particular listings 
under the Federal Endangered Species Act.
    People in the region have probably heard this before, the 
point is extremely important. There has never been an ESA 
listing impacting such a large urban area, and the species 
itself is one of the most complex ever listed.
    We will need to pool our efforts and our expertise if we 
are to be successful in the recovery of these fish. And no one 
agency or group can do it alone. This will require massive 
cooperation among all levels of government and with private 
groups.
    As many of you are aware, President Clinton and Vice 
President Gore, at the request of our delegation, and 
particularly Senator Murray and I, included $100 million for 
the West Coast Salmon Recovery Initiative last year and again 
this year in the administration's budget request. That's always 
helpful. It's much more difficult to add money if it's not in 
the budget.
    This funding last year helped provide critical support to 
our local governments and tribes as we began implementation of 
restoration activities in the Puget Sound area. And I want to 
commend Senator Gorton for getting $80 million added in the 
Senate bill last year. He played a crucial role.
    We are deeply committed to securing these funds again this 
year because we recognize that the recovery will be a multi-
year effort and that these funds will again be very well used. 
I am pleased that the administration recognized that this 
effort requires a substantial Federal commitment, but any 
Federal commitment must be a partnership with the region.
    The Federal salmon money requires a State match. You have 
our assurance that we in the Congress will do whatever we can 
to secure additional Federal dollars this year and are pleased 
to see the State has also demonstrated its firm commitment by 
providing State funding.
    The Salmon Recovery Initiative is crucial, and it has an 
even better chance of success now that we have reached, as 
Senator Murray mentioned, a new agreement with Canada on the 
U.S.-Canadian Pacific Salmon Treaty.
    To implement the new agreement, the administration 
requested $60 million last year, which we were not able to 
fully fund, but we did get started. And this year, the 
administration is requesting, again, those same level of 
funding, which I hope the Congress will be able to provide.
    We must acknowledge the linkage of the State's recovery 
efforts with the Salmon Treaty because of the basic life cycle 
of salmon. And agreement to reduce the harvest on these 
threatened endangered runs is providing invaluable help to each 
of the State's recovery efforts.
    The administration has, again, included requested funding 
for tribal participation in the Salmon Initiative. We must 
recognize our commitment and legal obligation to the Pacific 
Northwest tribes, and I'm committed to securing additional 
funds this year to ensure their full participation in the 
recovery effort.
    I'm pleased that my good friend, Chairman Bill Frank of the 
Northwest Indian Fisheries Commission, will join us today and 
look forward to his testimony. As co-managers of our State's 
fisheries, we must act in tandem with the tribes on any and all 
recovery strategies.
    I also want to compliment the local efforts in the region 
for their dedication and devotion to his very difficult issue. 
And I'm pleased that the Senator is meeting with the Hood Canal 
Salmon Enhancement Group, a group from my area, over in the 6th 
Congressional District, that we have been funding over about a 
5-year period. And I believe that the work that they're doing, 
along with Long Live the Kings, has really been instrumental in 
helping to restore salmon runs in the Hood Canal area. They've 
done some amazing work in removing culverts and improving 
habitat and doing a supplementation. I think it's a real 
example--a key example in the State--of how we can get this 
done.
    And I might add that I even went out last year in September 
and viewed some of these Chinook salmon jumping right out in 
front of Lilliwaup, and it was quite enticing.
    So I'm with the Senators. I think these salmon enhancement 
groups all over our State--and we've been helping support them 
from the Federal level back to the State and now through the 
foundation--have done some extraordinary work and can do much 
more. And we need to support them; we need to enthusiastically 
give them a little help.
    It is my hope that this year's hearing will help us clarify 
and focus our efforts on the massive task of recovering these 
fish. I look forward to hearing the witnesses' testimony, and 
knowing that our time is limited, look forward to reading any 
additional testimony submitted by others.
    So, Mr. Chairman, thank you for providing this hearing 
again and this opportunity to hear from all of our local 
friends. And again, thank you for your continued leadership on 
this important issue.

STATEMENT OF WILLIAM RUCKELSHAUS, CHAIRMAN, STATE 
            SALMON RECOVERY FUNDING BOARD

    Senator Gorton. Thank you, Congressman Dicks. I must say, 
as a slight further introduction, that I think that the State 
has been very fortunate, and Governor Locke very wise, as 
picking Bill Ruckelshaus as the chairman of the State Salmon 
Recovery Board.
    I know it was a hard sell. It was not something he 
volunteered before immediately, but the Governor picked the 
very best person available in the State of Washington, in my 
opinion, for that position. And we will now begin the hearing 
by hearing from him as to what he has to say.
    Mr. Ruckelshaus. Mr. Chairman, thank you very much for 
those kind words, Senator Murray, Congressman Dicks.
    When you held this hearing last year I was here in a 
somewhat different capacity. I was then appearing on behalf of 
a collaboration of business and environmental interests; there 
were business and environmental leaders. I suggested that we 
create a coordinator for doing all this across at least our 
State.
    That suggestion has not resulted in anybody. It certainly 
isn't me. That was not who I had in mind anyway when I made the 
suggestion, but the Governor did ask me to Chair this Salmon 
Recovery Funding Board, and I'll give you just a minute on 
that.
    I have submitted a statement for the record.
    Senator Gorton. It will be included in the record in full.
    Mr. Ruckelshaus. I will not read the whole statement; we'd 
be here all afternoon if I did. Let me just take about 5 
minutes to tell you that, essentially my message is optimistic.
    I think a lot of good things have happened between now and 
this hearing a year ago. By no means are we home free, but a 
lot of things have happened.
    Both Senator Gorton and Senator Murray mentioned the local 
groups and their dedication to restoring habitat. In my view, 
that's the single biggest asset this State has right now, is 
the energy and enthusiasm of the people living in these 
watersheds; their knowledge of what needs to be done to restore 
habitat friendly to salmon and the work that they've been 
doing, in some cases 15-20 years.
    You can't travel--as I know you have, all three of you 
have--to these parts of the State and not be impressed with the 
tremendous enthusiasm, inspired really by the enthusiasm of 
these people in these watersheds.
    I think we have the beginning of a collaborative leadership 
approach here in Puget Sound. Increasingly, science is 
informing our decisions, and I think, as all of you have 
mentioned in your opening remarks, there is increased funding 
at the Federal and State level for salmon recovery.
    All of those things are important. As I mentioned, they're 
not in and of themselves enough, but they certainly are steps 
in the right direction and things that we can take some hope 
from.
    There are also a number of other things happening that are 
terribly important that indicate leadership that is springing 
up throughout the State. There are regional recovery efforts 
going on in the Southwest Washington--along the Columbia River. 
The Lower Columbia Fish Recovery Board has been created by the 
legislature. It is now itself representing some four or five 
counties, preparing a recovery plan for that part of the 
Columbia River.
    There are governments and tribes working in North Central 
Washington, in Southeastern Washington, doing really remarkable 
things against some pretty long odds. And again, when you're on 
the ground looking at the projects that have been sponsored and 
worked on by those people, it really is inspiring.
    As you mentioned, the Salmon Recovery Board has been 
created. We've been in operation since August. All of our 
meetings have been held in the open. We have issued a scoping 
document that dictates what we understand to be our 
responsibility. It's essentially to try to restore and preserve 
habitat that is friendly to the fish, to do that in conjunction 
with the lead entities that were created by the legislature and 
the same statute that created the SRF Board.
    These lead entities are local groups selected by 
governments and assisted by citizen committees that are 
appointed to the lead entities. It's through those lead 
entities that every request for projects come to the SRF Board.
    We have had one round of funding. All of our work, by the 
way, has been done completely in the open so that people could 
see what we're doing and what we're thinking. We promised in 
this first round of funding--which was concluded last month--
that we would fund somewhere between $10 and $15 million worth 
of projects. We did this.
    We purposely kept this first round relatively low to 
learn--have the board learn--learn how we can help the lead 
entities in partnership present to us the projects that are 
scientifically based and most likely to see that that money is 
spent to ensure that it will assist salmon.
    As would be true in any first round, it wasn't perfect. 
There are unhappy people who didn't get our their projects 
funded. We had 270 requests for some $45 million. We funded 84 
projects at $13 million.
    Tri-County is working. The Hood Canal Coordinating Council. 
There are hatchery reform efforts going on which you're going 
to hear about later. There are improved protection programs in 
a number of counties. The co-managers are setting interim 
goals, the co-managers being the tribes and the State, 
Department of Fish and Wildlife. These are all examples of 
progress.
    One last, and I think very important effort that is going 
on, is one of the purposes of this first panel, and that is, to 
coordinate everything that is going on among levels of 
government, and within a particular level of government, the 
various agencies that are involved.
    Dan Evans and I convened a meeting over in Port Ludlow last 
October, and invited some 200 people. And most of all of them 
attended from State, Federal, tribal citizen groups, and local 
watershed groups in Puget Sound to see if we couldn't develop a 
shared strategy.
    We came out of that meeting that lasted 2\1/2\ days with a 
commitment to a shared strategy. People had been working very 
hard on it ever since, people who were there, Terry Williams, 
representing the Tualip Tribe; Bob Kelly from the Nooksack 
Tribe; Jeff Koenings, who is the director of the Washington 
State Fish and Wildlife; Will Stelle, the regional director of 
NMFS; Gerry Jackson, the regional director of the U.S. Fish and 
Wildlife Service; and Curt Smitch from the Governor's Salmon 
Recovery Office, all have been meeting for weeks now to try to 
develop a shared strategy so that we could be all singing from 
the same sheet of music and pulling in the same direction in 
Puget Sound. We're focused on Puget Sound.
    A test of my testimony is some of the early results of what 
we've done. It's an effort to draw timelines and show how 
coordinating the science, the recovery goal and the development 
process. The technical review team for Puget Sound that's now 
been appointed by the National Marine Fisheries Service is 
undertaking coordinating planning, coordinating the harvest 
hatchery habitat efforts and measuring results, and then 
ensuring that adequate funding is there.
    The other figure that I presented indicates where we are 
now and the kinds of things that will be address through early 
actions, through the use of things like the 4(d) and the goals 
that will be set by the technical recovery team and then 
adopted throughout the Puget Sound area, these things will 
result in the fish coming back. It's going to take a while. It 
won't happen overnight, and there will be a lag in which we see 
fish beginning to come back in significant numbers as these 
shared strategies begin to take place.

                           PREPARED STATEMENT

    I think all of this is very hopeful, and it also is aimed 
at trying to support, what I mentioned, was I think the most 
important asset, and that is the energy and enthusiasm of these 
people at the local level. We've got to give them the kind of 
help that they need and get behind them. And if we do that, I 
think we have the chance of a successful outcome of this over 
time.
    [The statement follows:]

               Prepared Statement of William Ruckelshaus

    In its consensus statement of March 15, 1999, the Washington Salmon 
Collaboration identified the need to ``expand and intensify--efforts to 
ensure effective coordination and collaboration within and among all 
levels of government'' as one of its overarching recommendations for 
actions needed to recover the threatened Puget Sound Chinook salmon. In 
this paper we expand upon the rationale for greater coordination, 
provide specific examples where it would be helpful, and suggest one 
mechanism for achieving this goal. This paper represents the views of 
the authors only, and is not a consensus document of the collaboration. 
We plan to discuss these issues at upcoming meetings and may develop 
consensus recommendations at that time.
    The citizens of the Pacific Northwest face an unparalleled 
challenge in their efforts to design an effective strategy to restore 
the health of salmon populations throughout the region. Within 
Washington state alone, 16 species of salmon are listed as threatened 
or endangered, and the bulk of the state, including the heavily 
populated Puget Sound region, is now affected by listed species. A 
number of additional populations are listed as threatened and 
endangered in Oregon and California with still more proposed for 
listing in all three states.
    The number, scope, and nature of these endangered species listings 
have created a situation never before experienced in the implementation 
of the Endangered Species Act. Other endangered species such as the 
grizzly bear or the bald eagle have spanned large geographic ranges and 
still others, like the California gnatcatcher, have been listed near 
heavily urbanized centers. But no other listing or series of listings 
share the set of attributes of the threatened and endangered salmon. 
Some of the features of the salmon listings that have direct 
implications for the design of recovery efforts are the following:
    Regional scale.--The set of salmon listings will significantly 
affect four states (California, Oregon, Washington, and Idaho) and will 
have some effect on Alaska and Canada. Federal, state, local, and 
tribal governments and agencies, as well as relationships with Canada, 
must be effectively integrated across this region.
    Multiple listings.--Because multiple species and Evolutionary 
Significant Units (ESUs) are being listed, the application of science 
to the design of recovery strategies and the nature of recovery 
activities themselves must be different for salmon than has been the 
case with other wide-ranging species. Since the ecology and demography 
of each salmon ESU is distinct, extensive data and analysis is needed 
to develop recovery strategies for each ESU and recovery actions must 
be taken across all ESUs. Setting aside a few large protected areas can 
sometimes be pivotal in maintaining populations of wide-ranging 
species. That strategy cannot work in the case of the multiple ESUs of 
salmon.
    Freshwater life stages.--Freshwater ecosystems are the ultimate 
``integrator'' of land use practices. Changes in land or water use or 
release of pollutants anywhere within a watershed can, and often does, 
affect the downstream freshwater ecosystem. Consequently, in principle 
human actions anywhere across the landscape could potentially harm 
salmon habitat and be considered a ``take,'' which makes it difficult 
to establish practical but scientifically based take prohibitions. 
Conversely, recovery strategies need to take into account the entire 
set of human actions within a region in order to protect and restore 
salmon habitat.
    Multiple driving forces.--Salmon have declined as a result of 
habitat loss and degradation, water pollution, overharvesting, and 
negative impacts of hatchery programs. Effective recovery efforts 
require actions that address all of these driving forces, yet each has 
its own institutional and political dynamics and its own stakeholders. 
Whereas the spotted owl listing required that a solution was acceptable 
to one important industry (forest products) and its stakeholders 
(including forest dependent communities), the salmon listing multiples 
this challenge many-fold.
    Low ``Signal to Noise'' ratio.--Salmon populations are notoriously 
variable. Year to year stochastic variations in recruitment and 
survival, compounded by decadal variation in such variables as ocean 
productivity, make the detection of population trends and the analysis 
of the effectiveness of management interventions extremely difficult. 
Long-term studies are typically needed to isolate the ``signal'' from 
the environmental noise in any demographic study of salmon.
    These attributes of the salmon listing pose obstacles to the design 
of effective recovery efforts in the Pacific Northwest and it is 
unlikely that experiences with previous endangered species listings can 
provide suitable models for this situation. Successful recovery efforts 
will require a level of coordination ``horizontally'' across states 
(and nations), and ``vertically'' from local governments to federal 
agencies, unprecedented in the history of resource management in the 
western United States. For this reason, the Washington Salmon 
Collaboration has identified the need for more effective coordination 
among and within all levels of government as one of the primary 
overarching needs for scientifically based, cost efficient, and 
effective recovery strategies. In particular, we believe that there is 
an opportunity within the Puget Sound region to attempt a ``pilot'' 
effort at this type of coordination, with a focus on the recovery of 
the Puget Sound Chinook and other listed species within this ESU.
    The current efforts to establish the scientific basis for recovery 
strategies and the processes underway to develop recovery plans 
themselves illustrate both the need for more effective coordination and 
the costs associated with the lack of that coordination, and we discuss 
these two situations below.

                     ENSURING SCIENCE-BASED ACTION

    Numerous initiatives are now being launched across the Northwest to 
help provide the scientific basis for salmon recovery planning. In the 
case of Puget Sound, the various science bodies that exist or are being 
proposed that would have input into the design of a recovery strategy 
include:
  --The Independent Science Panel established by State legislation 
        (HB2496) to provide peer review of recovery efforts;
  --The Interagency Review Team established by State legislation to 
        ensure (among other tasks) that project funding is based on the 
        best science;
  --Technical Advisory Groups (TAGs) established for each Water 
        Resource Inventory Area (WRIA) to identify limiting factors for 
        salmon in each watershed;
  --A proposal by the Northwest Chapter of the Society for Ecological 
        Restoration to establish an independent science panel for the 
        Puget Sound Chinook ESU;
  --A study being launched by the Trust for Public Lands to undertake a 
        GIS-based assessment of highest priority habitats for salmon 
        recovery in the Puget Sound region;
  --A study funded by various local companies (Port Blakely Tree Farms, 
        Simpson Timber, and others) of limiting factors for salmon in 
        the Puget Sound ESU;
  --The NMFS recovery planning effort.
    This proliferation of assessment activities reflects the importance 
of ``getting the science right'' but also presents significant costs 
and risks. Multiple scientific assessments will result in duplication 
of effort. Moreover, rather than resolving areas of scientific 
uncertainty, the many different initiatives will inevitably reach 
somewhat different conclusions and identify somewhat different 
priorities, posing the risk that recovery efforts will be slowed while 
the reasons for differences are explored, debated, and resolved.
    There would be significant cost and efficiency benefits to be 
gained by a coordinated effort to: (a) identify limiting factors within 
each ESU, and (b) prioritize potential recovery actions in terms of 
their biological effectiveness in recovery, and (c) ultimately 
determine the population size and characteristics necessary for de-
listing and the recovery actions that will be required to achieve those 
goals. Either NMFS or the State could take the lead in coordinating 
such ESU-focused assessments, building on the WRIA activities underway 
and the other scientific efforts listed above.

                DESIGNING AN EFFECTIVE RECOVERY STRATEGY

    Both the State and many local governments in the Northwest are 
developing salmon recovery plans in anticipation of, or response to, 
the Endangered Species Act listings. Within Washington state, 
legislation passed in 1998 established a Salmon Recovery Office and 
launched a series of watershed-based recovery planning activities. In 
January 1999, the Governor released a draft recovery strategy 
``Extinction is not an Option'' laying out a series of actions to be 
taken to ensure salmon recovery. The three most urbanized counties, 
King, Snohomish, and Pierce Counties have coordinated their activities 
through the ``Tri-County Process'' and have submitted a recovery 
strategy to the National Marine Fisheries Service. And individual 
cities, such as Bellevue and the City of Seattle are also developing 
and negotiating recovery plans and HCPs with the National Marine 
Fisheries Service.
    Here too, the lack of effective coordination of these planning 
activities poses significant risks for the design of effective recovery 
efforts. Neither NMFS nor the Fish and Wildlife Service, the two 
federal agencies responsible for determining whether the recovery plans 
meet the requirements of the ESA, are centrally engaged in the planning 
effort. Instead, influenced by their regulatory role and their 
interpretation of their legal obligations, the federal agencies have 
provided advice in the development of plans but, with the exception of 
a process to negotiate new forest regulations, have not directly shared 
responsibility for the development of those plans. A more effective 
approach would be for all levels of government to ``sit at the same 
table'' and jointly craft a recovery plan meeting the legal 
requirements of the ESA. (In many cases, such plans may well exceed the 
legal requirements due to the general public and political support for 
salmon recovery in the Northwest.)
    Two examples from the Pacific Northwest of this type of 
coordination and engagement of various government agencies with shared 
responsibility for the resource are the Timber Fish and Wildlife (TFW) 
agreement in Washington state and the Forest Ecosystem Management 
Assessment Team (FEMAT) established in response to the listing of the 
Spotted Owl.
    In the case of the TFW, federal agencies are one of six 
``stakeholders'' in the negotiating process for setting timber 
management regulations in Washington State. Other stakeholders include 
the tribes, local governments, state agencies, private business, and 
environmental organizations. Although the most recent TFW negotiations 
failed in August 1998, when environmental groups decided not to 
continue with the negotiations, aspects of this model provide a much 
more promising arrangement for ensuring that all levels of government 
successfully develop a ``joint'' plan.
    FEMAT is another institutional arrangement established to meet the 
unique needs of responding to the listing of an endangered species that 
crossed multiple institutional boundaries. Following President 
Clinton's April 2, 1993 Forest Conference, the President established 
the Forest Ecosystem Management Assessment Team to develop options for 
the management of Federal forest ecosystems. Each option was to provide 
habitat that would support stable populations of species associated 
with late-successional forests, including the northern spotted owl. On 
July 1, 1993, the President identified the FEMAT report's Option 9 as 
the preferred alternative for amending the Federal agencies' land 
management plans with respect to late-successional and old-growth 
forest habitat. This option was ultimately challenged in court but on 
December 21, 1994, Federal District Court Judge William L. Dwyer 
rejected a number of plaintiffs' challenges and issued an order to 
uphold the Forest Plan. According to Judge Dwyer, the Forest Plan ``. . 
. marked the first time in several years that the owl-habitat forests 
will be managed by the responsible agencies under a plan found lawful 
by the courts. It will also mark the first time that the Forest Service 
and BLM have worked together to preserve ecosystems common to their 
jurisdictions.''
    The salmon listings differ somewhat from both the TFW and FEMAT 
experiences. Unlike FEMAT, the need for coordination in the case of the 
salmon listings extends well beyond federal lands and must involve 
states, tribes, local governments, and private landowners. Unlike TFW, 
the salmon issues extend to non-forest ecosystems. But what these 
models share, and what can likely be applied to the salmon recovery 
challenge, is the need to empower one collaborative body with the 
requirement of crafting a joint solution. This does not yet exist in 
the case of salmon recovery efforts. Instead, the coordination that 
does exist tends to be restricted largely to information exchange. For 
example, the Tri-County Executive Committee developed a set of early 
action proposals in the hopes that they would be considered sufficient 
by NMFS, but not in direct collaboration with NMFS. Similarly, NMFS, 
state legislators, and local government officials participate in a 
coordinating council chaired by the Governor's Special Advisor for 
Natural Resources. However, in neither of these venues are the various 
parties collectively responsible for crafting solutions.
    As the Tri-County process has moved forward, by some accounts the 
interaction with NMFS has increasingly become one of joint negotiation 
and collaborative planning. However, even if the various levels of 
government become better coordinated in the case of these three 
counties, the problem still remains that the process of ``rolling up'' 
the various recovery proposals and actions in other counties around 
Puget Sound into an overall strategy for the recovery of the Puget 
Sound Chinook ESU is not one of partnership among all levels of 
government.
    The costs of proceeding without a more effective means of 
coordinating the development of a response strategy are likely to be 
high. Without a collectively ``owned'' plan, the likelihood for legal 
challenges is heightened, and the likelihood of success of such 
challenges is also increased since different institutions will take 
different positions on recovery needs. A proliferation of separate 
planning activities and separate negotiations with NMFS will diminish 
the ability to use science as the basis for recovery planning, since 
individual negotiations will be driven by the unique political aspects 
of each local or regional government. Multiple planning activities will 
tend to overwhelm the already stretched federal agencies charged with 
implementation of the ESA and may overtax the limited number of 
scientists who have expertise on these systems. And, there is a 
significant risk that a more fragmented approach to developing recovery 
plans will become bogged down in inter-institutional rivalries and 
proceed at a glacial pace. Such delay in the development of an 
effective plan will inevitably increase the ultimate cost of recovery 
and the likelihood of judicial intervention and decrease the potential 
for successful recovery.

          A NEW INSTITUTIONAL ARRANGEMENT FOR SALMON RECOVERY

    In light of the unique features of the listing of salmon in the 
Northwest and the challenges that it currently poses for the 
institutions responsible for recovery, more effective means of 
coordination within and among the responsible governments seem 
essential. We believe that this situation may demand a novel 
institutional arrangement.
    A priority should be the establishment of a single negotiating 
process that involves state, tribal, local, and federal agencies in the 
joint development of both statewide and ESU-specific recovery plans. 
More specifically, we believe that as a pilot activity, a new mechanism 
for coordination among all levels of government should be established 
for the development and implementation of recovery planning efforts 
within the Puget Sound ESU. Such a process could be created by the 
joint appointment by Governor Locke and President Clinton of a special 
representative with authority to oversee the coordination of the 
scientific assessments of: (a) limiting factors, (b) recovery 
priorities, and (c) recovery targets and with the authority and 
responsibility for overseeing the negotiation of the ESU-specific 
recovery plans for the Puget Sound basin. Following the example of 
other state/federal collaborative models, such as the CALFED Bay-Delta 
program and the South Florida Ecosystem Restoration Program, the 
coordination would also likely involve the establishment of a 
Memorandum of Understanding among the various agencies. The special 
representative or ``coordinating council'' of agencies would not take 
on project responsibilities and would not undertake their own 
assessments or planning activities but would instead ensure that the 
activities being undertaken by the member agencies are effectively and 
strategically coordinated. And, this council would provide the venue 
for negotiation of recovery plans or the development of alternative 
plans for the final review and approval by policy-makers.
    A number of alternative arrangements could be considered with 
various strengths and weaknesses. For example, the special 
representative could be appointed by the President and the Governors of 
Oregon, Washington, and California (and possibly a Tribal 
representative) to ensure effective coordination at a regional level 
(e.g., Pacific Northwest) or for the State of Washington rather than 
just the Puget Sound Chinook ESU. Whatever mechanism is established, a 
key to its success is likely to be the presence of a clear mandate from 
the State and Federal level so that the individual and institution are 
seen to be acting under the direct authority of the governor and 
President.

                              CONCLUSIONS

    The challenge of recovering endangered salmonids in the Puget Sound 
Region is significant, but the willingness of individuals and 
institutions to take on this challenge is perhaps unique in the history 
of the application of the ESA. Given the number of different agencies 
and levels of government that must be involved in successful recovery 
of the fish, however, there is a very high likelihood that recovery 
efforts could be slowed dramatically without the creation of an 
effective means of coordination across all levels of government. 
Already, we see a risk that the lack of effective coordination is 
leading to inefficiencies and redundancies. We suggest that a pilot 
effort be undertaken to appoint a special representative for the Puget 
Sound region and formalize an agreement among the relevant governments, 
agencies, and tribes to ensure that the responsible institutions 
develop and implement a single cohesive recovery plan.

Attachment.

    Statement of the Washington Salmon Collaboration, March 15, 1999

    The Washington Salmon Collaboration is an unusual group of 
Washington's environmental and business leaders whose goal is to assist 
in designing and implementing policies and plans developed for the 
recovery of Puget Sound Chinook salmon and the ecosystems on which it 
depends, in the event that it is listed as threatened under the 
Endangered Species Act. Over the past four months, the group has 
invited representatives of the State Salmon Recovery Office, National 
Marine Fisheries Service (NMFS), the Tri-County process, the Northwest 
Indian Fisheries Commission, and the City of Seattle to participate in 
some of its meetings as well as scientists from the University of 
Washington and the private sector. Members of the collaboration have 
also discussed the objectives of this effort with leaders in the 
Washington State Legislature.
    We are seeking consensus because we believe that salmon recovery 
will contribute to the quality of life for all citizens in the 
Northwest. We seek to ensure that the recovery strategy developed for 
the Puget Sound Chinook is scientifically based, cost-efficient, and 
effective. Healthy salmon populations are reflective of an overall 
level of environmental health that will undergird the northwestern 
economy and contribute to our quality of life and that of our 
grandchildren. We thus encourage forthright efforts to address the 
challenge represented by the likely listing of this species. We believe 
that the only alternative-a reactive approach-will slow action, 
encourage litigation, add uncertainty, increase the costs, and 
ultimately diminish the ability of the people and institutions of our 
region to influence the restoration of Puget Sound Chinook populations.
    We offer specific proposals for actions in this statement that 
represent a consensus among the participants listed below and that will 
contribute to a balanced strategy for recovering Puget Sound Chinook 
salmon. Many of these policies and actions have been proposed in the 
January 1999 ``Draft Statewide Strategy to Recover Salmon,'' in 
existing and proposed legislation including HB2496, and in the Tri-
County salmon recovery process. Thus, the following recommendations are 
intended in part to lend support to actions already underway, those 
being considered by state and local governments, and in part as new 
proposals. These recommendations are by no means exhaustive, yet we 
recognize that salmon recovery depends on a comprehensive approach. Our 
collaboration continues to discuss wide-ranging proposals and we plan 
to meet with many of the stakeholders and make additional suggestions 
and recommendations in the coming months.
    In the recommendations that follow, references to ``listed salmon 
populations'' refer only to Puget Sound Chinook salmon and to other 
species or populations in the salmon family found in the same 
watersheds as the Puget Sound Chinook that are threatened or endangered 
under the Endangered Species Act. We believe that actions taken should 
treat populations proposed for listing, such as the Bull Trout, in the 
same manner as listed species during the period in which a final 
determination is being reached. We believe that a multispecies recovery 
strategy within this region will prove to be most scientifically 
justified, cost-efficient, and effective. Plans and actions developed 
for listed salmon populations should also take into account species 
under review for listing in the event that they too are proposed for 
listing. We recognize that many of the following recommendations may be 
appropriate for other regions of the state but we have restricted our 
own focus and that of these recommendations to the region of the Puget 
Sound Chinook Evolutionarily Significant Unit (ESU).

                            BASIC PRINCIPLES

    As context for our specific proposals, it is worth noting five 
overarching recommendations of our group:
  --The goal of recovery efforts should be to recover listed salmon 
        populations to sustainable and harvestable levels. By this we 
        mean that:
                  1. We must reach the point where Puget Sound Chinook 
                salmon are no longer threatened with extinction;
                  2. Wild production and compatible artificial 
                production should provide harvest opportunities and 
                fulfill treaty obligations;
                  3. Any harvest allowed should not jeopardize recovery 
                of the listed populations and, to the extent possible, 
                consistent with treaty obligations, should contribute 
                to recovery goals.
  --All of the 4-H's (Habitat, Harvest, Hatcheries, and Hydro) 
        contributed to the decline of salmon in the region, and all 
        must be considered as part of the solution. An effective 
        balance of actions across these areas must be established that 
        takes into account such factors as the scientific-basis, cost-
        efficiency and effectiveness of actions in each sector as well 
        as cultural issues and treaty rights related to the role of 
        salmon in the region.
  --A salmon recovery plan for the Puget Sound Chinook agreed to by all 
        levels of government must be developed to achieve the recovery 
        goal. This plan must be based on sound science and identify 
        measurable objectives and the actions that will be needed to 
        achieve those objectives.
  --We encourage the Governor to continue to expand and intensify his 
        efforts to ensure effective coordination and collaboration 
        within and among all levels of government. More specifically:
                  1. Improved collaboration among federal, tribal, 
                state, and local governments is essential to ensure 
                that the design of Washington's recovery strategy is a 
                collaborative product of all the responsible 
                governments. The design of the recovery strategy should 
                also find ways to meaningfully involve all other 
                stakeholders, including businesses, non-governmental 
                organizations, and individuals.
                  2. Improved coordination is needed among state 
                agencies, as well as among Federal Agencies, 
                responsible for administering programs influencing 
                recovery of salmon populations to ensure that all such 
                programs and activities will support and enhance the 
                state's recovery strategy;
                  3. Coordination should be continued with governors in 
                other states in the Pacific Northwest to discuss and 
                share information, goals, and strategies regarding 
                recovery of listed species throughout the region.
  --The recovery of Puget Sound Chinook can best be achieved through a 
        phased process of developing and implementing a recovery 
        strategy:
                  1. In the first phase, early actions are needed to 
                identify, avoid, and reverse harm to listed populations 
                of salmon and to develop a scientifically based, cost-
                efficient and effective recovery strategy. The early 
                actions should be based on sound science and 
                prioritized to ensure that financial resources are 
                invested in ways that provide the greatest benefit to 
                the recovery of the species.
                  2. In the second phase, based on a recovery strategy 
                developed during Phase I, a full set of actions capable 
                of recovering populations would be developed and 
                implemented over time. To ensure the success of Phase 
                II, we believe that it is of the utmost importance to 
                set quantifiable and measurable recovery objectives. A 
                sustained commitment to significant action will be 
                needed to achieve these objectives. Actions may need to 
                be modified during Phase II in response to experience 
                and new information, but we can only expect the 
                necessary commitment to significant action if the 
                objectives being pursued are clear. Such an approach 
                will also provide an important element of 
                predictability for business, local government, and 
                citizens in the region.

                             EARLY ACTIONS

    In our most recent discussions, the Washington Salmon Collaboration 
has sought to identify priorities for ``early actions'' that must be 
taken to give credibility to Phase I. A strong set of early actions, 
undertaken in the context of a phased recovery approach, is needed to 
meet the Endangered Species Act requirement to provide for the 
conservation of the species and to give time for the development of a 
scientifically based, cost-efficient, and effective recovery strategy 
closely tailored to the needs of the state and local communities. We 
recognize that related restoration activities have already begun 
throughout the state through legislation enacted during the last 
legislative session including HB2496 and through many ongoing 
community-based efforts including the Water Resource Inventory Area 
(WRIA) processes, and that these activities will contribute to Phase I. 
Early actions should also be linked to a statewide program of public 
education that helps people understand the need for these actions and 
provides scientifically based information to the public about the 
factors currently threatening salmon stocks and the importance of 
salmon recovery to the state's future.
    As indicated in the draft Statewide Strategy to Recover Salmon, a 
comprehensive strategy for recovery will involve hundreds of actions, 
many of which must begin as soon as possible. Without diminishing the 
need for this comprehensive set of actions, our group urges the 
Governor and other policymakers to identify and put into effect as soon 
as practicable a short list of early actions that demonstrate a 
commitment to reversing the decline of the Puget Sound Chinook salmon 
and that set the stage for further development and implementation of an 
effective recovery strategy. Specifically, we urge the state to 
implement the following actions:
  --Ensure that State Actions help to Conserve, Protect, and Enhance 
        Salmon:
                  1. The Governor should quickly issue an executive 
                order requiring all agencies of state government to 
                evaluate how their programs, activities, and actions 
                may be changed to avoid harm to listed salmon 
                populations and to fulfill their principal missions in 
                a way that contributes as much as possible to salmon 
                recovery. Each agency should be required to report 
                within six months how its programs will or should be 
                changed to reflect the executive order's mandate.
                  Whether an agency's principal mission is to protect 
                the environment or to promote economic development, it 
                carries out specific programs that can more effectively 
                protect and restore salmon and other programs whose 
                seemingly unrelated goals can be achieved while 
                helping, and certainly not harming, salmon recovery. In 
                carrying out this mandate, and without seeking to 
                change their principal mission, agencies should examine 
                their full range of policies and practices including 
                those related to enforcement, monitoring and 
                evaluation, employee training, community awareness and 
                public communications, employee rewards and incentives, 
                and coordination with other state agencies, and should 
                develop strategies to strengthen, change, or eliminate 
                policies or practices as appropriate.
                  2. Take the necessary steps to fully and effectively 
                enforce existing laws affecting listed salmon 
                populations.
                  This will require that the state fully and 
                effectively implement existing state permitting, 
                licensing and enforcement activities related to factors 
                influencing salmon recovery (e.g., hydraulic permits, 
                shoreline permits, water rights, commercial and 
                recreational licensing, catch limits, water quality, 
                etc.) to prevent further detrimental impacts to salmon 
                populations and to reduce the extensive backlog of 
                permit applications that are costly and burdensome to 
                the private sector. By all accounts, the state of 
                Washington has many existing laws pertaining to water 
                quality and quantity, catch limits, shoreline 
                development, and critical habitat protection that are 
                not being adequately enforced that could benefit salmon 
                if enforcement were improved. We believe that it is 
                essential that resources are provided to effectively 
                enforce these existing regulations and that highest 
                priority should be given to regions with listed salmon 
                populations.
                  3. Carefully document and review the substantial 
                salmon enhancement and habitat restoration work 
                completed and underway throughout the region and use 
                the knowledge gained to build the habitat restoration 
                and enhancement component of the state's strategy.
  --Habitat.--Secure the Base through Actions that Protect and Restore 
        the Ecosystem on which Puget Sound Chinook salmon depend:
                  1. Support the preparation of an independent peer-
                reviewed science assessment, with appropriate 
                involvement of governmental agencies, to map and 
                prioritize areas of importance to the conservation of 
                listed salmon populations within the Puget Sound 
                region.
                  Even though the development of a full recovery 
                strategy may take several years, it is important that 
                funds available today for habitat protection be spent 
                as efficiently as possible-obtaining the greatest 
                impact per dollar spent. We are informed that within a 
                matter of 3-6 months, leading scientists, with 
                appropriate state endorsement, could assemble existing 
                data and studies enabling a ``rough-cut'' determination 
                of the locations where habitat protection or recovery 
                would contribute most to stabilizing and ultimately 
                recovering listed salmon populations in this region. 
                Local watershed planning groups should contribute to 
                the analysis and be part of the review process.
                  2. Ensure that funds for salmon habitat protection 
                and restoration within the Puget Sound region are 
                allocated based on the best available science and 
                through a process involving both the public and private 
                sector. We endorse the ``Puget Sound Foundation'' as 
                originally proposed by Puget Sound Waterways as a 
                mechanism to achieve this goal, and encourage the 
                Governor and legislature to adopt this proposal.
                  State and Federal funds for habitat should be 
                distributed to local communities and other institutions 
                engaged in habitat conservation and restoration in a 
                competitive manner that stimulates collaboration among 
                public and private organizations as well as with the 
                general public. In addition to assuring a high level of 
                visibility on process and specific projects with the 
                public, we believe it will be important to stimulate 
                significant private sector contributions. Political 
                expediency should not dictate the allocation of funds 
                for salmon recovery. Whatever mechanism is used for 
                allocation of such funds should meet the following 
                criteria:
                          (a) Science-based. The majority of funds 
                        available for habitat protection and 
                        restoration should be allocated to areas that 
                        will contribute most to recovery as determined 
                        by the science.
                          (b) Open to public scrutiny. The public 
                        should have access to the information on which 
                        funding decisions are made and should be kept 
                        informed of the impact of funds allocated for 
                        habitat conservation.
                          (c) Adaptive. Projects should incorporate 
                        explicit mechanisms for monitoring results and 
                        be open to adaptation as needed to ensure 
                        results.
                          (d) Responsive to local demand. Insofar as 
                        possible, funds should be allocated for 
                        projects with clear local support, particularly 
                        as identified in the Water Resource Inventory 
                        Area (WRIA) planning processes.
                  The ``Puget Sound Foundation'' meets these criteria 
                and could contribute to salmon recovery in the region, 
                although it would be only one of many needed actions 
                (including those identified in this document). In 
                addition, such a foundation could serve as a vehicle 
                through which private entities can provide funding for 
                specific restoration activities through a project 
                allocation process guided by science and cost-
                effectiveness. A well-designed and managed allocation 
                process, with a strong foundation in science, will be 
                more likely to attract funding from private sources, 
                which will be critical to many important restoration 
                projects in the Puget Sound region.
                  3. In watersheds containing listed salmon 
                populations, the state should not authorize new water 
                withdrawals that would reduce flows below levels set by 
                instream flow rules, and, in rivers without instream 
                flow rules, should not authorize new water withdrawals 
                that reduce flows until instream flow rules are set.
                  Clearly, water is critical for the maintenance and 
                restoration of Puget Sound Chinook populations. 
                Instream flow rules are set based on the biological 
                needs of the species and the hydrological 
                characteristics of the stream to ensure suitable flows 
                for fish habitat. An instream flow rule does not 
                threaten pre-existing water rights, even if those pre-
                existing rights have the effect of reducing flows below 
                the level set under the instream flow rule. Where flows 
                should be enhanced to provide suitable habitat, we 
                encourage policy makers to explore the use of water 
                marketing arrangements to ensure that sufficient water 
                remains in the river. Not all rivers in the Puget Sound 
                region have instream flow rules, although even without 
                these rules the state must review any applications for 
                water use to ensure that it does not harm fish and 
                wildlife populations. As is already occurring in a 
                number of Puget Sound watersheds, we believe that these 
                flow rules should be set, with highest priority given 
                to watersheds containing listed species. New water 
                withdrawals should be allowed only if instream flow 
                rules are set or, in exceptional circumstances, if the 
                state reviews the application to ensure that the 
                withdrawal does not harm fish and wildlife populations. 
                Finally, both to support the establishment of new rules 
                and to ensure that existing rules can be revised and 
                updated as needed, the state should ensure that 
                adequate funding and staffing exists to support WRIA 
                instream flow planning processes.
  --Hydro.--Develop a Strategy for Dams:
                  1. Coordinate the development of a strategy to 
                address the impacts of dams on listed salmon 
                populations in the Puget Sound region.
                  Dams, constructed for flood control, municipal water 
                supply, hydropower and other uses, exist on many rivers 
                in the Puget Sound region. The state should:
                          (a) Identify all existing and proposed dams 
                        in the Puget Sound basin;
                          (b) For each dam, identify ownership, whether 
                        it is licensed by the Federal Energy Regulatory 
                        Commission, is a federally authorized facility, 
                        is operating only under the jurisdiction of 
                        state law, is decommissioned or otherwise not 
                        currently serving the purpose for which it was 
                        built; and,
                          (c) With the involvement of federal agencies 
                        and Native American Tribes and other key 
                        constituency groups, work with dam owners to 
                        identify potential changes at each existing or 
                        proposed dam which the best available science 
                        indicates will help conserve and restore salmon 
                        populations.
                  Using this information, develop a strategy for 
                actions concerning dams that the state and other 
                governments could take to help conserve and restore 
                salmon populations in concert with other economic and 
                public safety goals.
  --Harvest.--Explore Opportunities for Harvest Restrictions to 
        Contribute to Recovery:
                  1. Apply the same scientific and economic discipline 
                to the exploration of the harvest issue as is being 
                applied to other components of recovery, recognizing 
                that harvest levels must take into account tribal 
                treaty obligations as well as the central cultural and 
                economic role of salmon in the Tribes.
                  Two significant steps in this direction would be:
                          (a) Set escapement levels for Puget Sound 
                        Chinook to ensure that targets are based on the 
                        best available science and geared toward 
                        recovery of a threatened species, not maximum 
                        sustainable yield.
                          (b) Make sure that stakeholders know how 
                        harvest is allocated. The process for making 
                        decisions on overall harvest levels and on 
                        allocations of that harvest should be clearly 
                        explained to various stakeholders and those 
                        decisions open to public view. Decisions should 
                        be based on timely input of scientific data.
                  2. Take a leadership role in encouraging the Federal 
                Government to take specific actions to resolve the 
                U.S.-Canada Salmon Treaty dispute, in concert with our 
                congressional delegation and other West Coast states 
                and tribes.
                  An essential element of the solution of the U.S.-
                Canada Salmon Treaty dispute must be that the state of 
                Washington ``get its own house in order'' and 
                demonstrate sound management, conservation, and actions 
                to recover listed salmon. That said, the long-term 
                effectiveness of salmon recovery actions in Washington 
                State would be undermined without an international 
                arrangement facilitating recovery of salmon 
                populations. The current impasse over implementation of 
                the U.S.-Canada Salmon Treaty is unlikely to be broken 
                without high level intervention from the central 
                governments of both countries. We appreciate the recent 
                steps that the Governor has taken to encourage this 
                type of attention to the issue. We believe it is 
                essential that the parties demonstrate movement toward 
                a solution in the very near future to bolster the early 
                actions that we believe the state and local governments 
                should take. The Washington Salmon Collaboration 
                strongly encourages this high level intervention with 
                the goal of establishing a West Coast management 
                strategy that:
                          (a) Relies on an independent science body to 
                        establish catch limits needed to facilitate 
                        recovery of all west coast salmon stocks;
                          (b) Ensures that management systems are in 
                        place to enforce the catch limit or provide for 
                        adaptive change in catch limits in response to 
                        in-season experiences; and,
                          (c) Develops a fish allocation system among 
                        the various claimants to the fish that is 
                        consistent with the scientifically established 
                        catch limits and that works.
  --Hatcheries.--Re-think the Role of Hatcheries:
                  1. Coordinate the development of a comprehensive 
                strategy for hatcheries in the Puget Sound region that 
                will ensure their contribution to the recovery of Puget 
                Sound Chinook, based on the best available science and 
                recognizing treaty obligations and the co-management 
                responsibilities of the tribes.
                  We believe that a sound strategy for using hatcheries 
                to support recovery of listed salmon populations is of 
                utmost importance to meet environmental, economic, and 
                legal requirements and we do not see the level of 
                coordination and planning underway today that gives us 
                confidence that this strategy is being developed. We 
                are disappointed that the state has not completed the 
                ``Coho Assessment'' with the Northwest Indian Fisheries 
                Commission, which could provide a sound basis for a 
                more strategic approach to the role of hatcheries.
  --Foster Voluntary Actions:
                  1. Encourage, coordinate, and provide incentives for 
                voluntary actions by business, citizen's groups, and 
                individuals to help recovery of listed salmon 
                populations.
                  Voluntary actions to protect and restore Puget Sound 
                Chinook habitat could be a significant element of the 
                ``early action'' response of the region. At the same 
                time, incentives are needed for citizens and business 
                to be involved in efforts that are more than just 
                scattered volunteer activities and instead clearly will 
                contribute to recovery. Those incentives must be 
                designed to help ensure that net environmental gains 
                are achieved through the voluntary action. Building on 
                the effort to promote and coordinate volunteer 
                activities already taking place under the WRIA planning 
                activities:
                          (a) State and local governments and non-
                        governmental organizations should guide 
                        individuals and businesses interested in 
                        undertaking voluntary action toward those 
                        actions that will best contribute to salmon 
                        recovery efforts and should seek to provide 
                        technical and financial support for those 
                        activities that clearly can be a strategic 
                        component of recovery;
                          (b) State and local governments should 
                        undertake outreach to communities, schools, 
                        business coalitions, and individual businesses 
                        explaining the types of actions that could help 
                        salmon recovery, focusing particular emphasis 
                        on areas of high priority habitats as 
                        identified above;
                          (c) The state should establish a registry of 
                        ``beyond compliance'' actions taken by 
                        businesses and voluntary actions taken by 
                        communities and schools and give public credit 
                        such as regional or state-wide awards for those 
                        actions.
    As we have already stated, this list of recommendations is what we 
have agreed on to date, and is not intended to represent all that needs 
to be done. These recommendations can contribute to salmon recovery and 
are likely to be supported by many in the Puget Sound region. Our group 
plans to continue to explore the merits of other proposed 
recommendations over the coming weeks and months. Ideas that we will 
consider include proposals related to the central role of watershed 
councils, development in floodplains, the issuance of variances to the 
Shoreline Management Act and other laws, issues related to the metering 
of water withdrawals and instream flows, and the potential for further 
restrictions on sport or commercial harvest to contribute to recovery.
    Finally, we urge the Governor to continue to expand his personal 
role in educating the public. His vision and leadership will prove 
pivotal in determining whether an appropriate state-wide response 
supported by our citizens can be implemented. The actions we take will 
touch every individual and community in this state. The Governor is in 
a unique position to help people understand that we must all play a 
constructive role in developing and implementing a successful recovery 
strategy.

                               PRINCIPALS

Mr. Paul Brainerd, Chairman, The Brainerd Foundation
Mr. Glenn C. Butler, Refinery Manager, ARCO Products Company
Ms. Barbara Cairns, Executive Director, Long Live the Kings
Mr. Shawn Cantrell, Chairman of the Board, Save our Wild Salmon
Mr. Aaron Ostrom, Executive Director, 1000 Friends of Washington
Ms. Joan Crooks, Executive Director, Washington Environmental Council
Ms. Kathy Fletcher, Executive Director, People for Puget Sound
Mr. John Hayden, Vice President, Boeing Company
Mr. Robert Helsell, Chairman and CEO, Wilder Construction Company
Mr. Jim Kramer, Director, Puget Sound Waterways
Mr. C. Scott McClellan, Vice President, U.S. West Communications Inc.
Ms. Marie Mentor, Washington State Director, Trust for Public Lands
Mr. Colin Moseley, Chairman, Simpson Investment Company
Ms. Katherine Ransel, Northwest Regional Director, American Rivers
Mr. Richard R. Sonstelie, Chairman of the Board, Puget Sound Energy, 
        Inc.
Mr. Douglas W. Walker, Chief Executive Officer, WRQ, Inc.
         other participants and representatives of the sponsors
Mr. Emory Bundy, Director, The Bullitt Foundation
Mr. Phil Bussey, President, Washington Roundtable
Dr. John Ehrmann, President and Senior Partner, Meridian Institute
Ms. Maureen S. Frisch, Vice President, Public Affairs, Simpson 
        Investment Company
Mr. Denis Hayes, President, The Bullitt Foundation
Mr. B. Gerald Johnson, Convenor/Facilitator, Puget Sound Waterways
Mr. Terry Oxley, Director, Government & Community Relations Puget Sound 
        Energy, Inc.
Dr. Walter V. Reid, Coordinator, Washington Salmon Collaboration
Mr. James Youngren, Chairman of the Board, Long Live the Kings

STATEMENT OF DOUG SUTHERLAND, COUNTY EXECUTIVE, PIERCE 
            COUNTY, WA

    Senator Gorton. Thank you. I should announce for people 
here, King County executive, Ron Sims, announced that he will 
not be here until about 1:00. He will be here, and he will 
certainly have an opportunity to testify.
    But we will here now from the Pierce County executive Doug 
Sutherland.
    Mr. Sutherland. Senator Gorton, Senator Murray and my 
Congressman Dicks, I'm delighted to be here, and really I 
appreciate the opportunity to speak on this issue that has such 
incredible importance for our entire region.
    When the survival of fish became part of the mainstream 
discussions, it quickly became clear that if we're really going 
to recover this species, we couldn't retreat behind the 
statutory obligations of the Endangered Species Act. Recovery 
of the species depends on each individual, each community 
organization, each business and each government agency doing a 
part of the larger effort.
    In the area of Pierce, King, and Snohomish counties, my 
colleagues, County Executive Bob Drewel from Snohomish and Ron 
Sims from King and leaders of the local governments, tribes, 
businesses and the environmental community, we have formed a 
voluntary coalition that many refer to as the Tri-County.
    We've been working very hard to coordinate the converging 
environmental initiatives, such as the Clean Water Act and 
Endangered Species Act.
    We have been working to coordinate all of these efforts. 
New working relationships have been formed because we recognize 
that our success will take the combined efforts of many 
individuals, agencies and organizations.
    Together, we are working to identify projects that are key 
to the salmon's recovery. Consolidating resources from multiple 
sources have proven to be the most effective method of getting 
these projects completed.
    We are trying to look at our own operations and to figure 
out how we can coordinate the efforts between county agencies, 
between county, Federal, State, other jurisdictions, and other 
organizations.
    For instance, the Pierce County Public Works Department has 
modified their scope of work for storm water and flooding 
planning so that it is now their responsibility to look at the 
watershed sub-basins from both a flooding and a fish 
perspective.
    The county continues to provide funding for conservation 
districts so that they can work with the local farmers to make 
their operation more environmentally fish-recognized friendly.
    But seed monies from the county, the conservation district, 
also plays a key role in the voluntary efforts, such as the 
Stream Team efforts and the fish habitat restoration projects.
    Combined efforts of the County, the Puget Sound Water 
Quality Authority, Washington State University and private 
engineering firms has resulted in the education of dozens of 
people on low-impact development options.
    During this, the first year of the listing of the bull 
trout and the chinook and joint efforts such as those and 
these, have been successful in getting salmon recovery on track 
in Pierce County.
    While there's been a significant momentum created around 
the issue, some of the most challenging situations have come 
from what we perceive as the lack of vision from listing 
agencies. And I strongly believe that salmon have a much better 
chance of recovering to healthy populations if we all do more 
than just our Endangered Species Act mandated obligation of 
``no take.''
    But if the listing agencies don't support that philosophy 
by creating a working relationship and working out of their 
comfort zone, I'm afraid it will be very difficult for us to 
keep up and maintain our momentum.
    Your support of salmon recovery is very much appreciated, 
and any help that you can provide by nudging the listing 
agencies to believe that they need to be more receptive to 
incremental solutions, that help would be more welcomed.
    Senator, you recall that when we first created the Tri-
County effort, and we came back and spoke to you and to 
Congressman Dicks and to Senator Murray and suggested that 
insertion of monies in the fiscal year 1999 budget would be 
most helpful. And through your skill and ability you, indeed, 
did just exactly that. Those funds arrived in the State in 
December of 1998 and became available to us at the local level 
some time about a year ago.
    Those monies, of which Pierce County received $1.6 million, 
were used in the acquisition of lands adjacent to various parts 
of the Tualip River. What we did is we sat down is we sat down 
with the Port of Tacoma and the Tualip Tribe, along with my 
colleagues in the county, and we said, OK, if we're going to 
take this money, one of the best things to do is to require 
riparian areas adjacent to the river, let the levies move them 
back away from the river, let the river run and create a much 
better habitat than currently is there.
    So together we sat down and identified pieces of property 
along the river that we could acquire. And then we went out and 
spent time talking to the owners of those properties to see if 
there was any interest. Once we determined the interest, then 
we went through the appraisal process, the title search, and 
then began the negotiations for purchase.
    Now we also did one other thing, and that is in some areas 
we were able to negotiate easements in which the cost was 
significantly less, but yet we could still be able to gain the 
benefits of those riparian areas adjacent the Tualip River.
    I have here some flyover photos of the areas in which we 
were able to expend those funds. And I certainly appreciate it, 
and so will those fish who will be using this improved habitat 
as a result of the acquisition of these riparian areas.

                           PREPARED STATEMENT

    And with that, Senators and Congressmen, thank you so much 
for the opportunity to come and be part of these continued 
education of the people of Washington State on the importance 
of these listed fish.
    Senator Gorton. Thank you, Doug.
    [The statement follows:]

                 Prepared Statement of Doug Sutherland

    I appreciate this opportunity to speak on an issue that has risen 
in importance for the entire region. That is the issue of the survival 
of the Pacific Northwest salmon.
    When the survival of the fish became part of mainstream 
discussions, it quickly became clear that if we are really going to 
recovery the species, we couldn't retreat behind the statutory 
obligations of the Endangered Species Act (ESA). Recovery of the 
species depends on each individual, each community organization, each 
business, and each government agency doing a part of the larger effort.
    In the area of Pierce, King, and Snohomish counties, my colleges 
County Executives Bob Drewel and Ron Sims, and leaders of local 
governments, Tribes, business, and the environmental community have 
formed a voluntary coalition known as Tri-County. We have been working 
very hard to coordinate converging environmental initiatives such as 
the Clean Water Act and the Endangered Species Act. We have been 
working to coordinate efforts. New working relationships have been 
formed because we recognize success will take the combined effort of 
many individuals, agencies, and organizations.
    Together, we are working to identify projects that are key to the 
salmon's recovery. Consolidating resources from multiple sources has 
proven to be the most effective method of getting the projects 
completed. We are trying to look at our own operations and figure out 
how we can coordinate the efforts between County agencies, and between 
the County, Federal, State and other organizations.
    For instance, in Pierce County the Public Works Department has 
modified their scope of work for stormwater/flooding planning so that 
it now is looking at the watershed sub-basins from both a flooding and 
fish perspective. The County continues to provide funding for the 
Conservation District so they can work with local farmers to make their 
operations more environmentally friendly. With seed monies from the 
County, the Conservation District also plays a key role in volunteer 
efforts such as the Stream Team efforts and fish habitat restoration 
projects. Combined efforts of the County, the Puget Sound Water Quality 
Authority, Washington State University, and private engineering firms 
has resulted in the education of dozens of people on low impact 
development options.
    During this, the first year of the listing of the bulltrout and the 
chinook, joint efforts such as these have been successful in getting 
salmon recovery on track. While there has been a significant momentum 
created around this topic, some of the most challenging situations have 
come from what we perceive as a lack of vision from the listing 
agencies. I strongly believe the salmon have a much better chance of 
recovering to healthy populations if we all do more than our ESA 
mandated obligation of ``no take.'' But if the listing agencies don't 
support that philosophy by being creative and working out of their 
comfort zone, I am afraid it will be difficult to keep up the momentum.
    Your support of salmon recovery is very much appreciated. Any help 
you can provide by letting the listing agencies know you too believe 
they need to be more receptive to incremental solutions, is welcomed.

STATEMENT OF JERRY E. CLARK, DEPUTY DIRECTOR FOR 
            REGIONAL PROGRAMS, NATIONAL FISH AND 
            WILDLIFE FOUNDATION

    Senator Gorton. We're pleased and honored to have Jerry 
Clark, the Director of Fisheries for the National Fish and 
Wildlife Foundation from Washington, DC, here to talk to us 
about his organization's participation.
    Mr. Clark. Mr. Chairman, Senator Murray, Congressman Dicks, 
my name is Jerry Clark. I'm representing the National Fish and 
Wildlife Foundation today. I appreciate the opportunity to be 
here and make some remarks. I've submitted some written 
testimony.
    Senator Gorton. That will be included in the record.
    Mr. Clark. I won't read that; I'll just make a few points 
today.
    I especially appreciate your effort, Senator Gorton and 
members of this board, to invite an organization like the 
National Fish and Wildlife Foundation to participate in the 
State of Washington's efforts. As you know, and maybe others 
don't, the National Fish and Wildlife Foundation is a private 
nonprofit organization, but it was created by Congress. It 
makes us somewhat unique.
    Another aspect of our uniqueness I think is why we were 
created. Almost by definition from day one, the reason we were 
created was to build partnerships to work on natural resource 
conservation issues.
    We were created in 1984 at a time where there weren't very 
many of those. In fact, at that point in time, this country was 
sort of in the midst of the Clean Water Act, the Clean Air Act 
and the Endangered Species Act, and there were people asking 
the question, does it make sense to try something else? And at 
that time I think we were an experiment. I think now people 
understand the importance of partnerships, and we are one of 
the traditions in that.
    This year, I especially want to thank you, Senator Gorton, 
for asking us to the table. You asked us to manage about $3.75 
million for the State of Washington. To date we have committed 
about two-thirds of that throughout the State, both in the 
Puget Sound area, along the Columbia and in the Okanogan 
County.
    We funded Planet CPR, a program that you just talked about 
earlier, for their Grate Mate program. We funded the Tri-State 
Steelheaders to work both in stream and riparian zone projects 
that they're working on. We funded both the Mid Puget Sound 
Enhancement Group and the Hood Canal Salmon Enhancement Group, 
primarily to do culvert replacements with both of those groups.
    We funded the Northwest Chinook Recovery folks to reconnect 
an historic slough to a river. And I want to mention that 
particular because that project is being done all on private 
lands. And one of the things that we think about partnerships, 
especially, is that if we don't create the habitat for salmon 
to be restored, and we don't get private landowners involved in 
restoration, we probably don't have much of a chance.
    And the best way to do that is to build the kinds of 
partnerships that we've been talking about here today. Because 
what we have found over the many years that we've been 
investing salmon--and to date our investment salmon is about 
$35 million in the Pacific Northwest for projects of the type 
that we're talking about today--that once you move into a 
watershed, and you can get a few individuals, a few private 
landowners, involved in successful projects where something 
actually happens, nobody gets burned, there's no lobbying, 
there's no litigation, people then join that bandwagon, and you 
get more done for one small investment in a watershed than 
almost any other investment you can do, if you can create a 
successful partnership amongst local folks especially involving 
private lands.
    We have about $1.6 million remaining of the funds 
uncommitted. To date we've been asking people to send us in 
their applications as they see the need. We're asking now, 
however, that we want the applications in by June 1. We want to 
try to get all the money spent this year, so we've made that 
change.
    I'll make a little comment. You can find the application 
materials and everything you need to contact the foundation on 
our website, which is wwwlnfwf.org, and it includes the 
application. You can download the application, fill it out and 
send it into us.
    We've enjoyed participating in this process over the last 
year very much. If you want us to do it again, we'd be very 
happy to do that. We've made some changes at the foundation, 
not the least of which is we're opening a regional office.

                           PREPARED STATEMENT

    I'd like to take just 10 seconds, if I could, to introduce 
Christina Wolniakowski, who is the new regional director for 
the National Fish and Wildlife Foundation. It gives us a face 
in the region that the folks in this audience who are thinking 
about asking us for grants and want to talk to us can talk to 
here. You don't have to come back to Washington, DC to talk to 
the National Fish and Wildlife Foundation.
    Senator Gorton. Thank you.
    [The statement follows:]

                  Prepared Statement of Jerry E. Clark

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to submit my testimony for the record regarding the 
subcommittee's investment in Pacific Salmon Recovery. I especially want 
to thank the members of Congress who are with us today, as they have 
played the critical role in providing the funds that are now directed 
to the most important efforts for salmon restoration, those that pay 
for actual restoration. It is a complex task to restore Pacific salmon, 
but in the final analysis, none of the expenditures make any difference 
if the habitat in our streams will not support the various life stages 
of salmon, and if the owners of that habitat are not committed to the 
survival of salmon. In our experience, that commitment by Washington's 
landowners is there, and the funds provided by this Committee are 
critical to build the partnerships, reduce the conflict and restore 
salmon runs. Congress understands this need. They have provided the 
funds we all need to build those partnerships at the local level that 
are necessary if we are going to restore salmon.
    I work for the National Fish and Wildlife Foundation, a private, 
non-profit, 501(c)(3) tax-exempt organization, established by Congress 
in 1984 to benefit the conservation of fish, wildlife, and plants, and 
the habitat on which they depend. Its goals are conservation education, 
habitat protection and restoration, and natural resource management. 
The Foundation meets these goals by helping to create and fund 
partnerships between the public and private sectors and by 
strategically investing in conservation projects. The Foundation does 
not support lobbying, political advocacy, or litigation, nor allow any 
of our Federal or the private matching funds used in our grants to be 
used for those purposes.
    The Foundation awards challenge grants to on-the-ground 
conservation projects. The term ``challenge grant'' indicates that the 
funds appropriated to the Foundation are required by our Federal 
charter to be matched with additional non-Federal funding. Our grants 
multiply the Federal investments in conservation and enable grantees to 
use the Foundation's funds to involve other partners of their projects. 
Last year alone, the Foundation supported 585 projects, committing 
almost $19 million in Federal funds. Those Federal funds were matched 
with $50 million in non-Federal funds, for a total investment of almost 
$70 million for on-the-ground projects. A return to the Federal 
Government of almost 3.5 to 1.
    This year, this subcommittee has asked us to participate in the 
restoration of Pacific salmon in the State of Washington. This was a 
logical choice because the Foundation has already invested almost $11 
million in Federal funds for more than 200 projects for the restoration 
of salmon throughout its range in the West. This year, the subcommittee 
has asked us to manage $3,842,300. To date, we have committed. over $2 
million of those funds for several projects from the Puget Sound area 
through the Columbia Basin to central Washington. These projects 
demonstrate several important elements. First, they are all cooperative 
efforts that do not include any litigation, there is no lobbying, there 
are lots of volunteers and they get to the root problems facing salmon. 
Most important of all however, in the long run these projects are 
locally driven and locally owned.
    These projects are getting done because people at the local level 
see a need and are organizing within their communities to solve a 
problem. We are proud to be trusted by the people of Washington to help 
facilitate these efforts. In the Methow watershed (Okanagen County 
Water Resources Department), the community has assembled a set of 
projects based on a watershed analysis that get the to the critical 
need of salmon, the quantity and quality of water. In the Walla Walla 
area, we have funded the Tri-State Steelheaders to enhance both 
instrearn and riparian habitats on the Walla Walla River and Mill 
Creek. In the Puget Sound, we are supporting the Mid Puget Sound 
Enhancement Group and the Hood Canal Salmon Enhancement Group to open 
historic salmon habitats by replacing culverts that currently block 
fish passage. Also in the Puget Sound area we have funded Planet CPR to 
improve water quality throughout the Basin. We are also funding 
Northwest Chinook Recovery to reconnect the Groeneveld Slough with the 
Skykomish River to open up several miles of critical habitat. This 
project is typical of the willingness of private landowners to work in 
partnership with others to restore salmon. These kinds of projects have 
a long history of success, not only for the project in question, but as 
soon as one landowner becomes involved in a successful project, the 
story spreads, and soon landowners throughout the watershed are 
participating in similar projects. This is just one of the reasons that 
funding local, on-the-ground restoration projects is so critical.
    We will continue to fund projects that are scientifically sound and 
community driven throughout the salmon's range in Washington, and we 
are looking forward to reviewing additional applications for the 
remaining $1.6 million. We have had an open request for proposals, but 
we are now asking everyone to get us their applications for the 
remaining funds before June 1. Our work to restore Pacific salmon in 
the State of Washington will not end there, however. We will continue 
to fund salmon restoration in the years ahead. If it is possible for us 
to continue to receive funds specifically for Washington, we would 
relish that opportunity. We are committed to quickly dispersing and 
managing those funds for on-the-ground local partnerships.
    Thank you for the opportunity to speak with you today.

STATEMENT OF RON SIMS, COUNTY EXECUTIVE, KING COUNTY, WA

    Senator Gorton. We are joined now by the King County 
executive Ron Sims, and we welcome your comments, Ron.
    Mr. Sims. Thank you, Senator Gorton. It's good seeing you, 
Senator Murray, Congressman Dicks.
    Mr. Chairman, I am the King County executive of King 
County, WA. Thank you for this opportunity to testify on our 
recent progress in bringing the salmon back to Puget Sound.
    It's hard to believe that just about a year ago, on April 
7, 1999, that your committee held a hearing here in Seattle to 
address salmon recovery. And at that time, less than a month 
after the National Marine Fisheries Service had formally listed 
chinook salmon under the Endangered Species Act, our collective 
response to the ESA listing was just getting started.
    Local governments, tribes, and environmental and business 
interests were interested in working together through the Tri-
County effort and other partnerships, but we were uncertain 
about what to do first.
    The same uncertainty reigned in Olympia, as the challenge 
of establishing a clear State and Federal direction led to 
suggestions that a ``salmon czar'' was needed to preside over 
the salmon plan. Money was scarce for plans and projects, and 
there was already concern about money being waste on 
inefficient and ineffective projects.
    I'm pleased to report that we've made great progress on 
these issues in the last year. Our strategy for salmon recovery 
among Tri-County governments and interest groups has evolved 
into specific recovery proposals that we are actively 
negotiating with the National Marine Fisheries Service and U.S. 
Fish and Wildlife Service.
    The Tri-County proposal will be an ambitious program of 
higher standards and new development activities, funding of 
habitat restoration work and new maintenance practices, and is 
being looked at as a model for locally-based salmon recovery 
throughout the Puget Sound region.
    Thanks to the support of Snohomish Executive Bob Drewel and 
Pierce County Executive Doug Sutherland, our many Tri-County 
partners, Will Stelle and his staff at National Marine 
Fisheries Service, and Gerry Jackson and staff at U.S. Fish and 
Wildlife, we are moving ahead.
    We've also seen great progress at the State level. And 
thanks to the leadership of Governor Locke and Bill 
Ruckelshaus, an historic agreement to protect salmon habitat on 
forest lands has been completed, another to address habitat on 
farmlands is being developed, and the State has a new 
scientifically driven process for awarding funds to habitat 
projects and programs.
    The new State funding for allocation salmon funding through 
the Salmon Recovery Funding Board has been fueled over the last 
year by major funding commitments by the State Legislature and 
the U.S. Congress. And thanks to the Governor, and to you, 
Senator Gorton and Senator Murray and Congressman Dicks, and 
the entire delegation of Washington State, more than $30 
million is available this year for the most effective habitat 
projects in salmon-bearing watersheds throughout Washington 
State.
    I am pleased to report that Federal funding has been put to 
excellent use in King County. Funding has allowed us to 
maintain a strong commitment to continuing the Tri-County 
alliance, supporting locally-based salmon strategies in our 
watersheds and keeping the public involved in salmon recovery.
    Federal funding is also contributing to critical protection 
and restoration work on our salmon-bearing rivers, including 
the purchase of more than 270 acres of high quality salmon 
habitat along the Cedar and the Snoqualmi Rivers.
    Senator Gorton, our Tri-County partners in salmon recovery 
and I do need your help to continue this progress. Our ability 
to negotiate a workable agreement with the Federal services 
depends on their ability to follow through on commitments to 
scientific research, development of reasonable recovery goals 
and participation in the development of our salmon recovery 
strategy.
    I urge you and other members of our delegation to provide 
sufficient funding to National Marine Fisheries Service and 
U.S. Fish and Wildlife to meet these commitments.
    We also hope to have your continued support for Federal 
funding for habitat projects. Habitat protection and 
restoration is a vital part of salmon recovery, and King 
County, our Tri-County partners and the State have demonstrated 
a strong commitment to funding habitat work. Your efforts to 
secure more than $40 million in Federal funding in fiscal year 
1999 and fiscal year 2000 for salmon habitat improvements in 
Washington State have been a tremendous boost, and we hope we 
can continue to count on your support for that habitat funding.
    In looking ahead in fiscal year 2001, we appreciate your 
sponsorship of Senate bill 2228 to create a new Corps of 
Engineers habitat restoration program for Puget Sound. We are 
very excited about this new partnership and are ready to step 
up as local sponsors of this program.
    We also hope you will support $25 million in additional 
funding in the year 2001 for to the Salmon Recovery Funding 
Board through the Commerce budget. The board is doing an 
excellent job at ensuring that Federal and State funds are 
spent wisely.

                           PREPARED STATEMENT

    And I want to thank you personally for your efforts and the 
many people in this room. Salmon recovery has been an enormous 
and daunting task. I can hope that you'll make this an annual 
visit so that we can continue to report to you on the efforts 
to recover salmon in this region. Thank you very much.
    [The statement follows:]

                     Prepared Statement of Ron Sims

    Mr. Chairman and Members of the Subcommittee: My name is Ron Sims. 
I am the County Executive for King County, Washington. Thank you for 
the opportunity to testify on recent progress towards recovering Puget 
Sound salmon populations.
    It's hard to believe that it was just a year ago on April 7, 1999 
that your committee held a hearing here in Seattle to address salmon 
recovery. At that time, less than a month after the National Marine 
Fisheries Service formally listed chinook salmon under the Endangered 
Species Act, our collective response to the ESA listing was just 
getting started. Local government, tribes, and environmental and 
business interests were interested in working together through the Tri-
County effort and other partnerships, but we were uncertain about what 
to do first. The same uncertainty reigned in Olympia, as the challenge 
of establishing a clear State and Federal direction led to suggestions 
that a ``salmon czar'' was needed to preside over the salmon plan. 
Money was scarce for plans and projects, and there was already concern 
about money being wasted on inefficient or ineffective projects.
    I am pleased to report that we've made great progress on these 
issues in the last year. Our strategy for salmon recovery among Tri-
County governments and interest groups has evolved into a specific 
recovery proposal that we are actively negotiating with the National 
Marine Fisheries Service and U.S. Fish and Wildlife Service. The Tri-
County Proposal will is an ambitious program of higher standards on new 
development activities, funding of habitat restoration work, and new 
maintenance practices, and is being looked at as a model for locally-
based salmon recovery throughout the Puget Sound region. Thanks to the 
support of Snohomish County Executive Bob Drewel and Pierce County 
Executive Doug Sutherland, our many Tri-County partners, Will Stelle 
and his staff at NMFS, and Gerry Jackson and staff at USFWS, we are 
moving ahead.
    I have also seen great progress at the State level. Thanks to the 
leadership of Governor Locke and Bill Ruckelshaus, an historic 
agreement to protect salmon habitat on forest lands has been completed, 
another to address habitat on farmlands is being developed, and the 
State has a new, scientifically driven process for awarding funds to 
habitat projects and programs.
    The new State process for allocating salmon funding through the 
Salmon Recovery Funding Board has been fueled over the last year by 
major funding commitments by the State Legislature and the U.S. 
Congress. Thanks to the Governor and to Senator Gorton, Representative 
Dicks, and the entire delegation in Congress, more than $30 million is 
available this year for the most effective habitat projects in salmon-
bearing watersheds throughout Washington State.
    Senator Gorton, my Tri-County partners in salmon recovery and I 
need your help to continue this progress. Our ability to negotiate a 
workable agreement with the Federal services depends on their ability 
to follow through on commitments to scientific research, development of 
reasonable recovery goals, and participation in development of our 
salmon recovery strategy. I urge you to provide sufficient funding to 
NMFS and USFWS to meet these commitments.
    We also hope to have your continued support for Federal funding for 
habitat projects. Habitat protection and restoration is a vital part of 
salmon recovery and King County, our Tri-County partners, and the State 
have demonstrated a strong commitment to funding for habitat work. Your 
efforts to secure more than $40 million in Federal funding in fiscal 
year 1999 and fiscal year 2000 for salmon habitat improvements have 
greatly increased the scope and scale of our habitat work, and we 
deeply appreciate your assistance.
    Looking ahead to fiscal year 2001, we appreciate your sponsorship 
of Senate bill 2228 to create a new Corps of Engineers habitat 
restoration program for Puget Sound. We are very excited about this new 
partnership and are ready to step up as local sponsors for this 
program. We also hope you will support $25 million in additional 
funding in fiscal year 2001 for the Salmon Recovery Funding Board 
through the Commerce budget. The Board is doing an excellent job at 
ensuring that Federal and State salmon funds are spent wisely.
    Thanks to the efforts of you, Senator Gorton, and to many other 
people in this room, this has been a big year for salmon recovery. I 
hope you will make this an annual visit and that we can report as much 
progress in the coming year. Thank you.

    Senator Gorton. Ron and Doug, how do your efforts, the Tri-
County efforts and the plans you're coming up with relate to 
the imminent chinook 4(d) rules of the National Marine 
Fisheries Service? Do you need some delay or some postponement 
in those rules for you to be able to come up with appropriate 
plans?
    Mr. Sutherland. Senator, we've been working with the 
National Marine Fisheries and Representatives from this State, 
and we've been meeting with ourselves. And as we look at the 
4(d) rule that we've been negotiating, it is far more complex 
than many of us had initially anticipated.
    It's difficult to say that we're not there yet because when 
we started, we felt that we could get there. However, in all 
honestness, I don't think we are there yet. And because of 
National Marine Fisheries needs for other reasons to move ahead 
with the publishing of the 4(d) rule, it's caused us to suggest 
that maybe we should try to work this out a little bit 
differently because, quite frankly, we're not in a position to 
be able to respond to what we've not completed in the 
negotiations.
    So to answer your question, I think there needs to be some 
additional time. I would much rather do it right than just a 
little bit. Even during my testimony, I'm saying let's deal 
with this on an incremental manner; that may be the way to do 
it. Because starting off with this, trying to drink out of the 
fire hose at full bore is difficult for many jurisdictions to 
deal with.
    The three counties in the Central Puget Sound--King, 
Snohomish, and Pierce--have by far the most resources to us, 
both financial and human resources, but even at that, that's 
limited. I basically have myself and one other person working 
on these negotiations, plus individuals designated from various 
staff to help fill in the gaps. And as I look at Snohomish 
County, they're almost the same.
    Ron's got a whole division because he's got all the money 
in the world.
    But even as we look at the rest of the Central Puget Sound 
and other counties around the Sound, their resources are even 
less than ours. And as I look at what it takes for us to be 
able to respond to this, and compare that, even though we're 
working with those other counties as much as we can, our 
ability to be able to deal with it is going to be limited.
    Do we need some more time? I think so, yes.
    Senator Gorton. Except for the unlimited amount of money, 
Ron, do you agree with Doug's views?
    Mr. Sims. Well, I don't know. I think----
    Mr. Dicks. What about a few loaned executives from Pierce 
County? Can we do that?
    Mr. Sims. The 4(d) rule that we're presently negotiating 
with National Marine Fisheries Service and concurrently with 
U.S. Fish and Wildlife is not as much a rule as it is a habitat 
conservation plan, a process to arrive at performance levels 
that provide us levels of sustainable harvest for Chinook, and 
also recognize the need to recover the char or the bull trout.
    So we're not being asked immediately. For instance, in some 
very complex issues, like how do we recover through a water 
resource inventory area, a WRIA, that is a process that's been 
very difficult to articulate, but it brings in all the cities 
and all the property owners in a WRIA and ask them over an 18-
month to 2-year period to come in with the standards that we 
need for habitat restoration, for surface water controls, all 
designed, again, to recover.
    So I look at the rule that National Marine Fisheries is 
negotiating and U.S. Fish and Wildlife, and say, can we agree 
to a rule in April or May or June? And the answer is no. Are we 
close to being able to have a rule completed so that we can 
have one before the end of the year? And the answer is yes, 
because we're being asked in the process not to meet a standard 
on day one. We're being asked to arrive at a standard over 
several years that enables the fish to be sustained in this 
region.
    So I am comfortable right now that what we're discussing 
can be achieved. It will not be achieved by an announcement of 
a rule or imposing a rule upon us in May or June. But if there 
was a rule that came out somewhat later this year, I think we 
would have our--we'd be able to meet that standard.
    Senator Gorton. Bill, I think Ron referred very positively 
to the relationship between the Salmon Recovery Board and the 
Tri-County effort.
    Would you give me your views of the efforts that Tri-County 
is going through and how the State Salmon Recovery Board 
relates to those efforts?
    Mr. Ruckelshaus. The Tri-County and the leadership of the 
three executives--two of whom are here--has really been a 
terrific leader in this area in trying to work through this 
complex problem; and they deserve a lot of credit for having 
done that.
    Ron Sims mentioned the WRIAs, the water resource inventory 
areas. The lead entities that are created by the statute are 
really formed around WRIA areas. Most of them are multiple 
WRIAs and some of them are just one WRIA.
    There are 23 lead entities in the State. There are, in 
fact, two in King County, in separate lead entities 
representing one WRIA. And the request for funds from our board 
come through those lead entities, and they're based on a 
watershed assessment of what the needs are for the salmon in 
that watershed, what the habitat needs are, and then they 
develop a strategy for achieving those needs. And then the 
project request to us are based on those strategies.
    That's not true in every lead entity in the State. We're 
too new in this process for every lead entity to be up to that 
level of sophistication.
    In the Tri-County area they have quite sophisticated 
efforts going on. So those projects that came to our board for 
this first round of funding from the Tri-County area were 
really first rate. They were done consistent with an assessment 
that had been made, a strategy that had been developed and were 
consistent with what was in the best interest of the fish.
    This is what we need to do all over the State. This isn't 
the only place this is happening, but it's a very good example. 
And there are two areas of the State, the northeastern part of 
the State and Yakima River Valley where there are no lead 
entities. They haven't been able to reach an agreement yet in 
designating a lead entity, and we're working with them to try 
to get one.
    Senator Gorton. Now, one other question for you and for 
Jerry.
    How do you two entities work together, a State one, a 
private one? Are there any organizations that apply to each of 
you for money? Do you relate at all to one another in your 
grant processes?
    Mr. Ruckelshaus. We don't, and we need to do it better. 
What we need is a common assessment process, so that when we 
get an assessment of the needs of a watershed, it is very 
similar across the State in terms of the analytical basis that 
it is founded on.
    The strategies then necessary to achieve the habitat needs 
of the salmon coming back to that watershed can be based on 
that common assessment; and then projects, whether they come to 
us or the National Fish and Wildlife Foundation, can all be 
based on those common assessments and strategies that have been 
developed.
    We're trying to get those assessments and strategies in 
place, so no matter where the source of the money would come 
from, they'd all be based on those sort of common approaches.
    I don't have a doubt in the world that people that I refer 
to are working so hard in these watersheds, they know where the 
sources of money are. And they have made applications to 
everybody they can think of where they'll get money.
    I have visited projects over in the eastern part of the 
State which have been funded from as many as six different 
Federal and State agencies. They're very good in figuring out 
where this money can be had and putting it all together to form 
a project. And it's impressive what they can do.
    Senator Gorton. Jerry.
    Mr. Clark. There's been some coordination. We've made sure 
that all the applications that we've got have been transferred 
to the SRF Board for review.
    I don't necessarily see them as competitive at all. In 
fact, I think having alternatives makes good sense. I mean, we 
think of ourselves somewhat as a mass unit. We're mobile, and 
we try to get there quickly. We're accessible. We're efficient.
    For instance, of the federally appropriated funds that we 
get, we don't take any overhead for that at all. Every dollar 
that was appropriated to us goes back to the ground for the 
projects. We raise money in the private sector to pay our 
bills. It's part of the deal we made with Congress when we were 
created.
    So you can never disagree with the people coordinating 
because that makes good sense. You can never disagree with 
having good science on the table at all times. All of that 
makes good sense. I think it's good to have, like I said, not 
competition, but different people taking different looks at the 
same situation.
    Mr. Dicks. On this point--if you'd yield--you said that all 
of your grant applications have been sent to the State so that 
they----
    Mr. Clark. Yes.
    Mr. Dicks [continuing]. Have gone through and the staff at 
least has looked at them?
    Mr. Clark. Yes.
    Mr. Dicks. Thank you.
    Senator Gorton. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman. Thank you to all 
of you for really a tremendous amount of work in the past year, 
and I really appreciate all you're doing, and we want to be 
supportive in any way we can.
    And Mr. Ruckelshaus, particularly to you for taking on this 
task and moving it forward, and you've brought a positive image 
to all of this that we all appreciate.
    I do have a question. Mr. Sutherland mentioned his county 
being poorer than King County and others being poorer than 
that.
    Do you have a matching requirement for counties or for 
projects that----
    Mr. Ruckelshaus. Yes, we do. It's a 15-percent match.
    Senator Murray. And is that more difficult for some of the 
more smaller counties to come up with this? Has that been a 
problem or challenge for you?
    Mr. Ruckelshaus. Yes, it was. When we adopted the 15-
percent match, we put it out for public comment, and several of 
the counties commented they didn't think that they were going 
to be able to meet the 15-percent match. And it was a problem.
    Our sense of it was, that if the counties--the lead 
entities or whoever the applicants were--had some money in the 
game, they were going to be a lot more careful about how they 
spent it. And everybody who made application to us was able to 
come up with the 15 percent. We allowed some of them to show an 
in-kind contribution as meeting the 15-percent requirement, and 
so far we've had no projects, to my knowledge at least, that 
have not been submitted because they weren't able to raise the 
matching funds.
    Senator Murray. OK, good.
    I have a question for Mr. Sims and Mr. Sutherland.
    I hear everywhere complaints about delays in permitting 
process, from everything from road construction to bulkheads to 
piling. There's a lot of real concern about that. I'm sure 
you're hearing as much as I am.
    I did talk in my opening statement about Congress needing 
to provide NMFS with more funding, and the administration has 
requested additional staffing, and funding for staffing as 
well. I think they're going to provide 41 new staff if their 
request goes through.
    Can you tell me what your county's experiences have been 
with delays, and if you support that request or if you have 
concerns that we should be aware of regarding staffing?
    Mr. Sims. We support the request. We have, from the county 
release, four of our staff to work with NMFS. I think the State 
of Washington is release seven. We have what we call section 7 
consultations, and for a whole series--whether it's our roads 
project in particular--we would like to process those.
    We had $86 million last year allocated for roads projects. 
We were only able to get $53 million worth of projects through. 
So you miss a building season, and your costs go up.
    I think National Marine Fisheries Service and the U.S. Fish 
and Wildlife need an infrastructure in which to respond to what 
I think is going to be an extraordinary amount of, we call, 
biological assessments that are going to go through.
    We also need them to be able to respond quickly as we're 
negotiating because we are moving forward saying that science 
should dictate. And you need to have the capacity of both 
agencies to be able to respond scientists to scientists so that 
we can get quicker turnarounds.
    Part of the issues of negotiation were that we didn't 
have--they were stretched very thin, so we couldn't get back, 
in the time frames that we wanted, a lot of our proposals on 
storm water management, the impacts of buffers, road building 
and maintenance practices. So we think it would be critical for 
them to have the infrastructure in which to respond to us.
    There's another issue, in this county particularly. Because 
of the extraordinary growth that we're having here, both in the 
population and the fact that we're a growth management county 
and restricted land-use, housing prices have gone up.
    So what we're finding now is that for federally funded 
affordable or low-income housing projects that are going 
through the for-profit or nonprofit sector, they're all being 
delayed for two reasons. One, because we have to do the 
biological assessments, and two, because neither agency has the 
staff to respond once we submit that biological assessment to 
them. So things are getting held up, and it would be important 
for them to have the infrastructure to respond.
    Senator Murray. Mr. Sutherland.
    Mr. Sutherland. In Pierce County last year, altogether we 
did over 40,000 different kinds of permits, just to put this in 
some perspective. Snohomish County probably is pretty close to 
the same, and I'm not sure just how much Ron has done in King 
County. And this is just in my jurisdiction; it's not county-
wide; that's just the unincorporated part of the county.
    When it began with the listing that was required to do this 
additional processing, not only did we have to teach our own 
staff what to do and help the jurisdictions of the other cities 
and towns within the county, but also we had to help the other 
Federal agencies and State agencies as well because we are so 
integrated and interrelated with the way we fund the projects, 
each of us had to be able to address the permitting process. 
And a lot of us didn't have a clue--OK, now who does what and 
when do they do it?
    So there's a significant learning process amongst all of 
the agencies and jurisdictions involved. So the amount of 
paperwork has just been stunning in it's volume. It's not 
necessarily terribly complex, although some projects are, but 
even the simplest projects, it takes time for someone to look 
at it, make a determination, and then move it to the next 
agency or responsible party.
    So just volume alone was enough to give you a pretty good 
case of constipation.
    Senator Murray. Is there any direction you can give us on 
what, if anything, focus we should have new NMFS staff work on, 
any direction that we should give to those new employees if we 
get the funding for them?
    Mr. Sutherland. Well, first of all, I certainly support the 
additional staff for NMFS and U.S. Fish. I think both of them 
are going to be significantly impacted by the amount of work 
that they're going to have to do. And I think that there needs 
to me some kind of way that we can cross-train from agency to 
agency, so that as we build our networking capability, there's 
ways to be able to shave the corners, if you will, not in the 
regulation process, but just in moving the various 
applications. And you do that by knowing better who your other 
partners are in the process.
    So if there's a way for us at the local level to work with 
and learn who they are at National Marine Fisheries, so that 
counties can come together, cities can come together and look 
at ways to be able to standardize, ways to be able to, if you 
will, decrease the volume but increase the input.
    There's ways to be able to do this, and we need to be able 
to do that in such a way that is, in addition, to the normal 
processing and moving of the various applications.
    Senator Murray. Ron, would you have any direction or focus 
for what those employees should be working on?
    Mr. Sims. Senator, the groups of people we would look at 
would be biologists, engineers because those are critical for 
the reviews, whether the biological assessments are responding 
to our initiative.
    I don't know how each agency is organized internally for 
review, but they have a series of responsibilities; evaluation 
of biological assessments, a response from scientist to 
scientist. They would be much more able to articulate that 
internal need than I. Other than that fact, I can say that we 
simply released four of our biologists to work with them, not 
to approve our biological assessments but to look at others.
    But you also need road engineers as well. They need to be 
configured. They need to have their technical infrastructure in 
place, and that is an issue of the number of FTEs. And they 
need more; there's no question. And the lack of that is really 
beginning to have a discernible effect because who it hits is 
us because we get held up. And it means that the local costs go 
up for everything that we do.
    Unless they have that, they will do their job as best that 
they're able, and we will be unable to do ours because they 
will not be resourced to do their work.
    Senator Murray. OK. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Gorton. Congressman Dicks.
    Mr. Dicks. Well, first of all, I want to thank all of you 
for your statement and recognize the major challenge that 
you're facing.
    I worry a little bit. And I address this to Bill. I've been 
out to my counties; Mason County, Grays Harbor, Jefferson, 
Clallam, Kitsap's. A lot of these counties are in the same 
situation; they have very limited personnel to do this work.
    Can any of the grants go to the counties to hire staff to 
start developing a plan in order to comply with the National 
Marine Fisheries Service's requirements or are we just doing 
habitat work?
    Mr. Ruckelshaus. We convened of, in fact, all of the lead 
entities after our last grant cycle and spent a day and a half 
with them going over what the needs were of these lead 
entities--which really represent, in your case, sometimes more 
than one county--asking them what kind of capacity-building 
needs they had.
    The State Fish and Wildlife Department oversees the 
administration of the lead entities, and they have grants that 
they give to them, about $50,000 per lead entity is what the 
State legislature has appropriated.
    We have a meeting of our SRF Board tomorrow, and one of the 
questions is, should we have in this next grant cycle some 
capacity building kinds of grants for them? By capacity 
building, we mean the capability of doing the assessment of 
what the real needs in that watershed are, and then developing 
a strategy against that assessment; and then the projects come 
forward consistent with that strategy.
    There's no question that some of these counties, these lead 
entity areas, need that kind of capacity building. And what I 
think we will end up doing--I don't know yet because we haven't 
really thought about it as a board--is the next grant cycle, 
which will end the end of November, will also have in it the 
capability of these lead entities making applications for 
capacity building as opposed to doing projects just because 
they're opportunistic or they happen to cross them.
    Mr. Dicks. I strongly recommend that. In going out to these 
rural counties, I've seen that they just do not have the 
capability that King County has. King County and Ron Sims have 
been fantastic in terms of leadership on this issue, as the 
whole Tri-County effort has been. But for a lot of these other 
counties, we don't have the money.
    And so I would hope that we would do that. I think that's 
necessary. I think for Eastern Washington for the Senator's 
responsibility you're going to need some help too to help bring 
this along.
    I didn't mention in my opening statement, but another 
program that we worked with--I see Curt Smitch is here and Jim 
Jesernig--is a Conservation Reserve Enhancement Program. It's 
another tool--and you talked about the conservation districts; 
that the conservation districts have to get heavily involved in 
salmon recovery.
    We've got this 15-year program that the State and the 
Department of Agriculture have already agreed to. And I see 
that--in terms of those ag lands, pasture lands in the riparian 
zone--as a way to be able to compensate people for the land 
that they're giving up.
    So I urge you all to, in your various capacities, to take a 
look at that program. It's coming along. It's taking a little 
while to get it started, and there's a lot of suspicion by some 
people about the effectiveness of it.
    Another thing that needs to be considered in the context of 
that is whether the State wants to look at some permanent 
easements that could go beyond just the 15 years, if it's 
really crucial habitat. That may be something else that we 
should look at.
    Mr. Ruckelshaus. We have been funding it. We funded in this 
realm preservation of habitat in addition to restoration. And, 
in fact, in our criteria that we set out, we said we were 
tilting toward preservation because in some cases that's the 
most crucial thing you can do to preserve salmon.
    Under the statute there's no condemnation requirements. A 
willing landowner has to be there, and obviously, it has to be 
a fair price. So that if we can't get the cooperation of the 
landowner, then there's no sale.
    But there's still some resistance. There's questions about 
the State's ability to manage that land, it takes it off the 
tax rolls. What is perceived is interference with property 
rights, so that is not something that isn't without 
controversy.
    On the other hand, the scientists make it very clear that 
preserving the good habitat is the most important single thing 
we can do to preserve the fish today. So that if preserving it 
entails acquiring land, that seems to us to be a wise thing to 
do if it's available.
    Mr. Dicks. Right. Jerry.
    Mr. Clark. We get funds from a variety of accounts in the 
Federal Government. One of the funds that we got money from 
this year was the NRCS, National Resource Conservation Service. 
We got $3 million of that. One of the things that we made a 
priority in the expenditure of those funds are Pacific salmon 
restoration.
    So we continue to fund projects for restoration, using all 
the tools that we have at our availability, not just the funds 
that were provided this year.
    Panelist. We're doing those sorts of things as well.
    Mr. Dicks. But as we get into this ag, fish and wildlife 
negotiation--and I know that's going to be a major one in the 
State--as we did with forests and fish, here's another tool--
this Conservation Reserve Enhancement Program that we worked on 
with the State and the Federal Government that I hope will be 
fully utilized.
    Ron.
    Mr. Sims. Congressman, I want to go back to an earlier 
comment made by Mr. Ruckelshaus.
    It's been a lot of discussion about having money for 
projects. The technical assistance is critical because it means 
that you can determine whether the project's going to work.
    So what we worry about on our county side--even though we 
don't have a lot of money--people think we do----
    Mr. Dicks. Oh, be honest.
    Mr. Sims. We're just a poor county needing a lot of Federal 
assistance.
    But the work you can do up front with your biologist can 
have substantial returns when the project's in place because 
you can determine whether that project is going to work. What 
we worry about is projects being put in place that have no 
scientific basis for it.
    Mr. Dicks. So you've got to do the assessment first of the 
watershed----
    Mr. Sims. That's correct.
    Mr. Dicks [continuing]. Top to bottom, before you start in.
    Mr. Sims. And many counties are not resourced to be able to 
do that, and they need to be resourced to do that.
    Mr. Dicks. Thank you, Mr. Chairman.
    Senator Gorton. Well, thank you, each and every one of you, 
for your help, Jerry, and for two county executives with a heck 
of a challenge in front of them, and Bill, for you wonderful 
public service. We really appreciate your service and 
appreciate your report.

STATEMENT OF JIM KING, CONSULTANT, PRIVATE AND 
            MUNICIPAL PLANNING SERVICES

    Senator Gorton. Panel 2 will consists of representatives of 
Puget Sound and Local Habitat Restoration Efforts.
    Panelists on number 2 will please come forward.
    Welcome to this very important group, and we will start 
with Jim King, who is a consultant from Okanogan.
    Mr. King. Thank you and good afternoon. I hope that you 
take my criticisms in a positive tone. The 5-minutes allotted 
isn't enough to relate the whole events that have occurred in 
the Methow Valley since the listing of the upper Columbia 
steelhead and chinook salmon as endangered and the bull trout 
as threatened. I'll suffice to say, it's been a very hard 
period for our community.
    The merits of ESA and its application is in need of 
thoughtful reconsideration. Today I hope to share some insights 
of certain difficulties encountered by those subject to the ESA 
when they must interact with, as in our case, three Federal 
agencies and a host of State agencies charged or otherwise 
connected with administration of the act.
    I believe these difficulties arise chiefly from the lack of 
early commitment by the agencies in establishing a meaningful, 
institutional, financial and regulatory relationships with the 
local community that are needed to make ESA requirements 
workable and understood. Failure to provide this coordination 
has caused harm to the citizens, increased resentment towards 
government and yielded little benefit to the listed species. 
Further, the lack of coordinated interaction between the 
agencies has, more often than not, stifled expeditious 
implementation of good solution. Here are some instances to 
illustrate the point.
    The sanctions of ESA were imposed almost immediately on our 
valley with little or no warning. And in 1999, irrigation water 
was shut off that was used to grow crops, water homeowners' 
yards and gardens and operate businesses.
    Threat of curtailment continues for this season for many of 
these same users. A lack of time to respond has resulted in 
substantial personal hardships and loss of income.
    Many of the agencies mandated remedies require immediate 
funding for capital improvements, permits, habitat, 
conservation plans, studies and the like. What local funds that 
were available were far from adequate.
    The unanticipated costs often depleted what little funds 
local ranchers had. For example, Wolf Creek Reclamation 
District, the district I represent, annual operating budget is 
approximately $12,000 to $13,000. The district had over the 
years accumulated a fund of $40,000 for capital replacement.
    In 1999, Wolf Creek raised its assessments by 20 percent to 
meet extraordinary costs attributable to ESA. Did not provide 
enough revenues, so a loan was taken. The district has now 
expended all of their funds and is nearly $60,000 in debt. Even 
now, funding programs are not coordinated with needed planning, 
permitting or capital budgets.
    In 1999, Okanogan County submitted on behalf of the Fish 
Enhancement Project and Irrigators an application for State 
salmon recovery funds. This application was comprehensive and 
coordinated. It had received the required two levels of 
technical and policy review at the local level before being 
passed to the State.
    These same projects had previously been approved and 
allotted by the National Fish and Wildlife Foundation, another 
source of funding; yet, at the last instance, the SRF Board 
ignored its own process and cut from the application two of the 
top four ranking projects.
    This not only worked a hardship on those projects, but 
eliminated approximately $450,000 worth of funds planned as a 
50 percent match for money previously secured from the National 
Fish and Wildlife Foundation. Thus, approximately $900,000 
worth of improvements are in jeopardy.
    When trying to identify appropriate remedial actions, the 
community looked at the recovery plans required by ESA to guide 
their efforts for the different species. Yet, no recovery plans 
for these fish had been developed by the services for our 
community. Lacking these, water users were left, in the case of 
Section 7 water users, with alleged reasonable and prudent 
alternatives as determined solely by the Federal agencies and 
as identified in the respected biological opinions.
    These in most cases focused on restoration stream flows by 
setting up target flow levels that effectively eliminated water 
use for most of 1999 growing season and likely will in the 
near-term future.
    In nearly all cases, these flow levels were best guesses 
made without the benefit of good hydrology or fish data. Most 
water users, based on history, believe these flows to be 
unattainable, even without the effects of irrigation.
    Recovery strategies often require a complex and lengthy 
permitting review. Timelines for these processes can preclude 
early implementation of projects that could provide benefit to 
fish.
    Case on point, Wolf Creek Reclamation District Multi-Year 
Fish Enhancement Program contained a project that would provide 
immediate benefit to all species within the stream. It calls 
for the reconstruction of the district's diversion structure to 
allow fish passage even though low flows.
    Because this work is within the boundaries of the National 
Forest, the project cannot be undertaken until NEPA compliance 
is achieved. When asked about this requirement, U.S. Forest 
Service officials explained that they are unable to commit 
enough manpower to complete the work.
    They then proposed a collection agreement, whereby Wolf 
Creek would pay $50,000 to complete the work. This requirement 
puts the project off at least 2 years, and where will Wolf 
Creek gets the $50,000? Currently, and important part, there is 
no funding source available for planning or permitting work of 
this nature.
    In my 30 years of dealing with agencies while both in the 
public and private sectors, I've never seen such muddled 
governance. From the beginning and continuing today, we have 
found little constructive coordination or consistency between 
the three Federal agencies, State agencies and local 
communities. Instead there has been a web of contradiction of 
policy and process.

                           PREPARED STATEMENT

    There has been finger-pointing and bickering that continues 
until today. This behavior has worked against those in the 
community. If communities are to continue to be involved in 
recovery efforts and mistakes made are avoided, then ESA must 
be scrutinized with an eye towards finding ways to ensure an 
early and adequate commitment of agency resources to provide a 
meaningful local participation, adequate funding and 
interagency coordination. Thank you.
    Senator Gorton. Thank you very much, Jim.
    [The statement follows:]

                  Prepared Statement of James D. King

    Good afternoon. Thank you for the opportunity to testify before 
this committee and to participate in the discussion of a subject of 
such importance to my community.
    It is not possible in the allotted five-minutes to relate the whole 
of events that have occurred in the Methow Valley since the listing of 
the Upper Columbia Steelhead, Spring Chinook, and the Bull Trout. It is 
not useful in this forum to vent the extreme frustration and anger that 
has become evident in our community since those listings. And, it is 
not my intention to debate the merits of the BSA or how it has been 
applied in our community. Though I hold what I believe to be a well-
founded opinion that the Act should be re-examined by Congress who's 
eye should be directed toward developing standards for its application 
that more closely reflect science and the community of man.
    Instead, I hope to encourage a discussion of certain functional 
difficulties encountered by those subject to the Endangered Species Act 
when they must interact with, as is our case, three federal agencies 
charged or otherwise connected with administration of the Act.\1\ I 
believe these difficulties arise chiefly from the lack of early efforts 
by the agencies and local community in establishing the institutional, 
financial, and regulatory relationships needed to make ESA requirements 
workable and understood. There is no doubt failure to provide this 
coordination from the onset has caused harm to the citizens, increased 
resentment toward the government, and yielded little benefit to the 
listed species. Further, the lack of coordinated interaction between 
the agencies has often than not, stifled the expedient implementation 
of goods solutions. This, even though, Methow citizens have 
consistently state: ``Just tell us what to do and if it is reasonable 
we will do it.''
---------------------------------------------------------------------------
    \1\ There are more than 50 section 9 (those not having a federal 
nexus) and 14 section 7 (those having a federal nexus) irrigation 
diversions on water courses in the Methow watershed.
---------------------------------------------------------------------------
    So what went wrong? How did a good law go bad?
    Here are the conditions most locals would agree have created the 
greatest contention in the community:
    1. There has no reasonable time of funds to comply with ESA 
requirements. The sanctions of ESA were imposed almost immediately 
resulting in curtailment of water use by certain farmers, homeowners, 
and businesses having diversions from sites' subject to federal 
regulation (section 7) in 1999. Threat of curtailment continues for 
this season for several water users. If agencies impose ESA mandates on 
rural communities, particularly those which are poor, such as those of 
north central Washington. And these mandates require expenditures for 
capital improvements, studies, habitat conservation plans and the like, 
a focused funding program to implement remedial actions ought to be 
established early in the process. In addition, water users should be 
given a reasonable time to comply.
    2. Remedial and recovery solutions are not clearly stated or 
supportable. Most believe ``best available science'' was not used in 
support of ESA remedial sanctions. With respect to identification 
appropriate remedial actions, the community looked to ESA's required 
recovery plans for the different species to guide efforts. Yet no 
recovery plans for these fish have yet been adopted at least for our 
community. Lacking these we are left, in the case of section 7 water 
users, with the Reasonable and Prudent Alternatives as identified in 
the Biological Opinions developed by the case of the two agencies. In 
the case of the Steelhead and Chinook, the National Marine Fisheries 
Service. In the case of bull trout, the U.S. Fish and Wildlife Service. 
The BO's were developed independently without meaningful participation 
by section 7 irrigator or in coordination with sister agencies. What 
input that was allowed was done after drafts already had been prepared. 
This gave little time and no resources to respond to or question the 
findings. As a result, the R&P's in each of the two BO's issued 
established as the primary remedial action, target flows set at levels 
that effectively eliminated water use during most of the 1999 crop 
growing season.\2\ In nearly all cases these flow levels were ``best 
guesses'' made by the agencies. Not necessarily ``best available 
science.'' Most water users thought them to be set quite arbitrary and 
largely unattainable even in nature. Target flow required assure 
curtailment of diversion in all but the wettest years.
---------------------------------------------------------------------------
    \2\ Most section 7 ditches had water curtailed last year because of 
screen or flow conditions. This resulted in economic loss for the 
community with no documented benefit to the fishery.
---------------------------------------------------------------------------
    3. Inordinately high costs of compliance. While outside funding, 
while recently generous, was not available to from the onset to fix 
immediate problems. These unanticipated costs depleted what little 
funds were locally available. Wolf Creek Reclamation District annual 
operating budget is approximately $12-$13,000. The District had over 
the years accumulated a $40,000 fund for capital improvements. In 1999, 
Wolf Creek raised its assessment by 20 percent to meet extraordinary 
costs attributable to ESA. Even this did not provide enough revenue so 
a loan was arranged and the District now has expended all funds 
available and is nearly $60,000 in short term debt. Even now, funding 
is not necessarily coordinated with permitting, regulatory review 
requirement, and the funding strategies needed to achieve maximum 
efficiency. The 1999 Salmon Recovery RF Board funding request submitted 
by Okanogan County on behalf of several irrigation companies and water 
users was modified by the SRF Board at the last instant. This in spite 
of the fact that the application reflects the local attempt at 
providing a coordinated approach to salmon recovery. An approach judged 
competent by two local review committees established for that purpose. 
As a consequence, a number of projects that rank extremely high by 
local review committee were not funded. This not only work a hardship 
on these projects but eliminated approximately $400,000 of funds 
planned to match money from the National Wildlife Foundation. Thus 
$800,000 of improvements will not occur.
    4. Little, if any, meaningful local input into structuring a 
comprehensive and workable recovery strategy. A planning group 
currently sits with the goal of providing local input into developing 
recovery efforts for the watershed. Their efforts to develop workable 
approaches with the agencies have not yet borne fruit.
    5. Conflicting permitting requirements, agency policy, and lengthy 
approval processes.\3\ Meeting ESA mandates often require complex 
permitting review. Timelines for these processes often preclude timely 
implementation of projects that could provide immediate benefit to 
fish. As a case in point, Wolf Creek Reclamation District has 
structured a multi-year program of enhancement to their system that 
will benefit fish. One element of that plan would provide immediate 
benefits to all species within the stream. It called for the 
reconstruction of the District's diversion structure in such a way as 
to allow fish passage during low flow periods. Because the work was 
within the boundaries of the National Forest the project could not be 
undertaken until NEPA compliance was achieved. When queried about this 
requirement, USFS official explained they were unable to commit enough 
man power to complete the work and proposed a collection agreement 
whereby WCRD would pay $50,000 to them to complete the work. The 
schedule put the project off at least 2 years.
---------------------------------------------------------------------------
    \3\ Permitting review for water related projects associated with 
Wolf Creek Reclamation District has involved the following agencies. 
Okanegan County Planning Department, Washington State Department of 
Fish and Wildlife, Washington State Department of Ecology (up to 3 
permits), U.S. Army Corps of Engineers, United States Forest Service, 
National Marine Fisheries Service, and the U.S. Fish and Wildlife 
Service.
---------------------------------------------------------------------------
    6. Little coordination between agencies at all levels. From the 
beginning and continuing until today we have found little constructive 
coordination between the three federal agencies, state agencies, and 
the local community. In fact there has been open hostility and 
bickering between them that continues today. This behavior has worked 
against those in the community faced with complying with ESA 
requirements.\4\
---------------------------------------------------------------------------
    \4\ From the beginning and continuing until today, there has been 
little constructive coordination between the three federal agencies 
involved. Indeed, in some instances there has been manifest hostility 
between them. For example, The Okamogan National Forest, serving as 
implementers of the ESA mandates by virtue of section 7, sought from 
but did not receive timely response from the agencies during 
consultation process. The result was a public spectacle between these 
agencies lasting months and lack of early warning of ESA consequences 
to irrigators.
---------------------------------------------------------------------------
    Here are some suggestions that may have helped in the Methow:
    1. Establish early communication between the agencies and affected 
area that assure local representation.
    2. Coordinate and prioritize agency resources to focus the 
necessary manpower, technical expertise, and funds to the affected 
community throughout the process.
    3. Implement a systematic effort to gather or generate best 
available science to determine the most appropriate recovery measures.
    4. Establishing reasonable time-frames for the remedies be 
implemented that take into account determining the best approach, 
securing needed funding, and completing permitting time-frames.
    5. Provide adequate funds for developing science and implementing 
clearly defined remedial measures.

STATEMENT OF PAULA MACKROW, EXECUTIVE DIRECTOR, NORTH 
            OLYMPIC SALMON COALITION

    Senator Gorton. Next, Paula Mackrow, the executive director 
of the North Olympic Salmon Restoration Lead Entity Group.
    Ms. Mackrow. Thank you.
    Hello. I'm Paula Mackrow of the North Olympic Salmon 
Coalition. We participate in two different lead entities; the 
Hood Canal Council and the North Olympic Peninsula Lead entity 
group.
    I think the mistake points out just one of the layers of 
confusion that the multitude of processes puts into the 
program, and that you need a score card to keep track.
    North Olympic Salmon Coalition is one of 12 regional 
fishery enhancement groups in Washington State that are created 
by State legislation and have been funded primarily by a 
portion of commercial and recreational fishing licenses in the 
past few years, by the generous dedication of Federal funds. 
And I'd like to thank the Senators and Congressman Dicks for 
that Federal dedicated funding.
    NOSC, as we're called, has been partnering in project 
development and implementation since 1992 in a variety of large 
and small watersheds across the North Olympic Peninsula in 
Jefferson, Clallam and Kitsap Counties. Often the easiest fix 
for salmon is to restore coho habitat by replacing culverts and 
removing other barriers to passage and repairing buffers and 
wetlands. And we've been involved in these activities all 
across the peninsula. A more subtle positive impact of these 
activities is the benefits to habitat of summer chum in the 
near shore and downstream habitats.
    Since you can't see the summer chum wiggling out in the 
spring and in the fall like you can with the silvers so easily, 
it's remarkable to our volunteer workforce to see their visible 
success in restoring summer chum to Chimacum creek in the fall 
of 1999.
    This marks the first return of summer chum spawners from a 
7-year collaboration with Department of Fish and Wildlife and 
Wild Olympic Salmon in a volunteer broodstock program across 
two watersheds.
    In the light of the ESA listings, I would consider this our 
greatest measurable achievement not from the numbers of fish to 
count, because that is still very small, but rather from the 
impact to the community to make this recovery happen watershed 
by watershed in our own backyards, on our own time and with our 
own hands.
    So thank you for this opportunity to discuss our local 
community-based and volunteer efforts to restore salmon 
habitat. Your support of these efforts through Federal funding 
directly to the regional fishery enhancement groups have 
provided a large measure of success in our efforts and ability 
to identify problems, develop and implement habitat restoration 
projects.
    With your help we can continue our role as leaders in the 
community-based recovery strategy. And thanks to Senator Murray 
and Congressman Metcalf for their efforts on behalf of the 
Northwest straits.
    My first specific point, again, is to mention how important 
dedicated funding is. It produces community-based salmon 
restoration, education, landowner outreach and cooperative 
ventures locally and efficiently.
    Those who know the watersheds have a record of finding 
problems, identifying the solutions, developing the projects 
and creating the design and implementation partnerships 
necessary to recover salmon habitat watershed by watershed.
    Our early opportunistic work has encouraged new 
partnerships, and over the years our experience has led us into 
strategic approach in many of these watersheds.
    Second, summer chum, I'd like to note, has been described 
as an ``edge species.'' They come in early when the stream 
flows are low, so upstream impairments have a significant 
impact, the temperature and other water quality factors and the 
water necessary just for passage and spawning.
    The Olympic Peninsula summer runs are historically small 
but provide a component of genetic diversity that hold some 
secrets to the incredible ability of salmonids to respond to 
changes in the environment over time. Unfortunately, over the 
past 150 years these changes have come too fast and from too 
many directions.
    Chinook and summer chum are indicators of the health of the 
Puget Sound ecosystem, and that reflects those incredible 
changes in the Puget Sound area.
    So third, nearshore restoration opportunities are not as 
obvious and are limited by the incredible extent of shoreline 
hardening in the summer chum ESU at this time. Both simple and 
expensive fixes are identified in Hood Canal along the Olympic 
Coast and in the extensive nearshore habitat of Island County 
which they call the bed and breakfast of Puget Sound for 
chinook and summer chum. Both species depend on estuary and 
nearshore for feeding and shelter much longer than was 
previously understood.
    And fourth, I'd like to once again comment that the 
proposed 4(d) limitations don't include adequate provisions for 
us to continue our plan and funded projects without funding the 
NMFS consultation backlog on restoration work itself.
    The consultation requirements should be geared towards 
those activities that harm, rather than foster, ESA recovery. 
We need to be able to continue to work from our priority list 
without unnecessarily duplicative scrutiny. These lists from my 
experience have been well documented and have received several 
levels of technical review.
    I guess in closing I'd like to note that the concept of 
watershed conservation action plans is very welcome and NOSC 
hopes to be proactive and participate with our numerous project 
partners and lead entities to initiate development of these 
watershed plans for State and NMFS approval within the 2-year 
time frame.
    As been noted, community-based restoration planning is 
often the last thing that funds are available for, and they do 
tend to be highly competitive among agencies; and the 
nonprofits would like to take a leading role in that planning 
effort.
    Dedicated funding helps us build these knowledge basis and 
provide the information to the eager and sometimes bewildered 
communities we work with. People want to do the right thing, 
especially if a pack is carefully laid out.
    Please make it easy for us in the home streams to do the 
right thing. Dedicated funding helps us be in the right place 
at the right time to meet the spiraling challenge of multi-
species recovery in our diverse ecosystem.
    Thank you for your time and consideration and our 
communities are ready to serve in the recovery effort. We hope 
you will continue to work with organizations like ours 
throughout Washington and Oregon.
    Senator Gorton. Thank you. And I will say to you, and to 
each of you, your full written statement--your more detailed 
statement--will be included in the record.
    But before we go on to Peter Heidi, what is nearshore 
hardening?

                           PREPARED STATEMENT

    Ms. Mackrow. Nearshore hardening is the bulkheading and 
rip-rapping that some of the county agencies are in a hurry to 
expedite, they're permitting for. It is one of the most 
destructive things for chinook and summer chum habitat. 
Nearshore beaches with specific sand sizes are required for 
spawning for sand lands and surf smelt, and it is the area 
where eel grass beds are most likely to be impacted by 
increased wave refraction.
    Senator Gorton. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Paula Mackrow

    Hello, I'm Paula Mackrow, executive director of the North Olympic 
Salmon Coalition, one of twelve regional fisheries enhancement groups 
in Washington State. NOSC, as we are called, has been partnering in 
project development and implementation since 1992 in a variety of large 
and small watersheds across the North Olympic Peninsula in Jefferson, 
Clallam and Kitsap Counties. In this area the easiest fix for salmon is 
to restore coho (silver) salmon habitat by replacing culverts, removing 
other barriers to passage and restoring riparian buffers and wetlands 
that we have been involved in across the area.
    More subtle is the positive impact these activities have on the 
downstream and nearshore habitat of summer chum. What is more 
remarkable then to the volunteer workforce is our visible success in 
restoring summer chum to Chimacum creek in the fall of 1999. This marks 
the first return of spawners from a 7-year collaboration with WDFW and 
Wild Olympic Salmon in a volunteer broodstock program in two 
watersheds.
    In light of the ESA listings, I would consider this our greatest 
measurable achievement. Not from the numbers of fish to count for that 
is still very small, But rather from the impact to the community to 
make this recovery happen watershed by watershed, in our own backyards, 
on our own time, with our own hands.
    Thank you for this opportunity to discuss our local community based 
and volunteer efforts to restore salmon habitat. Thank you to Senator 
Gorton and Congressman Dicks. Your support of these efforts through 
Federal funding directly to the Regional Fisheries Enhancement Groups 
has provided a large measure of success in our efforts and ability to 
identify problems and develop and implement habitat restoration 
projects. With your help we can continue our role as leaders in the 
community-based recovery strategy. And thanks to Senator Murray and 
Congressman Metcalf for efforts on behalf of the Northwest Straits.
    1. Dedicated funding produces community based salmon restoration, 
education, landowner out reach cooperative ventures locally and 
efficiently. Those who know the watersheds have a record of finding 
problem areas, identifying solutions, developing projects and creating 
the design and implementation partnerships necessary to recover salmon 
habitat watershed by watershed.
    2. Summer chum has been described as an ``edge species''. They come 
in early when stream flows are low so upstream impairments have a 
significant impact. The Olympic Peninsula summer runs are historically 
small but provide a component of genetic diversity that holds some 
secrets to the incredible ability of salmonids to respond to changes in 
the environment overtime. However over the past 150 years, the changes 
have come too fast and from too many directions.
    3. Nearshore restoration opportunities are not as obvious and are 
limited by the incredible extent of shoreline hardening in the Summer 
Chum ESU being at this time. Both simple and expensive fixes are 
identified in Hood Canal along the Olympic Coast and the extensive 
nearshore habitat of Island County, ``the bed and breakfast of Puget 
Sound'' for chinook and summer chum.
    4. Proposed 4(d) limitations don't include adequate provisions for 
us to continue our planned and funded projects without facing the NMFS 
consultation backlog. The consultation requirements should be geared 
toward those activities that harm rather than foster ESA recovery. We 
need to be able to continue to work from our priority lists without 
unnecessarily duplicative scrutiny.
    Salmon need cool, clean water. We are ready to move on to change 
our collective and pervasive behaviors to ensure cool clean water.
    1. Dedicated funding, produces community based salmon restoration, 
education, landowner out reach cooperative ventures locally and 
efficiently. The Federal dedication to RFEGs has allowed us to provide 
a consistent source of funds to a variety of partners with conservation 
districts, tribes, WDFW and non profits such as land trusts and 
restoration teams.
  --Those who know the watersheds have a record of finding problem 
        areas, identifying solutions, developing projects and creating 
        the design and implementation partnerships necessary to recover 
        salmon habitat watershed by watershed.
  --We are building local project lists and need help in defining the 
        critical pathway on each watershed, across basins and within 
        the regional context. These are time consuming collaborations 
        that are best served when an adequate knowledge base is 
        available.
  --Monitoring and planning are key to the adaptive management approach 
        to recovery. Volunteers are most effective when the 
        requirements are clear and the tasks well defined so strategic 
        planning is essential.
  --Expediency is hampered as program funding changes from year to year 
        and match and project criteria fluctuate wildly.
  --For the folks on the Olympic peninsula, administrative overhead 
        entailed in grant competition and match documentation is a 
        burden on small entities with limited budgets. With minimal 
        overhead and efficient use of staff and volunteers, only 10 
        percent of our total funding is used for administration and 
        office overhead.
  --For future program consideration I'd like to comment on the match 
        restrictions. Restrictions on building funding matches between 
        intra-government programs tend to limit interagency cooperation 
        in the new funding landscape.
  --On both the State and Federal level, intra-agency matches help 
        incorporate the habitat recovery ethic into the collective 
        workplan and fosters communication efforts between all 
        agencies: from, transportation and agriculture, to education, 
        juvenile justice programs and out to our partners in the armed 
        forces. Local participation includes the Navy resource managers 
        and of course the Army through the Corps of Engineers.
  --Example: If Federal $$ to the SRFB cannot be matched with other 
        SRFB program $$ we have lost a chance to build a partnership.
    2. Summer chum has been described as an ``edge species''. They come 
in early when stream flows are low so upstream impairments have a 
significant impact.
  --The Olympic Peninsula summer runs are historically small especially 
        compared to Alaskan dog runs but they provide a component of 
        genetic diversity that holds some secret to the incredible 
        ability of salmonids to respond to changes in the environment 
        overtime. However over the past 150 years, the changes have 
        come too fast and from to many directions.
  --Our focus for restoration is often in the summer chum streams of 
        East Jefferson and Clallam Counties on the Olympic Peninsula, 
        and includes portions of Kitsap and Island Counties. We are 
        interested in using construction money to continue our low 
        gradient pasture reclamation projects as well as address the 
        multitude of barriers to passage in coho and cutthroat 
        watersheds.
  --Our projects are largely channel reconfiguration projects in low 
        gradient areas of floodplain farmland that has been ditched and 
        channelized for decades. The weed choked areas of wetland often 
        result in low dissolved oxygen readings and other impacts to 
        salmonids.
  --Local Landowners are currently stepping up to allow restoration of 
        these stream channels and providing their crop and pasture land 
        for riparian buffer creation. Unless there is a formal easement 
        granted (more hoops to jump through) the land is not counted as 
        match even with a ten to year landowner agreement.
  --The benefits of these projects to water quality, floodplain 
        function restoration, and riparian vegetation replacement are 
        extensive. Post-construction water quality monitoring and fish 
        use surveys need continued and expanded financial support to 
        document beneficial outcomes to you and to our communities.
    3. The nearshore and estuarine environments are new focus for our 
communities' restoration efforts. Salmon need more than rivers can 
provide.
  --Loss of estuarine function is of particular importance as factors 
        for decline of summer chum and chinook in Puget Sound. These 
        species spend considerable amount of their juvenile life stage 
        at the interface between freshwater and marine waters where 
        food and protective cover are prevalent.
  --The nearshore coastline is also critical for food and shelter for 
        these juvenile salmonids. It is the highway for the migration 
        of both species between the estuaries and before and during the 
        out migration to the sea. These areas provide the spawning 
        grounds for the sandlance and surf smelt, vital as food sources 
        in the complicated food chain of Puget Sound. Hence the 
        reference to Island County as the ``Bed and Breakfast'' for 
        salmon.
  --Nearshore restoration opportunities are not as obvious and are 
        limited by the incredible extent of shoreline hardening in the 
        Summer Chum ESU being at this time. Both simple and expensive 
        fixes are identified in Hood Canal along the Olympic Coast and 
        the extensive nearshore habitat of Island County, ``the bed and 
        breakfast of Puget Sound'' for chinook and summer chum.
    4. ``50 CFR Part 223 Endangered and Threatened Species; Proposed 
Rule Governing Take of Seven Threatened Evolutionarily Significant 
Units (ESUs); Proposed Rule.'' Proposed 4(d) rule ``50 CFR Part 223 
Endangered and Threatened Species; Proposed Rule Governing Take of 
Seven Threatened Evolutionarily Significant Units (ESUs); Proposed 
Rule'' has significant impact on our low gradient farmland channel 
reconfiguration activities.
  --Projects reviewed through the Salmon Recovery Funding Board, and 
        the RFEG Citizens advisory board Regional fisheries, includes 
        multiparty, multi-agency and tribal review.
  --Projects are subject to State permitting agencies and a local 
        streamlined review process that addresses the concerns of all 
        regulatory parties.
  --Duplication of these efforts with a NMFS consultation is 
        unnecessary. It puts stress on the ability of NMFS to provide 
        adequate and timely consultation on larger private and 
        municipal projects. Those consultation requirements are geared 
        toward those activities that harm rather than foster ESA 
        recovery. We need to continue our work from our priority lists 
        without unnecessary additional and duplicative scrutiny.
  --The conditions of habitat restoration construction projects and 
        channel alterations requiring project by project review is 
        onerous in that techniques used in those activities are also 
        used in culvert replacement operations. These culvert 
        activities are included in the limitations to take provisions 
        in the proposed 4(d) while our channel alterations are not.
  --We see this as an unintended consequence of the rule making 
        process. While supporting the concepts contained in the 4(d) 
        rule, it seems unnecessary to cause a pause in our forward 
        looking, community based, technically sound project planning 
        and implementation. The rules are meant to address the excesses 
        of other elements of the economy and the 150 years of impacts 
        to the viability of salmonid productivity in our watersheds.
    The concept of watershed conservation/action plans is very welcome 
and NOSC hopes to be proactive and participate with our numerous 
project partners to initiate development of these watershed plans for 
State and NMFS approval within the 2 year time frame.
    Unfortunately, community based restoration planning is the last 
thing funds are available for. Where available, they are the most 
competitive. Dedicated funding helps us build these knowledge bases and 
provide the information to the eager and sometimes bewildered 
communities. People want to do the right thing especially if the path 
is carefully laid out.
    Please make it easy for us in the home streams to do the right 
thing. Dedicated funding helps us be in the right place at the right 
time to meet the spiraling challenge of multispecies recovery in our 
diverse ecosystems.
    Thank you for you time and consideration. Our communities are ready 
to serve in the recovery effort. We hope you will continue to encourage 
work like ours throughout Washington and Oregon with dedicated Federal 
resources.

STATEMENT OF PETER HEIDE, DIRECTOR, FOREST MANAGEMENT, 
            WASHINGTON FOREST PROTECTION ASSOCIATION

    Senator Gorton. Peter Heide of the Washington Forest 
Protection Association. Welcome.
    Mr. Heide. Thank you, Senator for inviting me here today.
    Washington Forest Protection Association represents private 
landowners of over 4 million acres of forest land in the State. 
Our members have been actively pursuing solutions to challenges 
of forest management and public resource protection since the 
1987 Timber Fish Wildlife agreement.
    Building on that foundation, in 1997, we engaged with State 
and Federal agencies, tribes and others to address ESA concerns 
over salmon, steelhead bull trout and water quality issues.
    The results of this positive step was a Forest and Fish 
agreement. It's a comprehensive system of regulation, voluntary 
actions, funding and adaptive management to address fish 
habitat and water quality issues on the managed forest lands in 
the State of Washington. This is the first agreement of its 
kind that is seeking both ESA and Clean Water Act compliance.
    I'm here to report to you today that the Forest and Fish 
agreement is up and running. The Washington State legislature 
and Governor Locke have both endorsed the agreement, and it's 
been placed in the draft--or recognized in the draft 4(d) rule 
issued by National Marine Fisheries Service.
    The first tangible results of this 3 years of work, 
including 18 months of hard negotiations, is a set of interim 
forest practices rules, passed by the State's Forest Practices 
Board and put into effect by March 20.
    The rules are the first step in a regulatory system of 
putting the Forest and Fish agreement to work for greater 
protection of fish habitat and water quality on over 8 million 
acres of forest lands and the State.
    The Forest and Fish agreement is more than just 
recommendations for a new set of rules. The authors of the 
agreement recognized that current scientific knowledge falls 
short of providing the definitive answers to all of the 
questions that around forest practices and fish habitat.
    Our industry, along with other participants, has a renewed 
commitment to use scientific methods and a structured policy 
approach to resolve these uncertainties and adapt forest 
management and regulation to new knowledge as it becomes 
available.
    Adaptive management is learning by doing. It's essentially 
a combination of feedback on how well the current rules are 
doing and new information that may come from any source. The 
challenges we face with forest and fish is to put together a 
structure of adaptive management that can efficiently monitor 
field implementation of the rules and conduct scientific 
research and process this information for changes where they're 
necessary.
    This system must operate in a collaborative atmosphere that 
includes not only the participants of the Forest and Fish 
agreement but other stakeholders if they choose to join in. To 
further complicate the mission, scientists and policymakers are 
forced to work under the same roof, respecting each other's 
responsibilities but ultimately accepting the realities and 
limitations of both disciplines.
    To overcome this, the scientists must take a disciplined 
approach that follow scientific method and statistical 
protocols. Policymakers must have confidence in and respect the 
values of the technical information.
    In the ideal adaptive management world, the monitoring of 
results and the best available science would lead to a 
consensus recommendation to the rulemakers and to the managers 
that are responsible for putting the science to work on the 
ground.
    To give you an idea of the scope of the challenges that 
face the Forest and fish agreement, it contains more than 50 
questions that should be answered by scientific investigation 
to ensure the Federal and State regulators that substantial 
progress is being made toward the goals of the agreement.
    The questions fall into three categories. Monitoring, to 
find out if the rules will get us the fish habitat we think the 
fish need; validation of our scientific assumptions about what 
we think the fish need; and building on the basic science of 
how streams, fish and forests work in an ecosystem.
    In a very brief summary, here's how the Forest and Fish 
adaptive management program will be implemented.
    The public agency that writes the forest practices rules, 
the State Forest Practices Board, they're in charge. A work 
team made up of stakeholder scientists will follow the research 
priority set by the board and gets the monitoring and 
scientific study work done.
    There's a stakeholders group that's responsible for 
reviewing the results of the monitoring and scientific study 
and making recommendations to the board. There's an independent 
scientific review panel to peer review the work of the 
stakeholder scientists. And there are management functions to 
keep everything running and to ensure that the board receives 
timely and accurate communications about the progress of the 
studies.
    Because it has to work in a collaborative atmosphere, the 
Forest and Fish agreement addresses this challenge with an 
organization that demands participation and requires a great 
deal of personnel time from Federal and State agencies, 
landowners, tribes and others who wish to participate.
    Each prioritization, each study plan, each research result 
and each decision must be communicated, discussed and decided 
on among the parties. That means that people from each 
stakeholder group have to be available to work with the 
scientific and policy teams. A commitment of personnel and 
agency support specific to these tasks and needs, and, of 
course, the funding of these agencies and the tribes to meet 
their commitment is required.
    We'd like to thank you, Senator Gorton and Senator Murray 
and Representative Norm Dicks, for the substantial funding 
appropriation to our State and the tribes, and we hope this 
level of funding can continue in the future.

                           PREPARED STATEMENT

    Forest and Fish is working, and with adaptive management 
we'll continue to work. The alternative is to demand less 
information and to make decisions without adequate knowledge. 
And, of course, if we do that, ultimately the questions will 
remain and the conflicts will not be settled. Thank you.
    [The statement follows:]

                   Prepared Statement of Peter Heide

    Thank you for this opportunity to speak to you today. My name is 
Peter Heide. I am the Director of Forest Management for the Washington 
Forest Protection Association. We represent the private owners of over 
4 million acres of forestland in Washington. Our members have been 
actively pursuing solutions to the challenges of forest management and 
public resource protection since the 1987 Timber Fish Wildlife 
agreement. Building on that foundation, in 1997 we engaged with State 
and Federal agencies, Tribes and others to address ESA concerns over 
salmon, steelhead, bull trout, and water quality. The result of this 
positive step was the Forests and Fish agreement--a comprehensive 
system of regulations, voluntary actions, funding and adaptive 
management to address fish habitat and water quality issues in the 
managed forests in the State of Washington. This is the first agreement 
of its kind in the Nation to seek both ESA and Clean Water Act 
compliance.
    I am here to report to you that the Forests and Fish agreement is 
up and running. The Washington State Legislature and Governor have 
endorsed the agreement. It has been recognized in Draft 4(d) rules 
issued by the National Marine Fisheries Service.
    The first tangible result of 3 years of work including eighteen 
months of hard negotiations is a set of interim forest practices rules 
passed by the state's Forest Practices Board and put into effect on 
March 20. The rules are the first regulatory step in putting Forests 
and Fish to work for greater protection of fish habitat and water 
quality on over 8 million acres of private and state managed forestland 
in our state. A draft environmental impact statement for changes to 
permanent state forest practices rules is currently undergoing public 
review.
    The Forests and Fish agreement is more than just recommendations on 
a set of new regulations. The authors of the agreement recognized that 
current scientific knowledge falls short of providing definitive 
answers to all of the questions around forest practices and fish 
habitat. Our industry, along with the other participants, have a 
renewed commitment to use scientific methods and a structured policy 
approach to resolve these uncertainties and adapt forest management and 
forest practices regulation to new knowledge as it becomes available.
    Adaptive management of learning by doing is fundamental to the 
agreement. It is essentially a combination of feedback on how well 
practices are doing in real-life application and new information from 
all sources to improve practices. The challenge we face in Forests and 
Fish is to structure an adaptive management system that can efficiently 
monitor field implementation of the rules, conduct scientific research 
and process this information for changes where necessary.
    This system must operate in a collaborative atmosphere that 
includes not only the participants in the Forests and Fish agreement, 
but other stakeholders if they choose to join in. To further complicate 
the mission, scientists and policy makers are forced to work under the 
same ``roof'', respecting each other's responsibilities, but ultimately 
accepting the realities and limitations of both disciplines. To 
overcome this, scientists must be encouraged to direct their efforts to 
the specific questions that are needed to make decisions and to focus 
on generating useful information. Policy makers must have confidence in 
and respect the value of technical information. To maintain 
credibility, scientists must take a disciplined approach that follows 
scientific methods and statistical protocols.
    In the ideal adaptive management world, monitoring results and best 
available science would result in consensus recommendations to the rule 
makers and the managers responsible for putting the rules and the 
science to work on the ground.
    To give you an idea of the scope of this challenge, the Forests and 
Fish agreement contains more than 50 questions that should be addressed 
by scientific investigation to assure Federal and State regulators that 
substantial progress will be made toward the goals of the agreement. 
These questions fall into three categories:
  --Monitoring to find out if the rules will get us the habitat we 
        think the fish need.
  --Validating our scientific assumptions about what we think fish 
        really need.
  --Building on the basic science of how streams, fish and forests work 
        as an ecosystem.
    In a very brief summary, here is how the Forests and Fish adaptive 
management program will be implemented. The public agency that writes 
forest practices rules, the Forest Practices Board, is in charge. A 
work team made up of stakeholder scientists follows research priorities 
set by the Board and gets the monitoring and scientific study work 
done. A stakeholder policy group is responsible for reviewing the 
results of monitoring and scientific study and making recommendation to 
the Board. There is an independent scientific review panel to peer 
review the work of the stakeholder scientists. And, there are 
management functions to keep everything running and to ensure that the 
Board is receiving timely and accurate communication about the progress 
of studies.
    Because it has to work in a collaborative atmosphere, the Forests 
and Fish agreement addresses this challenge with an organization that 
demands participation and requires a great deal of personnel time from 
Federal and State agencies, landowners, Tribes and others who wish to 
participate. Each prioritization, each study plan, each research result 
and each decision must be communicated, discussed and decided upon 
among all parties. That means that people from each stakeholder group 
have to be available to work on the scientific and policy teams. A 
commitment of personnel and agency support specific to these tasks is 
needed, and of course, this means funding the agencies and tribes to 
meet the commitment. We would like to thank Senator Gorton and Congress 
for the substantial funding appropriation to our State and to the 
Tribes, and we hope that this level of funding can be maintained in the 
future.
    Forests and Fish is working and with adaptive management, will 
continue to work. The alternative is to demand less information and to 
force decisions without adequate knowledge, but ultimately the 
questions would remain and the conflict would not be settled.

STATEMENT OF JACK KAEDING, EXECUTIVE DIRECTOR, FISH FIRST

    Senator Gorton. Next, Mr. Jack Kaeding of Fish First from 
Woodland, WA.
    Mr. Kaeding. Thank you Senator Gorton, Senator Murray and 
Congressman Dicks.
    My name is Jack Kaeding. I'm an executive director of Fish 
First. Our organization is a 501(c)(3) corporation founded by 
Gary Loomis in 1995. Our mission statement is ``More and Better 
Wish in the Lewis River.'' We are 100 percent volunteers. We 
pay no one who works for Fish First.
    From 1997 through 1999, we have completed 12 major projects 
that totaled over $640,000 with a true market value of over $1 
million. The difference is, of course, the volunteer effort.
    From 1996 to 2000 we released through our net pens over 
900,000 steelhead and spring chinook smolts. We have three 
major projects for the Year 2000 that are funded by the Lower 
Columbia Fish Recovery Board along with our dollar-matching 
requirements.
    Now we find ourselves stopped in our tracks because the 
National Marine Fisheries Services', or NMFS, interpretation of 
the Endangered Species Act, which requires us to do a 
biological assessment on each project. We're told that this is 
an 18-month to 2-year process.
    Two areas under that. First, the Endangered Species 
legislation itself, while well intended, has flaws in it that 
are subject to wide interpretation by NMFS. It is designed as a 
defensive legislation, i.e., do no harm. NMFS is interpreting 
it in that manner, and their interpretation means that we 
cannot do good either or at least we'll have substantial 
delays.
    Second. In 1999, we avoided this problem by working under 
the umbrella of the U.S. Fish and Wildlife Service. They 
developed a programmatic which met all the criteria of the BA, 
and as long as they funded helped design and engineer the 
projects, we were exempt. So we got a lot of work done.
    Does more money equate to better results for fish? Well, it 
certainly should, but it doesn't always turn out that way.
    The 15-member Lower Columbia Fish Recovery Board was 
created for five counties in southwest Washington. There are 
five county commissioners that sit on the board, along with 
their individually appointed ``citizens' representative.'' This 
two-thirds structure may be weighted to the county sentiments 
because they represent two-thirds of the members of the board.
    The board received 24 requests, submitted 24 prioritized, 
and the Salmon Funding Recovery Board approved 9. Eight of the 
nine projects require a BA that could be an 18- to 24-month 
delay. Volunteer groups like Fish First are cut off from doing 
good that directly benefits fish. We're the most cost 
effective, and we do the best work because we care, and we 
urgently need your help.
    The five counties involved have the paid staff to do the 
BAs for their projects. If they get the money, it will go for 
culvert removal, which is really the responsibility of the 
Department of Transportation--should be funding culvert 
removal. Roads cause the culvert blockages to begin with, and 
anyone who drives a vehicle should pay to fix it. We should not 
be using fish recovery funds to remove or modify culverts in 
our opinion.
    What causes these problems? There are too many agencies 
involved in bringing back the salmon. There's a lack of 
interagency cooperation and communication, and that is because 
no single agency is in charge. This is proven by the fact that 
we have funded projects but no BAs. This should have been 
foreseen by a lead agency that coordinates and directs all the 
salmon recovery programs.
    There are other monumental problems.
    1. Lack of interest and response and enforcement on behalf 
of the agencies that are suppose to protect fish that are 
covered in existing laws, specifically the EPA, the DOE and 
NMFS.
    2. Gravel mining and processing laws enacted in 1872 are 
obsolete. Mining and processing in valley floors of streams or 
tributaries containing anadromous fish should be illegal. We're 
not opposed to mining, and there are optional inventories of 
gravel in other locations that can be mined and processed 
without negative impact to fish by using new technology.
    3. Regulations or legislation is needed to prohibit 
grandfathering of existing uses that degrade fish habitat.
    4. NMFS and the Federal Emergency Management Act have 
secret meetings with gravel mining proponents that are closed 
to the public and documents withheld that should be public 
record under the Freedom of Information Act.
    5. Current fish biologists and fish management practices 
need new direction and focus on best science for fish rather 
than current focus on harvest.
    NMFS must be directed immediately to a broader common-sense 
interpretation of the ESA. For example, a 5-percent negative to 
fish during a short window of construction time can result in a 
95 percent or better gain to the fish habitat over the long 
haul or the term of the project. The construction window is not 
a 12-month calendar. It runs from approximately June 1 through 
September 15. We're out of the water when the first return to 
spawn.
    Fish First has a clear focus to help return salmon and 
steelhead to near historical levels in quality and quantity. We 
know there are better proven methods than our hatcheries 
employ, and they can be accomplished with far less revenue.
    That concludes my written comments. But I would like to say 
that the interagencies for outdoor recreation who have 
constructed the landowner agreements that go along with these 
funds and the contract that a nonprofit must sign, was 
obviously written by an attorney who had the sole interest of 
protecting the agency and no interest in protecting the people 
who are doing the work.

                           PREPARED STATEMENT

    I don't know how firm that contract is or how it will be 
interpreted, but we are required to by industrial insurance 
that we can't afford, and we think the contract is far too 
restrictive. It may apply at the county level, but it cannot 
apply, in our opinion, at a nonprofit level because we simply 
don't have the funds. And if we did, we would rather spend it 
on fish than spend it on insurance. Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]

                   Prepared Statement of Jack Kaeding

    FISH FIRST is a 501(c)3 non-profit organization founded in June 
1995 by Gary Loomis, founder of G. Loomis Inc. Our mission statement is 
``More and Better Fish in the Lewis River With No Politics'' (referring 
to harvest issues).
    From 1997 through 1999, we have completed 12 major projects that 
total over $640,000 with a true market value of over $1,000,000. From 
1996 through 2000 we've released through our net pens 906,450 steelhead 
and spring chinook smolts. We have three major projects for year 2000 
that are funded by the Lower Columbia Fish Recovery Board (LCFRB), 
along with our dollar matching requirements. Now we find ourselves 
stopped in our tracks because of National Marine Fisheries Services' 
(NMFS) interpretation of the Endangered Species Act (ESA) which 
requires us to do a Biological Assessment (BA) on each project. This we 
are told takes from eighteen months to 2 years to complete.
    1. The ESA legislation itself, while well intended, has parts in it 
that are flawed and subject to wide interpretation by NMFS. It is 
designed as a defensive legislation; i.e. ``do no harm''. NMFS is 
interpreting it in that manner and their interpretation means we cannot 
do good either.
    2. In 1999 we avoided this problem by working under the umbrella of 
USFW. They developed a ``programmatic BA'' at considerable expense to 
the taxpayers that covered the BA requirements with NMFS so the 
projects they funded and designed met the BA specifications.
    Does more money equate to better results for fish? It should, but 
not the way it is structured now.
    The fifteen-member LCFRB was created for five counties in southwest 
Washington. There are five county commissioners that sit on the board 
along with their individually appointed ``citizen representative''. 
This \2/3\ structure may weight the board to be more oriented to county 
sentiments.
    The board received 24 requests, submitted 24 prioritized, the 
Salmon Funding Recovery Board (SFRB) approved nine, and eight of the 
projects require a BA, which delays the projects from eighteen to 24 
months.
    Volunteer groups like FISH FIRST are cut off from doing good that 
directly benefit fish. We are the most cost effective and we do the 
best work because we care, but we urgently need your help.
    The five counties involved have the paid staff to do the BA's for 
their projects. If they get the money, it will go for culvert removal, 
which is really what the Department of Transportation (DOT) should be 
funding any way. Roads caused the culvert blockages and anyone who 
drives a vehicle should pay to fix it. We should not be using fish 
restoration money to remove or modify culverts.
    What causes these problems? There are too many agencies involved in 
bringing back the salmon. There is a lack of inter-agency cooperation 
and communication and that is because no single agency is in charge. 
This is proven by the fact that we have funded projects but no BA's. 
This should have been foreseen by a lead agency that coordinates and 
directs all of the salmon recovery programs.
    There are other monumental problems.
    1. Lack of interest, response and enforcement on behalf of the 
agencies that are supposed to protect fish that are covered in existing 
laws. Specifically EPA, DOE and NMFS.
    2. Gravel mining and processing laws enacted in 1872 are obsolete. 
Mining and processing in valley floors of streams or tributaries 
containing andromonous fish should be illegal. We are not opposed to 
mining and there are optional inventories of quality gravel in other 
locations that can be mined and processed without negative impacts to 
fish by using new technology.
    3. Regulations or legislation is needed to prohibit grandfathering 
of existing uses that degrade fish habitat.
    4. NMFS and Federal Emergency Management Act (FEMA) secret meetings 
with gravel mining proponents that are closed to the public, and 
documents withheld that should be public record under the current 
Freedom of Information Act (FOIA).
    5. Current fish biologists and fish management practices need new 
direction and focus on best science for fish rather than current focus 
on harvest.
    NMFS must be directed immediately to a broader common sense 
interpretation of the ESA. For example, a 5 percent negative to fish 
during a short window of construction time cane result in a 95 percent 
or better gain to fish habitat over the long term of a positive 
project. The construction window is not a twelve-month calendar. It 
runs from approximately June 1 through September 15. We are out of the 
water when the fish return to spawn.
    FISH FIRST has a clear focus to help return salmon and steelhead to 
near historical levels in quality and quantity. We know there are 
better proven methods than our hatcheries employ and they could be 
accomplished with far less revenue.

STATEMENT OF JOAN BURLINGAME, COORDINATOR, FRIENDS OF 
            ROCK CREEK VALLEY

    Senator Gorton. Joan Burlingame, from the Friends of Rock 
Creek Valley and Ravensdale.
    Ms. Burlingame. My name is Joan Burlingame, and I'm 
representing the friends of Rock Creek Valley. The Friends of 
Rock Creek Valley is a newly formed community group whose 
purpose is to keep Rock Creek Valley a healthy place where 
people fish and other species to live.
    The Rock Creek Valley is located in southeastern King 
County. Directly east of the city is Maple Valley and Black 
Diamond. The valley is approximately 24 square miles in size 
and contains two salmon-bearing creeks, Rock Creek, which 
drains into the Cedar River and Ravensdale Creek which drains 
into the Green River.
    The Rock Creek Valley also is five lakes, has forests 
covered greater than 65 percent, and in my estimation has 
approximately 500 homes. Currently, there are only 300 acres 
preserved as watershed in the entire valley. The Rock Creek 
Valley provides an average of 10 million gallons a day of 
drinking water for the cities of Kent, Maple Valley and 
Covington. It also provides spawning and rearing habitat for 
species of fish and freshwater mussels.
    The Friends of Rock Creek Valley that one of the primary 
challenges the residents of Washington State face is not just 
the threat to chinook and other species, but the challenge of 
helping each resident realize that change is needed for our 
health as well as the health of fish.
    We see three primary challenges in addressing threatened 
species within King County; people's resistance to change, 
government systems that have major disconnects when it comes to 
protecting habitat and the need for funding.
    First and foremost, people resist change; change is 
uncomfortable. So as we work toward bringing back Chinook, the 
friends of Rock Creek Valley have tried to stick to simple, 
clear messages on how change may actually enhance people's 
lives.
    An example is a strong likelihood that our private wells 
would be metered. Too much water is being drawn from our 
aquifer and streams. Not only are chinook having trouble 
getting back upstream because the water is too low, but many of 
us are experiencing days that our wells are dry. Why most of us 
abhor the idea of monitoring, it will help ensure that each of 
us is taking only our fair share, thus providing us with more 
certainty of water in the future.
    We listen as our neighbors threaten to bring out their 
rifles if anyone tries to monitor their well. And I personally 
think they're very serious. After we listen to them express 
their concerns over these changes and loss of what they 
perceived as a right, we then ask them how they would help 
solve the problem of too much water being drawn down. Not 
everybody comes down when they are presented with a request to 
be part of the solution, but slowly one by one people begin to 
work with us instead of against us.
    We also don't pussy foot around the fact that these changes 
will cost us money. We are up front and truthful about the 
cost. Building long-term trust is critical to the long-term 
solutions.
    Allowing people to realize that they need to start 
adjusting their family budgets, and giving them time to do so, 
helps decrease reactivity and opposition. We believe that this 
will help increase the likelihood that we can bring chinook 
back.
    Second, our State, county, and other local governments seem 
to have significant communication problems. An example is that, 
while King County's Department of Water and Land Resources 
identifies Rock Creek as being the best salmon tributary in 
King County when they did that in 1994, in 1997, the Department 
of Development and Environmental Services, which is King 
County's building department, was not even aware of where Rock 
Creek was and accepted a building permit for a 57-home 
subdivision placed right on top of the creek.
    Another example is that King County has one set of stewards 
for waterways and another for lakes. These staff do not seem to 
communicate very often, even though the rivers are obviously 
connected to the lakes.
    The Friends of Rock Creek Valley believe that by 
encouraging communication and team work, we have a greater 
likelihood of bringing back chinook. And example is trail ride 
we coordinated last January. To increase shared knowledge about 
the challenges we are facing to preserve King County's critical 
habitat, we've brought together diverse groups.
    We took almost a third of the King County Council, 
department heads and other key people on a 6-mile horse ride 
through Rock Creek Valley. It rained an inch, by the way, 
during that time.
    The Back Country Horsemen provided 30 horses that were 
basically bond-proof horses for the nonriders. 
Environmentalists provided information about the habitat. A 
logging company provided the meeting place, and developers paid 
for the catered breakfast and lunch. The Friends of Rock Creek 
Valley are continually reaching out to bring diverse groups 
together so we can problem solve together.
    The last challenge we have is funding. The acquisition of 
land and water rights do not come easily, especially in an 
economy driven by high-tech dollars. The Friends of Rock Creek 
Valley are working for a long term solution to habitat 
preservation by developing business opportunities and 
maintenance and operation funding sources to ensure long-term 
viability. We've proposed, and King County has accepted, the 
development of the trail system rivaling the Appalachian Trail.
    In addition to supporting the development of eco-tourism, 
we are working with King County to develop a foundation within 
the county to accept money for land acquisition and 
maintenance. But we are still in need of about $5 million right 
now to keep key habitats from becoming subdivisions. And that's 
not necessarily for outright purchase. We leverage that money 
with transfer development rights.
    The runoff from one acre of forest during a 1-inch rain 
storm would fill an 8<greek-e>10 to a depth of about 2 feet, 
pave or create other impervious surfaces over the acre, and 
runoff would fill six offices floor to ceiling. The fast runoff 
of water during our winter rains leaves too little water for 
chinook later in the fall when they come up to spawn.
    The Friends of Rock Creek Valley have had some success 
locally in acquisition of habitat that needs little or no 
restoration, but quite frankly, we have not had as good 
progress in this area as we've had in others.

                           PREPARED STATEMENT

    We feel like we've already come a long way in the 
protection of chinook in our valley and look forward to the 
challenges to complete our tasks. Thank you for letting me 
present today.
    Senator Gorton. Thank you.
    [The statement follows:]

                 Prepared Statement of Joan Burlingame

    My name is Joan Burlingame and I am representing the Friends of 
Rock Creek Valley. The Friends of Rock Creek Valley is a newly formed 
community group whose purpose is to help keep the Rock Creek Valley a 
healthy place for people, fish and other species to live.
    The Rock Creek Valley is located in southeastern King County 
directly east of the cities of Maple Valley and Black Diamond. The 
valley is approximately 24 square miles in size and contains two salmon 
bearing creeks: Rock Creek which drains into the Cedar River and 
Ravensdale Creek which drains into the Green River. The Rock Creek 
Valley also has five lakes, has forest cover greater than 65 percent 
and, in my estimation, has approximately 500 homes. Currently there are 
only 300 acres preserved as watershed in the entire valley. Rock Creek 
Valley provides an average of 10 million gallons a day of drinking 
water for the cities of Kent, Maple Valley and Covington. It also 
provides spawning and rearing habitat for many species of fish and 
fresh water mussels.
    The Friends of Rock Creek Valley feel that one of the primary 
challenges that the residents of Washington State face is not just the 
threat to Chinook and other species, but the challenge of helping each 
resident realize that change is needed for our health as well as for 
fish.
    We see three primary challenges in addressing threatened species 
within King County:
  --People's resistance to change,
  --Governmental systems that have major disconnects when it comes to 
        preserving habitat, and
  --The need for funding.
    First and foremost, people resist change. Change is uncomfortable. 
So as we work toward bringing back chinook, the Friends of Rock Creek 
have tried to stick to simple, clear messages on how change may 
actually enhance people's lives. An example is the strong likelihood 
that our personal wells will be metered. Too much water is being drawn 
from our aquifer and streams. Not only are chinook having trouble 
getting back up stream because the water level is too low, but many of 
us are experiencing days that our wells go dry. While most of us abhor 
the idea of monitoring, it will help ensure that each of us is taking 
only our fair share, thus providing us with more certainty of water in 
the future. We listen as our neighbors threaten to bring out their 
rifles if anyone one tries to monitor their well. After we listen to 
them express their concerns over these changes and loss of what they 
perceived as a right, we then ask how they would solve the problem of 
too much water being drawn. Not everyone calms down when they are 
presented with the request to be part of the solution, but slowly, one 
by one, people begin to work with us instead of against us.
    We also don't try to pussy foot around the fact that these changes 
will cost them money. We are up-front and truthful about the costs. 
Building long term trust is critical to long term solutions. Allowing 
people to realize that they need to start adjusting their family 
budgets, and giving them time to do so, helps decrease reactivity and 
opposition. We believe that this will help increase the likelihood that 
we can bring chinook back.
    Second, our State, County and other local governments seem to have 
significant communication problems. An example is that while King 
County's Department of Water and Land Resources identified Rock Creek 
as being the best salmonid tributary habitat in King County in 1994, in 
1997 the Department of Development and Environmental Services (King 
County's building department) was not even aware of were Rock Creek was 
and accepted a building permit for a 57 house subdivision that was 
placed right on top of the creek. Another example is that King County 
has one set of stewards for waterways and another set for lakes. These 
staff do not seem to communicate very often, even though the rivers are 
obviously connected to the lakes. The Friends of Rock Creek Valley 
believe that by encouraging communication and teamwork, we will have a 
greater likelihood of bringing back chinook. An example is a trail ride 
we coordinated this last January. To increase shared knowledge about 
the challenges we were facing to preserve King County's critical 
habitat we brought diverse groups together. We took almost a third of 
the King County. Council, department heads and other key people on a 
six mile horse ride through part of the Rock Creek Valley. The Back 
Country Horsemen provided thirty horses, environmentalists provided 
information about the habitat, a logging company provided the meeting 
space, and developers paid for the catered breakfast and lunch. The 
Friends of Rock Creek Valley are continually reaching out to bring 
diverse groups together so that we can solve the problems together.
    The last challenge we have, is funding. The acquisition of land and 
water rights does not come cheaply, especially in an economy driven by 
high tech dollars. The Friends of Rock Creek Valley are working toward 
a long term solution to habitat preservation by developing business 
opportunities and maintenance and operations funding sources to ensure 
long term viability. We have proposed, and King County has accepted, 
the development of a trail system rivaling the Appalachian Trail. In 
addition to supporting the development of eco-tourism, we are working 
with King County to develop a foundation within the County to accept 
money for land acquisition and maintenance. But we need about five 
million dollars right now to keep key habitat from becoming 
subdivisions. The runoff from a one acre forest during a I inch 
rainstorm would fill an 8<greek-e>10 office to a depth of about two 
feet. Pave or create other impervious surfaces over that acre and the 
runoff would fill six offices, floor to ceiling. The fast run off 
during our winter rains leaves too little water for chinook later in 
the fall when they come to spawn. The Friends of Rock Creek Valley have 
had some success locally in acquisition of habitat that needs little to 
no restoration. But quite frankly, we have not made as good of progress 
in this area as we have in the others.
    We feel like was have already come a long way in the protection of 
chinook in our valley and look forward to the challenges to complete 
our task. Thank you for letting me present to you today.

    Senator Gorton. Senator Murray has another engagement, so 
we'll let her go first.
    Senator Murray. Well, thank you very much, Mr. Chairman. 
And let me just think of our panelists today for excellent 
presentations and for all the work and the insight that you've 
given us today.
    Ms. Mackrow, I just wanted to thank you for mentioning the 
Northwest Straits Initiative, which Jack Metcalf have put 
together, and I personally want to thank--I think there's a 
number of people here today who have been involved in a 
volunteer basis moving that forward. I think it's an excellent 
example of how we can work in partnership to reach goals that 
are mutual. Even though it seems at the beginning like 
everybody's on different sides, when we get people together we 
can all work towards good common goals. And I want to thank you 
and everybody here who's been involved in that.
    I did have just one question actually, and it goes to Ms. 
Mackrow too because in your testimony that you submitted to us 
you talked about some of the problems with the matching funds.
    If you could elaborate on that for us, what some of the 
challenges you see and maybe some solutions for some of those 
counties and smaller projects and the matching funds that are 
required.
    Ms. Mackrow. I think one of the most important things that 
the regional groups and the other nonprofits that I work with 
pride themselves on is the low overhead. I don't want to sound 
like I'm whining. We are good at developing matches, but we've 
finally figured out that the time it takes to write a $3,000 
request for funds and the time it takes to write a request for 
$150,000 is the same.
    So there's a lot of small funds out there that I don't have 
the time to pursue those funds. My board has actually suggested 
that we don't go for anything less than $10,000 because it's 
not worth the overhead time.
    And then when we have matches that are--almost all of our 
grants are reimbursement grants, basically I have to document 
all of our volunteer time to three different agencies if I have 
three different grants. So just right off the top, it's three 
times the paperwork. And that's one of the most simplest 
problems that we have.
    And I think I also tried to explain that not being able to 
match Federal with Federal dollars, we lose opportunities among 
the agencies. If there is transportation money that is geared 
towards salmon restoration, and there's an opportunity to work 
with juveniles in the juvenile justice system, those aren't 
necessarily matchable funds because they're both Federal 
sources. And that's the extreme. More closely we have, if the 
Corps and the EPA are both providing activities on a place, we 
might not be able to count that as match.
    So those are some of the things that I think make this 
really hard to keep score. And locally I have taken it on to 
help the other people I work with try to keep score. And I have 
to call WDFW and say, please don't write the check for that 
property from this fund. And they say, well, we don't have the 
contract from the Federal fund yet, so we have to use it from 
the State fund. So now I can't match the other half of the 
property acquisition that the county's going to do from the 
same State fund.
    You've heard it over and over again that this is an 
enormous effort, and when you have this many people involved 
from this many directions in this effort, we tend to step on 
our coat tails a little bit.
    Senator Murray. Anybody else want to quickly comment on 
that issue?
    Mr. Kaeding. I would certainly agree with it. I know in our 
situation with a nonprofit, money is spent by holding workshops 
on how to fill out the forms that we have to do, and that's 
where most of the time is spent.
    I asked Lynn Polinsky with the Interagency for Outdoor 
Recreation how solid the contract was. I told her I didn't 
think that we should put our own directors' private funds in 
jeopardy because the way it's written, it could. And she said, 
well, then don't sign the contract. And I don't think that's a 
real good answer.
    It isn't that complicated. We have hydrologists, we have 
managers, we have good biologists. We have been historically 
getting wonderful help from U.S. Fish and Wildlife and State 
Fish and Wildlife.
    I called Rich Carlson, who we've been working with for 
years now, and he's helped us go out in the creek, design the 
project engineer the project. If we needed engineer the 
project. If we needed engineering, Michele Horne would work for 
us. We have none of that support now; we're suppose to do it 
all ourselves.
    Mr. Dicks. Why is that?
    Mr. Kaeding. Pardon me?
    Mr. Dicks. Why is that? What happened with the 
relationship?
    Mr. Kaeding. It's a good question. Thank you for asking 
that. Because Rich told me their funds had been cut to zero. 
And not only that, that his personal responsibility, which 
historically has been Southwestern Washington is now all of 
Western Washington. So evidently the funds that we're getting 
through the new system are funds that have been taken away from 
State Fish and Wildlife and U.S. Fish and Wildlife.
    We had tremendous help from Washington State Fish and 
Wildlife with Lonnie Crumbly. He and Rich Carlson together, we 
were getting State funds and Federal funds. They came out and 
helped us with a project. If we needed design on the bridge, 
Michele Horne with State Fish and Wildlife would do it.
    We get none of those services now, and getting the funds 
are a lot more complicated.
    The landowner agreement that was designed by, I guess, 
Interagency for Outdoor Recreation, if a landowner signed it, 
he would be leaving himself wide open to liability because it 
said that--I can't paraphrase it exactly--that the SRF Board 
and the sponsoring agent, which would be, in this case, Fish 
First, would have the right at any time to come onto the 
property for inspection and to monitor the progress. I have no 
problem with that. But then it said, the property would also be 
open to any interested parties for whatever and for education 
purposes.
    Now, if I were a landowner and had 50 kids coming out in 
the school bus, knowing very well one could break their leg and 
their parents would sue me, I wouldn't let them on my property. 
And no landowner in his right mind would sign that contract. It 
has been modified to a certain extent. But all of the legal 
aspects of the applications that we're getting now and we're 
going to class to learn how to use them and understand them, 
has totally an overkill from what we were accustomed to with 
State Fish and Wildlife and U.S. Fish and Wildlife.
    Mr. Dicks. Is this through the State board----
    Mr. Kaeding. Well----
    Mr. Dicks [continuing]. That you're applying to?
    Mr. Kaeding. We applied to the Lower Columbia Fish Recovery 
Board. We submitted three projects. Three projects were 
approved by the Salmon Funding Board, up here. So we have the 
money, but we don't have the biological agreements.
    Along with that package then went the contract that I must 
sign as an executive director and also a landowner agreement. I 
don't plan on signing it, and I don't think the landlords will 
sign it. And if we lose our relationship with the landowners, 
who--we've lost our relationship in doing projects; it's that 
simple.
    But the bureaucratic paperwork that's going with the money 
is really out of hand. I mean, it's nothing like we were 
working with before. In other words, we have created a bigger 
problem than we had before, and we were getting more work done 
before because the agencies that we had the money from also had 
people.
    The volunteer services, like Lonnie Crumbly who worked for 
Washington Fish and Wildlife, when he retired last June, they 
did not replace him, and the reason is they have no funds.
    Senator Murray. Thank you very much for your testimony.
    Again, Mr. Chairman, I apologize for having to leave. I do 
have another hearing. And thank you for including me in this 
today.
    Senator Gorton. Great.
    Mr. King, what are the prospects for successful 
negotiations up there for the operation of irrigation districts 
this season?
    Mr. King. Well, I think they're better than maybe my 
testimony indicated. We're working pretty closely with the 
services right now, at least for Wolf Creek. We're looking at 
something that may--we're developing a habitat conservation 
plan, and in that process--which I think is a good one--it 
gives us a time to identify the scientists and the management 
strategies that seem to do the best for the fish and does some 
other things too.
    So having embarked upon that process, we bought ourselves a 
little time, frankly; and, unfortunately, there's no money 
attached to that, and we do need some consideration for those 
types of plans. They're being proposed by NMFS in particular 
for almost all of the Section 7 ditches up there right now, the 
ones that have the Federal nexus. And that's well and good, and 
it probably makes sense, but the truth of the matter is, 
there's no local capacity to do that; it takes money, an awful 
lot of money.
    So getting back to your original question, we're hopeful to 
turn on. We've undertaken--even in spite of the fact that we 
didn't get the money we ere looking for--some early 
improvements that should buy us some time to operate a little 
longer this year. We still have the potential of having target 
flows. Last year was a good year from a water standpoint; this 
year is not. It's at best an average year.
    Senator Gorton. You were I thought at least partly critical 
of the way in which applications are dealt with by the Salmon 
Recovery Board. For a relatively small county or place like 
yours, could there be improvements, either in the Salmon 
Recovery Board funding process or, for that matter, the 
National Fish and Wildlife Foundation?
    Mr. King. Yeah. I'm a little critical in two respects. One 
is that the process that they had set out was not really 
followed. While there might have been some problems locally 
with the presentation of that, I'm not sure; I wasn't at the 
meeting when it was actually done. Nevertheless, there should 
have been some consideration of the bigger picture.
    I don't know whether those folks realized or not when they 
made that decision that there was match money tied to it from 
the National Fish and Wildlife Foundation. Had they, they might 
have done something else. Because I think the way we're 
organized is we do have a lead entity, that being Okanogan 
County, who is in charge of putting together the application 
packages and managing the grant matching portions. And when we 
lost those funds, obviously other funding parts fell apart 
also.
    So I don't know. I don't think there was any--I think next 
time it could be better done if there's a better understanding 
of how these grants are matched together because there's going 
to be a lot of money coming in.
    And also, someone raised earlier the possibility of 
matching Federal. Well, there's also the possibility of getting 
an awful lot of help from some of the other agencies that are 
kind of on the fringe; NRCS, the Corps of Engineers perhaps, 
USGS for monitoring and those types of things.
    If someone could look at the big picture when it comes to 
funding for--I know it's going to be done regionally. I'm not 
so sure it shouldn't continue to be done locally why these 
immediate cost needs are here. If somebody could look at that 
big picture and be able to articulate that in some sort of a 
funding strategy, I think we'd all be better off. I'm not sure 
I know how to do that, but I'm sure there are people who could 
figure it out.
    Senator Gorton. Ms. Mackrow, how many people are involved 
in your group or groups?
    Ms. Mackrow. Let's see. The best number I could come up 
with out of the air, I think we have 150 registered volunteers 
that work with us across the Olympic Peninsula, and that 
doesn't include the other groups and the lead entities and the 
counties that also work in restoration that we partner with.
    Senator Gorton. Would you give me a little bit on how the 
National Marine Fisheries Service permitting process has 
affected your group and its projects?
    Ms. Mackrow. I think that they've alluded to that concept--
to be really blunt, the 4(d) rule exempts culvert related 
activities, or it includes them in the listed limitations of 
recovery activities along with planting riparian zones and 
using large woody debris that's not anchored or cabled.
    All of our projects, even though they're low land, low 
gradient projects--we have in the past used cable woody debris, 
and we do need to operate our heavy equipment in the stream. 
And when we're doing challenge reconfiguration we are 
reestablishing stream meanders, where over the years the 
farmers were encouraged by the Federal Government to ditch and 
drain their properties, we are trying to reestablish the 
natural stream hydrology.
    Those things, while they were funded by the Salmon Recovery 
Funding Board, instead of culverts primarily, are not included 
in the limitations, so they do require biological assessments.
    We have two projects that we're planning that essentially 
instead of getting them done this year the way we would have 
last year, we will probably just delay them through at least a 
year of permitting.
    Mr. Dicks. Who's requiring the biological assessment? Is it 
Fish and Wildlife Service or NMFS?
    Mr. King. NMFS.
    Ms. Mackrow. NMFS. And we're anticipating those BAs. We 
haven't actually gone in and tried to permit any of those. 
We're hoping that the process will smooth itself out over the 
summer.
    Senator Gorton. It cost you a year--how much money?
    Ms. Mackrow. For us the funding is--it won't cost us money 
at this point just this time.
    Mr. King. If I might add just for a moment--you mentioned 
who requires them. It turns out in our instance the Corps of 
Engineers actually had to do a biological assessment on a 
project that could have affected--so I think any place is that 
Federal nexus, you've got a BA that you're looking at. So you 
get a lot of maybe repetition.
    Mr. Dicks. I want to make sure I have this clear. The State 
board requires a 15-percent match? Is that accurate? And the 
National Wildlife Foundation requires a one-to-one match?
    How do the local groups--how do you come up with a one-to-
one match? That must be very difficult.
    Ms. Mackrow. Match it with the SRF Board money.
    Mr. Dicks. You can match it with the money you get from--so 
how you have to do is really come up with 15 percent?
    Ms. Mackrow. Right. That's if----
    Mr. Dicks. And you can do in-kind?
    Ms. Mackrow. We haven't applied yet for our National Fish 
and Wildlife money, so we've dedicated regional enhancement 
funds, which are dedicated Federal funds, to the regional 
enhancement groups as our 15-percent match for our SRF Board 
grants.
    They have the problem where they had the National Fish and 
Wildlife Funds secured, but they didn't secure which would be a 
50-percent State match. So they have to come up with 50 percent 
of their funds.
    Mr. King. And we aren't going to make it.
    Ms. Mackrow. And they don't have a regional enhancement 
group to work with.
    Mr. Dicks. And the legislature created the regional 
enhancement groups; is that correct?
    Ms. Mackrow. Yes.
    Mr. Dicks. And you're one of----
    Ms. Mackrow. One of 12.
    Mr. Dicks. So if we could get this straightened out a 
little bit, coordinated, because you have the legislature doing 
one thing, Congress doing another thing. It sounds like 
Ruckelshaus was right about needing a coordinator----
    Mr. King. I agree.
    Mr. Dicks [continuing]. To pull all this together. We've 
got so many different programs.
    Yes?
    Ms. Burlingame. If I may say, it has been a challenge to 
try to raise the 50 percent. And I do want to say that the city 
of Seattle----
    Mr. Dicks. Now who requires 50 percent?
    Ms. Burlingame. Well, it's in the grants, the National 
Marine Fisheries. We just filled out an application.
    One of the things that King County and the city of Seattle 
has assisted us in, is that they have set up what's called 
transfer development rights. And so the city of Seattle has 
identified some parts within the city, and also the city of 
Kent, to allow extra density.
    So in other words, if you're building an apartment, and you 
were to buy the building rights for a building in the rural 
area and pay the property owner $20,000, then you could add up 
to three stories onto your apartment building. And so that has 
helped us secure some funding to do some of the matches.
    Mr. Dicks. Jim.
    Mr. King. One more point. You know, most of these projects 
are multi-year and grant cycles are typically 1 year, and that 
make it more difficult to match also.
    If you could look at a work program that was designed maybe 
for a particular--maybe restoration of stream flow, for 
example, on a multi-year basis, that will give the locals an 
opportunity to leverage as much money as they possibly could 
and maybe make the expenditures more efficient.
    Mr. Dicks. OK. Well, I saw what you were doing at Chimacum 
Creek, and the work there is very good. And I just urge you all 
to hang in there, and we'll try to see what we can do to 
straighten out some of these regulatory problems.
    And I regret what's happened, Jack, to you all, not having 
the Fish and Wildlife Service coordination. I'm definitely 
going to check into that and see if we can't do something about 
that.
    Mr. Kaeding. Appreciate it. Thank you.
    Senator Gorton. Thank you very much for your very real 
contributions to us. We appreciate them.

STATEMENT OF JAMES WALDO, LEAD FACILITATOR, HATCHERY 
            SCIENTIFIC REVIEW GROUP

    Senator Gorton. Panel 3 is on hatcheries, and if the group 
in that panel will move forward, we appreciate it.
    We will start the hatchery group with the facilitator of 
the reform effort, Jim Waldo.
    Mr. Waldo. Mr. Chairman, Congressman Inslee. I have 
prepared some written testimony.
    Senator Gorton. The written testimony that each of you have 
submitted will be included in the record. So summarize it, and 
please get close enough to those microphones so people in the 
back of the room can hear you.
    Mr. Waldo. Mr. Chairman, I would first like to echo and 
reinforce the comments that Bill Ruckelshaus made about both 
the progress that has been made and the need to pull a lot of 
these promising individual efforts into kind of a shared 
strategy as the next step here in Puget Sound. And I have some 
comments about that in my testimony, but I'm not going to cover 
them. You've heard them today, and I think he articulated the 
need very well.
    I want to move to the specific issue then of all the areas 
that are going to be affected and have to change. One of them 
is in the area of hatchery reform.
    There are approximately 100 hatchery facilities in Puget 
Sound and the Washington coast that have somewhere between 300 
and 350 different programs that operate out of those 
facilities. Many of them were built in a different era with a 
different concept as to what we were to manage and how we were 
to manage the resource. They were built at a time when the 
general belief was, that if you built them larger and released 
more fish, you would automatically receive more benefits.
    They were operated in a time early in their history when it 
was believed you could move stocks from one basis to another; 
that the quality of the receiving waters was not particularly 
relevant to the success of a hatchery facility.
    Since that time, we've learned a lot. And we've learned 
that quantity in and of itself is not a key to success. We've 
learned that the quality of the receiving habitat and the 
biological factors that the hatchery fish are going to be 
introduced to will make a substantial difference.
    Perhaps the biggest change, as a result of the Endangered 
Species Act, is that we have now decided we're going to manage 
for different outcomes. Whereas at one, let's say 20 years ago, 
people basically said, we've got little or nothing left to this 
run. We'll put a hatchery in, and if the run goes extinct, 
that's an acceptable trade off as far as society's concerned 
for increased fishing opportunity. It wasn't that people didn't 
know what they were doing; they made a different set of trade 
offs.
    Society today has said we're no longer going to make those 
trade offs; that we are going to manage to rebuild a lot of 
these wild runs, and so we have a new context in which we're 
operating.
    Fortunately, Congress last year, through the leadership of 
a number of you up in the podium, decided to be a catalyst on 
this issue. So I have really three messages today.
    The first one is that the direction that you provided last 
year and the resources that you provided are already having a 
significant impact. The State and the tribes in Puget Sound and 
the coast will have plans for all 100 facilities, including all 
programs that bear on chinook as to how they're to be in ESA 
compliance.
    Those plans will include, in essence, a conceptual 
framework that NMFS has developed in collaboration with the 
State and the tribes. The initial drafts of those plans will be 
completed in June of this year and ultimately will be 
incorporated in a biological opinion.
    I can assure you that without the resources you provided 
last year for the State and tribal scientific teams, this would 
not have occurred; it would not have been possible. And this is 
a substantial step forward in Puget Sound's efforts to come 
into compliance with the Endangered Species Act.
    Second, probably by the end of this year or early next 
year, the State and tribes will have cooperatively developed a 
new database that will have information on every hatchery 
facility and all the programs in those hatchery facilities 
regardless of who manages them, and anyone will be able to 
access that information system.
    This has not existed in the past in Puget Sound or in the 
Pacific Northwest, and it would not have occurred but for the 
funds that you all provided last year to enable this kind of an 
intricate data system to be developed. And it will give us the 
information base for being able to evaluate and make decisions 
about these facilities and the performance of these facilities 
in the future.
    The third thing you did, and I think perhaps the most 
important in the long-term, was to create an independent 
scientific review group, made up of nine scientists, who have 
been charged to come with an approach for how we will bring 
science to bear on making these decisions in the long-term.
    It's been my honor as part of a facilitation team through 
Long Live the Kings to work with this group of scientists, and 
I have been absolutely impressed with the quality of their 
background and their judgment and their focus on having an 
impact on these issues and having an impact in a very short 
period of time.
    It's their goal to have a framework put together on how to 
organize all of the scientific knowledge we have regarding 
hatchery fish, regarding how hatchery techniques can be used to 
help conserve and rebuild wildstocks, and about what are the 
risks of employing these tools; and to have that framework 
together by the fall of this year so that the information being 
gathered by the managers can be applied against that framework, 
and we can be in a position to start making long-term 
judgments.
    The final thing that I wanted to report on, and I'm sure my 
colleagues here will speak to in more detail, is the scientists 
have met with the managers--tribal, State, and Federal--and 
NMFS as the ESA agency, and basically they have begun to 
develop an implementation program for how we will get through 
the first phase of ESA compliance and then move on to the more 
challenging task of saying, how do we reposition Puget Sound 
with the use of hatcheries, either to assist in recovery in 
conservation of genetic stocks or in providing sustainable 
fisheries that do not harm ESA listed stocks, and to be able to 
provide a context for us to be able through the next 10 to 30 
or 40 years not just with the legacy of what we had from the 
past, but what would we want to do in the future knowing what 
we know today and given what we want to manage for.
    I think you should take great pride in what you've 
accomplished by virtue of your legislation last year. There's 
no doubt in my mind this would not have happened without the 
impetus of the legislation, without the funding of the 
legislation and without the direction to create this effort.
    The response of the managers has been a wholehearted 
embrace of this approach, and from what I have seen so far you 
could not ask for a better response, both individually and in 
their commitment to cooperate at the State, Federal, and tribal 
level.

                           PREPARED STATEMENT

    I believe that within the next year or two, if this effort 
is sustained, that it will achieve the promise that you hoped 
for when you passed this legislation, and you will be able to 
take some real satisfaction in which you have helped cause to 
occur. Thank you very much.
    [The statement follows:]

                   Prepared Statement of James Waldo

    Mr. Chairman, I wish to thank the Committee for your continuing 
interest in our salmon resources of the West Coast, and the support you 
are providing to improve those resources. My name is Jim Waldo. I am a 
partner at Gordon Thomas Honeywell, and serve as the lead facilitator 
of the Hatchery Scientific Review Group (HSRG). This group is charged 
with reviewing hatchery operations and practices in the Puget Sound and 
coastal waters of Washington State. Based on the best available 
science, this group will make recommendations to the hatchery managers 
on how hatcheries can be repositioned in the future to provide for a 
sustainable fishery and help to restore naturally spawning salmon runs. 
In addition to the HSRG, I am working with Long Live the Kings to 
facilitate discussions among the co-managers and develop an outreach 
and communications plan to build support for hatchery reform.
    As a young boy, I remember climbing into the family station wagon 
with my parents, brother and one of my grandfathers to head for 
different fishing towns on the Coast, the Straits, and Puget Sound. 
Early the next morning, in pre-dawn light, we headed out bundled up in 
parkas and rain gear. As the sun came up our lines stretched in the 
gray water. Suddenly, the tip of a rod would bounce and then take a 
deep bend towards the water. Salmon on. What a thrill!
    At the end of a day or two of fishing we would return home with a 
full fish box. Family cook-outs, community picnics, and gifts of salmon 
to neighbors who couldn't fish would highlight the next week. Several 
weeks later, the cycle would occur again, throughout the summer and 
early fall.
    Just as I fished with my grandfather and my parents, my children 
have gone fishing with their grandparents and their parents. They have 
had the thrill of matching skills with the powerful adult salmon. They 
have also had the fun and pride of bringing salmon home, which served 
to bring together and feed family and friends.
    This is a way of life that has existed for hundreds, if not 
thousands of years. It remains central to the Native American 
communities around Puget Sound and the Coast. It has been an important 
thread for many other families who have arrived and stayed over the 
last hundred years.
    The salmon are a source of food, income, enjoyment and provide a 
sense of community. It is one of our great challenges to secure the 
future of the salmon at the same time as we secure the future of this 
prosperous and vibrant region of the United States for current and 
future generations. Accomplishing either would be a serious 
undertaking. Accomplishing both simultaneously presents one of the 
major challenges of our times. In Washington State and the West Coast, 
we are engaged in a mighty effort to reconstitute how we conduct our 
affairs to achieve these goals. Because the salmon's range is so vast, 
there is almost no aspect of our geography, waters or society which 
will not be affected in some manner.
    I am going to speak today about one of the areas that will see 
major changes: salmon hatcheries.
    There are 100 hatchery programs in the Puget Sound and on the 
Washington Coast. Many of these hatcheries have been in existence for 
decades. They were built and placed into operation in a different era, 
with different values that led to a different fisheries management 
system. Hatcheries were seen as a way to offset losses in the number of 
wild salmon. The general beliefs were that the larger the hatcheries 
the better; the larger the number of fish released the better; and the 
impacts on those particular wild or native runs were an acceptable 
price to pay for the benefits of a larger fishery. It was believed that 
stocks could easily be moved between basins and that the hatchery 
operations could compensate or more than off-set limitations in the 
receiving habitat.
    Our society has recently determined that those ``remnant runs'' of 
wild stocks should be protected (ESA listings). We have also learned 
that simply releasing large numbers of juvenile salmon does not 
guarantee large returns. We have learned that the genetics of salmon, 
their adaption to particular watersheds, and the quality of the 
receiving habitat are very important to their long-term fitness and 
survival.
    Fortunately, this Committee and the Congress became a catalyst last 
year for accelerating action on this issue. As a result, a number of 
very important actions are underway.
    By this summer the state of Washington, the Tribes of Puget Sound 
and the Washington Coast, and the U.S. Fish and Wildlife Service will 
have developed proposals for how each of the hatchery programs in this 
area will be in compliance with the ESA. These proposals will be 
reviewed by the National Marine Fisheries Service and incorporated in a 
Biological Opinion.
    The consensus among fish management agencies and Tribes is that 
changes resulting from these plans will significantly improve hatchery 
operations for listed salmon stocks. This will be a major step forward. 
The state of Washington and the Northwest Indian Fisheries Commission 
are also using some of the funds provided by you to develop and 
implement a joint software data-base system for all of the hatcheries 
in this area. This is another major step forward.
    The next major step forward has been the creation of an independent 
science team, the HSRG, to ensure that the best available scientific 
information is utilized in making these decisions. The independent 
scientists were nominated by the American Fisheries Society. They have 
been selected and the scientific effort is underway.
    The nine scientists serving on the HSRG have a broad range of 
experience. Their scientific disciplines range from biology, genetics, 
ecology, fisheries, hydrology, river geomorphology and other 
disciplines. Members include:
  --Dr. Trevor Evelyn, formerly with the University of British 
        Columbia, and an expert on fish health;
  --Dr. Lars Mobrand, of Mobrand Biometrics, and an expert in ecosystem 
        planning and natural resource management;
  --Robert Piper, formerly with the U.S. Fish and Wildlife Service in 
        Bozeman, Montana, and an expert in hatchery biology and 
        management;
  --Lisa Seeb, with the Alaska Department of Fish and Game, and an 
        expert on fish genetics;
  --Dr. William Smoker, with the University of Alaska, and a biologist 
        with expertise in conservation and artificial culture;
  --Lee Blankenship, a Senior Research Scientist at the Washington 
        Dept. of Fish and Wildlife, and an expert in fish 
        identification and harvest management applications;
  --Dr. Donald Campton, with the U.S. Fish & Wildlife Service, and an 
        expert in fisheries and genetics;
  --Dr. Conrad Mahnken, Director, Manchester Research Station, National 
        Marine Fisheries Service, and an expert in biology and 
        oceanography;
  --John Barr, Nisqually Indian Tribe, with expertise in salmon 
        culture, artificial production programming, and hatchery 
        operations.
    The HSRG has now begun work. In their first two months, they have 
decided on their initial research priorities and awarded the initial 
research grants.
    They have established an approach to gathering, organizing and 
using existing scientific knowledge and information. They have held 
meetings with representatives of the Washington Department of Fish and 
Wildlife, the Northwest Indian Fisheries Commission, and the National 
Marine Fisheries Service to establish appropriate roles and working 
relationships.
    Finally, they are completing development of a proposed course of 
action for implementing the assignments that Congress has given them.
    I have had the honor of working with these nine scientists in a 
very intensive setting. These are intelligent, honorable people with 
good judgment, valuable experience, and a commitment to having science 
contribute to good informed decisions.
    The HSRG is hard at work preparing its initial report to Congress 
this June and a work plan for the next year which will be critical to 
the success of this effort.
    You have created and funded this group. I have every reason to 
believe that you will be proud of the results. The representatives of 
the fisheries interests present today, I'm sure, will speak to their 
views of the importance of this effort.
    Finally, as I mentioned earlier, the Congressional legislation 
which originated in this Committee has been a catalyst for bringing 
scientists, managers and Endangered Species Act regulators together 
around hatchery reform in a way that would not otherwise have happened.
    The result will be to reposition hatcheries to become an active 
agent in helping to conserve and recover wild stocks and to contribute 
to sustainable fisheries. The results will be significant and long-
lasting.
    As someone who plans on going salmon fishing with my grandchildren, 
I wish to say thank you for all that you have done and will continue to 
do.

STATEMENT OF PETER BERGMAN, DIRECTOR, BIOLOGICAL 
            SERVICES, NORTHWEST MARINE TECHNOLOGY

    Senator Gorton. Thank you, Pete Bergman.
    Dr. Bergman. Mr. Chairman, committee members, I thought I 
should briefly explain who I am.
    I work for a private company, Northwest Marine Technology, 
but for 7 years I was chief of salmon management for the State 
and I was a member of the Snake River Salmon Recovery Team, 
which was the first endangered species listing by NMFS.
    Anyway, more directly relevant to this hearing, I was chair 
of a group of scientists appointed by Senator Gorton to advise 
him on hatchery reform. There were seven of them, and they 
represented--or more precisely, they were members from all of 
the fish agencies in the Puget Sound and coastal region, the 
region we're addressing here; that is, the State, the tribes, 
the National Marine Fisheries Service and U.S. Fish and 
Wildlife Service.
    Anyway, the problem that we were confronted with was the 
fact that hatcheries are listed as one of the 4H's that have 
undermined the wildstocks. You could just look at this and say, 
well, we know that the natural stocks are in real trouble, and 
there will not be fisheries on them for the foreseeable future. 
So if we're going to have fisheries, they're going to have to 
come from hatcheries.
    So the question that you essentially posed to our group 
was, is it possible to take hatcheries and to make them support 
the recovery of natural stocks or at least not undermine it, 
and at the same time provide fisheries?
    So we spent the large part of a year studying that, and we 
came up with a consensus statement. We agreed that that could 
be done, but only under certain circumstances. And those 
circumstances meant that you'd have to change the way that you 
did things in the past.
    I'm not going to go into a lot of detail about that. But 
included in these kind of changes--Jim mentioned some things 
relating to that--you have to have new genetic policies. You 
just can't do things the way they did. And there's going to 
have to be less interaction, less physical direct interaction 
between hatchery stocks and natural stocks. And probably the 
fisheries themselves will have to be modified.
    Anyway, we recommended a budget of $3.6 million to begin 
this reform, and Senator Gorton concurred. And with the great 
support of Congressman Dicks and others, the Congress provided 
the money.
    I mentioned that the goals have to change, and I want to 
emphasize something that Jim brought up. And I want to say, 
very poignantly, the real problem with hatchery management in 
the past has been that the decisions were not based on science. 
I mean, some were, but by and large, they were not objective. 
And I think for those who have familiarity with hatcheries in 
the past, they realize that the public supported hatcheries 
just emotionally, and to the point where if you wanted to close 
a hatchery somewhere, you had some real problems.
    So essentially what I'm saying--and it's not just what I'm 
saying; it's what our group said, and I think there were four 
other scientific problem that looked at the problem and said, 
you know, these hatcheries just have not been evaluated. 
They're simply running fundamentally on emotion, and that's got 
to change.
    Now recently, we've had a kind of different slant on this 
whole thing. We've had what we call hatchery bashing. We've had 
lots of people coming out, some fairly important people, and 
writing big articles and saying hatcheries are no good, and 
that they're really big bad things. And, of course, they 
emphasized this undermining of the natural stock thing.
    The perspective of our group is that this hatchery bashing, 
by and large, is equivalent to what was happening in the past; 
it's based on emotion and not good scientific foundation.
    So at any rate, the core of our recommendation to you was 
that hatchery management needed to be changed to a scientific 
basis. And at the beginning of this year--Jim was talking about 
this in some depth--a nine-man scientific panel was appointed, 
and I think it's worthwhile taking a minute and talking about 
what the make-up is so you understand.
    In my opinion, this is a true, blue ribbon scientific 
panel. There are nine members. Five of those members are 
independent; they do not work for the local agencies. And they 
were provided by a list provided by the past presidents of the 
American Fisheries Society. So they went through and decided 
who met the criteria and who were the top ranked folks, so five 
people were selected from that group.
    Senator Gorton. From here or from around the country?
    Dr. Bergman. From all around the country, and one from 
Canada and two from Alaska.
    The other part of that problem was though, of course, you 
may get the world's greatest scientist, but if the agencies who 
run the hatcheries don't buy in, you've got a problem.
    So our judgment was that the agencies needed to have a part 
of this science. So in addition to the five really independent 
scientists, there are four scientists, one from each of the 
agencies, and I'm talking about the tribes as an agency in this 
particular case. But the requirements for these agency 
scientists was, No. 1, they need to be highly qualified; and 
No. 2, they don't represent the policies of the agency. Their 
purpose in being on this panel is to make sure that there's 
communication and that the people really understand what's 
going on in the agencies. I had the impression that this was a 
really good mix.
    Anyway, these folks are hard at work. Once again, I'm 
repeating a little bit of what Jim says, but I'll say it. 
They've been defining the problems, what are the problems, 
they've been generating workplans, and they've been determining 
what science is needed, what science should we jump on and 
learn about.

                           PREPARED STATEMENT

    Anyway, I guess my whole view of this whole thing is that 
these guys are really working hard, and I think they're 
extremely effective. And frankly, one of the things that's 
different that I've not been involved with before in these 
kinds of things is that they're getting support. They're not 
just a bunch of scientists out on their own trying to figure 
out how to make things work; they've got the support of Jim 
Waldo and of Long Live the Kings, which has been truly superb. 
And you're going to hear, I'm sure, from our fellow panelists 
more about this.
    In any rate, this group will report its progress to the 
Congress in June. Thank you.
    [The statement follows:]

                  Prepared Statement of Peter Bergman

    Mr. Chairman, members of the Committee. My name is Peter Bergman. I 
am Director of Biological Services for a private company, Northwest 
marine Technology. I was chief of salmon harvest management, research, 
and hatcheries for seven years prior to my retirement from the 
Washington Department of Fisheries. I was a member of the Snake River 
Salmon Recovery Team, appointed by the National Marine Fisheries 
Service when the first Northwest salmon were listed under the 
Endangered Species Act.
    Directly relevant to this hearing, I was chair of a group of 
scientists appointed in 1998 by Senator Gorton to advise him on salmon 
hatchery reform in Puget Sound and Coastal Washington. The seven-person 
team had members from all of the fish agencies of the Region--the 
State, Tribes, National Marine Fisheries service, and the U.S. Fish and 
Wildlife Service.
    The problem we examined was criticism of hatcheries as one of the 
four H's responsible for depletion of natural salmon stocks. A question 
was could these hatcheries be managed to support and not undermine wild 
stock recovery? Also, it was evident that natural stocks would not 
support fisheries in the foreseeable future. Could hatchery stocks be 
fished without significant injury to wild stocks?
    Our consensus decision was both goals could be achieved if we 
manage hatcheries differently. This will involve changes in genetic 
policies and reducing physical interactions between hatchery and wild 
fish, and probably some modification of fisheries.
    We recommended a budget of $3.6 million to begin the reform. 
Senator Gorton concurred, and with the support of Congressman Dicks the 
money was provided. At this time, the proposed mechanisms for reform 
are well underway.
    Fundamentally, hatcheries in the past were managed for different 
goals than now required, and management decisions were too frequently 
based on unmeasured assumptions. Hatcheries have enjoyed public support 
irrespective of their effectiveness, but recently there has been 
considerable criticism. Our view is this ``hatchery bashing'' is 
typically based on emotion rather than facts. However, the purpose of 
this effort is not to debate the problems of the past but to make 
hatcheries work as well as they can for their newly-defined purposes. 
Our conclusion is a basic problem has been failure to base decisions on 
scientific information, and independent scientific review is essential 
to achieving these goals.
    We have established a blue-ribbon ``Hatchery Scientific Review 
Group'' (HSRG) for this purpose. It is composed of five independent 
scientists, who do not work for the fish management agencies, and four 
qualified scientists from the agencies involved. The independent 
scientists were selected from a list supplied by the Past President's 
Council of the American Fisheries Society. We felt it was important to 
also have agency scientists on this panel because buy-in by those 
actually running the hatcheries is critical.
    The HSRG was established early this year and has made significant 
progress in defining what will be done, generating a work plan, and 
determining critical scientific information needed. It will report on 
its progress to Congress in June.

STATEMENT OF BILLY FRANK, CHAIRMAN, NORTHWEST INDIAN 
            FISHERIES COMMISSION

    Senator Gorton. Thank you. Billy Frank.
    Mr. Frank. Thank you, Senator, Mr. Chairman and Congressman 
Dicks and Congressman Inslee.
    As you know, Mr. Chairman, I've been here a long time.
    Senator Gorton. You're not going anywhere, are you?
    Mr. Frank. No, I'm not going anywhere.
    I want to mention for a second our leader that we lost last 
Sunday, Joe De La Cruz, the past president that brought people 
together. That was a big loss for all of us in our northwest.
    But anyhow, I want to thank you, Senator Gorton, for the 
hatchery reform. I've been sitting out here all of these years 
watching the hatcheries, and nobody wanted to touch them. And 
it's a very big part of salmon recovery in our State and 
throughout the northwest and along the Pacific Coast.
    We put a team together, and it's a team of experts, 
credible people that can look at all of the watersheds and how 
do we fit in a watershed, how do the hatcheries fit in a 
watershed. And I look at the Nisqually watershed where I was 
born and raised and managed Nisqually watershed. And in that 
watershed we have steelhead wild, chum salmon and wild winter 
fishery, and we have pink salmon wild. We have coho that's 
artificial and chinook that's artificial. Well, or hatchery on 
the Nisqually has chinook and coho as hatchery stock. And we 
protect the wildstock.
    Now, watersheds are very complex, and it's hard to 
understand what you're talking about when you talk about 
hatchery. ``Oh, them people off the Nisqually River are fishing 
again. What are they fishing on?'' Well, we're fishing on 
hatchery stock.
    If you took away all the hatcheries today, there would not 
be any more fish. There would not be any more fish for maybe 50 
or 100 years because the wildstock are in such disarray that we 
have a lot of work, a lot of healing to do, a lot of bringing 
people together on the watersheds and working together. And the 
hatchery reform is a forum that's going to do exactly that.
    It's not going to solve everything. Everything has to be 
connected in this. The puzzle is big, and hatchery reform is 
part of that puzzle. And certainly, it will bring a lot of 
credibility to what we're doing and telling the story about 
hatcheries and wildstock, how they have to work together to 
bring the salmon back to the northwest. And that's going to 
take 50 to 100 years to do that.
    So we have a long time to be together, all of us. And 
everyone that you heard in this room, a very positive hearing. 
And it's talking about us. It isn't talking about them or 
anybody; it's talking about all of us.
    And one of the things that we always sit and wait for is a 
breath of fresh air. And we always wait for the sun to shine 
and the opportunities with the stars to line up, so we can go 
for whatever we're doing out here in salmon recovery. And I 
think that the stars are lining up, and we've got to work 
together to make it happen. Everyone has to be part of this. We 
can't leave anybody out. They've all got to be part of this 
recovery initiative that we're making; the President, the 
Congress, our local governments, our State, our tribes, our 
Federal Government. We have to work together.
    We don't all agree on everything, but we're in a debate and 
we're in a forum that we can get to the next step, and that's 
very important that we all do that. And I commend you for 
bringing us together today and making it happen. I commend 
Patty Murray for being here, our Senator and Congressman Dicks 
and Representative Inslee, to take part and take time our in 
your life and listen. And listening is very important because 
we have to have a lot of patience when we listen, and listen 
and try to get to the next step that we want to take together.
    As we finish the watersheds, we have to move out into the 
estuary. And it's no big thing to talk about what salmon needs. 
The salmon needs clean water. You don't have to be a rocket 
scientist to figure this out. And they need an estuary. As they 
come down the watershed and into the salt water, they have to 
make that transition. Well, they need that estuary out there to 
protect them along the shoreline.
    We need flounders for the food chain. When I was a little 
kid off the mouth of the Nisqually River, we fished flounders 
out there, waited for them, and picked them up and threw the 
little ones away, and then we cooked them on the beach. They're 
gone. There's no more there. And Nisqualle is one of the 
estuaries that we're proud of. We're all working together to 
put it back.
    And sand dollars. You've seen sand dollars, all of us. 
There's no more. Thousands of them along the beaches, millions 
of them--they're gone. They're part of that food chain that we 
talk about.

                           PREPARED STATEMENT

    So when we leave the watersheds, and we straighten all 
these up--and we will do that, working together--we've got to 
move out into the estuaries and then move out into the ocean, 
and we have to heal the ocean and heal our bays and heal our 
shoreline. And so this forum, this hearing today, has taken us 
that direction. So thank you.
    Senator Gorton. Thank you.
    [The statement follows:]

                   Prepared Statement of Billy Frank

    This is a time of great change in the management of the salmon 
resource in the State of Washington. Listings of several local salmon 
stocks under the Endangered Species Act have required us to re-examine 
many of our approaches to the way we manage salmon.
    Our use of hatcheries is one example. Today, the tribes, as well as 
State and Federal agencies, are looking at salmon hatcheries in new 
ways.
    Once viewed by many simply as ``factories'' for producing salmon, 
now we are reforming hatchery practices to help recover and conserve 
wild salmon populations while providing sustainable fisheries for 
Indian and non-Indian fishermen. It's just one of the many efforts by 
the treaty Indian tribes in western Washington in the battle for wild 
salmon recovery.
    While the tribes have made efforts over the past decade to reduce 
impacts of hatcheries on wild salmon stocks--such as carefully timing 
releases of young hatchery salmon into rivers to avoid competition for 
food and habitat with young wild salmon--a lack of funding has 
prevented the tribes from applying a comprehensive, systematic approach 
to hatchery reform.
    Now, thanks to the efforts of Washington's congressional 
delegation--most notably Senator Gorton and Representative Dicks--the 
treaty tribes, Washington Department of Wildlife, U.S. Fish and 
Wildlife Service and National Marine Fisheries Service will share $3.6 
million this year to conduct much-needed research, monitoring and 
evaluation of hatchery practices at the approximately 150 tribal, State 
and Federal hatchery facilities in western Washington. Continued 
funding for this effort will be critical to its overall success.
    Federal legislation has created an independent Hatchery Scientific 
Review Group to provide scientific oversight for tribal, State and 
Federal hatchery practices reform and to provide recommendations for 
implementation of scientific goals and strategies. A top priority of 
the tribal and State co-managers under the hatchery reform initiative 
will be to complete Hatchery Genetic Management Plans for each species 
at each hatchery on Puget Sound. The plans, due in late June, will 
provide a picture of how stocks and hatcheries should be managed, and 
will serve as a tool for implementing hatchery reform. The plans are 
especially important in light of efforts to respond to ESA listings of 
Puget Sound chinook and other salmon species in western Washington. In 
fact, the National Marine Fisheries Service is expected to rely on 
these plans for its decisions on whether hatchery practices could 
constitute a ``take'' of salmonids listed under the ESA.
    Already, some salmon enhancement facilities have been switched from 
producing hatchery fish to restoring wild fish through broodstocking 
and supplementation. Through these programs, wild salmon are captured 
and spawned at a hatchery. Their offspring are then reared in the 
facility and later released in various locations within the watershed 
to increase their chances for survival. Such efforts help preserve and 
rebuild wild salmon runs that might otherwise disappear.
    Hatchery reform is part of an integrated strategy for salmon 
recovery.
    The tribal and State co-managers are responding to declining wild 
salmon populations through improved planning processes like 
Comprehensive Coho and Comprehensive Puget Sound Chinook, which seek to 
protect and restore adequate freshwater habitat and to ensure that 
enough adult salmon reach the spawning grounds to recover the stocks. 
The goal is to restore the productivity and diversity of wild salmon 
stocks from Puget Sound and the Washington coast to levels that can 
support treaty and non-treaty fisheries. As part of the effort, 
recovery goals and comprehensive recovery plans are being developed for 
all salmon species in western Washington. Specific recovery plans are 
being developed for each watershed to guide how harvest, habitat and 
hatcheries will be managed.
    The treaty Indian tribes in western Washington already have made 
significant harvest reductions to protect weak wild stocks. In fact, 
over the past 25 years, treaty tribal salmon harvests have been reduced 
by more than 80 percent. This has come at a great cost to the 
spiritual, cultural and economic well-being of the tribes.
    For 2000, the tribes are planning conservative fisheries that are 
more restrictive than last year in order to protect weak wild salmon 
stocks, especially coho. While recognizing there are some strong 
hatchery chinook returns expected, tribal fisheries will be designed to 
contribute to the rebuilding of Puget Sound chinook, which have been 
listed as threatened under the Endangered Species Act.
    All of these steps will have little effect, however, if there are 
no similar efforts to protect salmon habitat. Lost and damaged salmon 
habitat has been, and continues to be, the main reason for the decline 
of wild salmon.
    We are confident, however, that by working together--all of us--we 
can achieve our goal of returning wild salmon stocks to abundance. 
Reforming hatchery practices is another step on the road to wild salmon 
recovery.

STATEMENT OF JEFF KOENINGS, DIRECTOR, WASHINGTON 
            DEPARTMENT OF FISH AND WILDLIFE

    Senator Gorton. Jeff Koenings.
    Mr. Koenings. Thank you, Mr. Chairman and members of the 
committee. I do appreciate the opportunity to testify here 
today on a very important topic of hatchery reform in the State 
of Washington.
    It is my opinion that Washington's hatcheries, its system, 
designed and operated to provide for the recovery of wildstocks 
and for sustainable harvest by citizens, needs to remain 
viable. Why? Well, one example is that, 80 percent chinook and 
coho harvested this year in Puget Sound will be of hatchery 
origin.
    I think most of us here would agree that our hatcheries 
originally were designed and operated as fish production 
facilities, both for recreational and commercial fisheries. In 
recent years, however, as we have increasingly focused on ways 
to conserve wildfish, we have altered our view of how we 
conduct both our fisheries and our hatchery operations. Not 
only have the co-managers on one side and our stakeholders on 
the other adopted new fishery regulations to protect wild runs, 
we've come to use hatcheries to help restore wild runs.
    Despite this shift, our approach to repositioning 
hatcheries has not been consistent. Hatchery operators--State, 
tribal, and Federal--have lacked a cohesive strategy largely 
because we have lacked the resources to implement any strategy.
    As I said before, many hatcheries were built to mitigate 
for lost habitat. Their mission was to produce as many adult 
salmon as possible. Now, however, the fisheries they supported 
have had to be substantially reduced because the ESA has 
constrained harvest practices. And with the downscaled fishing 
effort, our hatcheries and habitat cannot support the large 
numbers of fish returning to some hatcheries.
    Senator Gorton. Say that again.
    Mr. Koenings. Pardon?
    Senator Gorton. You can't do what?
    Mr. Koenings. With the downscaled fishing effort, our 
hatcheries and habitat cannot support the large numbers of fish 
returning to some hatcheries. We've had to re-tool our 
fisheries--we're in the process of doing that--because we've 
had to scale them down from what they used to be to what they 
are now. Our hatcheries have continued to produce fish, and our 
fisheries can't catch all the fish in some cases that are 
coming back. So that gets into realigning our hatchery 
practices and fisheries, which we're in the process of doing.
    In order to use these fish for egg-takes, food banks and 
other uses, these fish have been killed. Realigning the 
production of fish at hatcheries to reflect a present day 
effort is one way of reducing the need to sacrifice fish weirs, 
professionally known as clubbing.
    A few decades ago, my department had one hatchery involved 
in the wildstock recovery efforts. Today, approximately a third 
of the 90 hatcheries the department operates are used in 
wildfish recoveries. Despite these ongoing changes, many of our 
hatcheries are operated in a way inconsistent with the recovery 
of wildfish. Some of our hatcheries have built-in deficiencies 
that pose obstacles to spawning salmon, some impede upstream 
migration, others are in the dire need of physical 
improvements, and still others require different broodstocks.
    As co-managers of the State's fisheries resources, my 
department and the tribes are committed to working together as 
partners, and we are committed to a single vision for our 
hatcheries, to help recover and conserve wildfish population 
and to provide sustainable fisheries.
    Just as we are committed to this joint vision, the 
department is committed to the historic effort now underway to 
achieve the comprehensive repositioning of hatchery operations 
in Puget Sound and Western Washington. This collaborative 
effort is the primary effort by which Washington State can 
address ESA compliance issues for its hatcheries, and it's 
absolutely critical if we are to avoid the unsatisfactory 
patchwork approaches of the past and achieve true hatchery 
reform.
    The funds attained by Senator Gorton and Congressman Dicks 
and others are the primary means by which Washington State is 
addressing the repositioning of hatcheries to address ESA 
requirements and still provide for tribal and nontribal fishing 
opportunities. The foundation of this reform will come from the 
recently formed Hatchery Scientific Review Group that was 
mentioned earlier.
    This independent group, charged with reviewing current 
processes and policies and identifying the scientific needs of 
hatchery reform is essential, and it is critical that the 
findings of the Hatchery Scientific Review Group are adopted 
not only by the co-managers, but also by the appropriate 
Federal agencies.
    Bottom line. No matter how good our intentions, no matter 
how good our science and ability to implement it, the end 
result will be determined by our resources. Aside the Federal 
appropriation earmarked this year for hatchery reform, State 
leaders also recently appropriated funds for hatchery reform. 
As one example of the interest of such a leader, we have 
Representative Regula in the audience here today. Activities 
carried out using these funds have been folded into and 
coordinated with those now being carried out with Federal 
monies.
    Finally, we have also presented the concept of the Hatchery 
Science Review Group's task to the combined leadership of the 
State House and Senate. Just as salmon recovery efforts now 
underway in Washington State must be science-driven and carried 
out in a collaborative way, so must hatchery reform.

                           PREPARED STATEMENT

    In my opinion, the reform process put in place under the 
direction of Senator Gorton and Congressman Dicks and others 
accomplishes both these goals. The Department of Fish and 
Wildlife, along with our tribal co-managers, look forward to 
participating in this effort and making it become a reality. 
Thank you very much.
    [The statement follows:]

                  Prepared Statement of Jeff Koenings

    Thank you Mr. Chairman and members of the committee. I appreciate 
the opportunity to testify today on this very important topic.
    It is my opinion that Washington State's hatcheries, designed and 
operated to provide for the recovery of wild stocks and for sustainable 
harvest by citizens, should remain viable.
    I think most of us here would agree that our hatcheries originally 
were designed and operated as fish production facilities for 
recreational and commercial fisheries.
    In recent years, however, as we have increasingly focused on ways 
to conserve wild fish, we have altered our view of how we conduct our 
fisheries and hatchery operations. Not only have we adopted new 
fisheries regulations to protect wild runs, we've come to use 
hatcheries to help restore wild runs.
    Despite this shift, our approach to repositioning hatcheries has 
not been consistent. Hatchery operators--State, tribal, and Federal--
have lacked a cohesive strategy, largely because we have lacked the 
resources. In many instances, changes in hatchery operations have 
failed to keep pace with changes in fisheries and the environment. 
Consider this example:
    Many hatcheries were built to mitigate for lost habitat. Their 
mission was to produce as many adult salmon as possible. Now, however, 
the fisheries they supported are gone because the ESA has constrained 
harvest practices. And with a downscaled fishing effort, our hatcheries 
and habitat cannot support the large numbers of fish returning to some 
hatcheries. In order to use these fish for egg-takes, food banks and 
other uses, these fish have been killed. Realigning the production of 
fish at hatcheries to reflect the present-day effort is one way of 
reducing the need to sacrifice fish at hatchery weirs.
    The scientific framework for hatchery operations began in the 1980s 
when the Washington Department of Fish and Wildlife put in place 
comprehensive guidelines designed to prevent the spread of pathogens 
from hatchery to wild fish, minimize adverse genetic impacts and 
decrease competition between hatchery and wild fish for habitat.
    These changes occurred about the same time as the role of 
hatcheries themselves began to evolve. Two decades ago, my department 
had one hatchery involved in wild stock recovery efforts. Today, 
approximately a third of the 90 hatcheries the department operates are 
used in wild fish recovery.
    Despite these changes, many of hatcheries are operated in a way 
inconsistent with the recovery of wild fish. Some of our hatcheries 
have built-in deficiencies that pose obstacles to spawning salmon. Some 
impede upstream migration; others are in dire need of physical 
improvements; still others require different broodstocks.
    In addition to the challenges, our science has outpaced our ability 
to respond. Complex genetic and other issues have not been adequately 
addressed. Endangered Species Act listings have taken these scientific 
challenges to new levels of complexity and urgency. The funds obtained 
by Senator Gorton and Congressman Dicks are the primary means by which 
Washington State is addressing the repositioning of hatcheries to 
address ESA requirements.
    As co-managers of the State's fisheries resources, my department 
and the tribes are committed to working together as partners. And we 
are committed to a single vision for our hatcheries: to help recover 
and conserve wild fish populations, and to provide sustainable 
fisheries.
    Just as we are committed to this vision, the department is 
committed to the historic effort now underway to achieve the 
comprehensive repositioning of hatchery operations in Puget Sound and 
western Washington. This collaborative effort is the primary effort by 
which Washington State can address ESA compliance issues, and is 
absolutely critical if we are to avoid the unsatisfactory, patchwork 
approaches of the past and achieve true hatchery reform.
    The foundation for this reform should come from the recently-formed 
Hatchery Scientific Review Group. This independent group, charged with 
reviewing current processes and policies and identifying the scientific 
needs of hatchery reform is essential. And it is critical that the 
findings of the hatchery scientific review group are adopted by the co-
managers and appropriate Federal agencies.
    With resources already appropriated under this effort, my 
department and the Scientific Review Group are discussing how to put in 
place performance objectives and make critical improvements at our 
hatcheries. The department is also continuing its work on its Hatchery 
Genetic Management Plans required under the ESA by NMFS so they can be 
used by the Scientific Review Group to establish a baseline for 
hatchery reform.
    No matter how good our intentions, no matter how good our science 
and ability to implement it, the end result will be determined by our 
resources. Besides the Federal appropriation earmarked this year for 
hatchery reform, State leaders also recently appropriated some funds 
for hatchery reform. Activities carried out using these funds have been 
folded into those now being carried out with Federal monies.
    My department continues to seek support from State leaders. Even in 
advance of the Hatchery Scientific Review Group's reform framework, we 
are seeking substantial funds for repairs, reconfigurations, closures 
and other changes to hatcheries. We have also presented the concept of 
the HSRG's tasks to the combined leadership of the State House and 
Senate.
    Just as salmon recovery efforts now underway in Washington State 
must be science-driven and carried out in a collaborative way, so must 
hatchery reform. The reform process put in place under the direction of 
Senator Gorton and Congressman Dicks accomplishes both these goals. It 
also demands full accountability from all those involved.
    The Department of Fish and Wildlife looks forward to participating 
in this effort and making it become a reality.

STATEMENT OF FRANK URABECK, MEMBER, NORTHWEST MARINE 
            TRADE ASSOCIATION

    Senator Gorton. Frank Urabeck.
    Mr. Urabeck. Chairman Gorton, Congressman Dicks, 
Congressman Inslee, I am speaking for the Northwest Marine 
Trade Association. That includes about 800 companies and other 
entities from Washington, Oregon and British Columbia that 
comprise much of the recreational boating industry in 
northwest.
    We very much care about the protection and the recovery of 
the wildstocks and are indeed directly involved in salmon 
recovery efforts. I serve on three King county watershed 
committees. I also volunteer my time in support of salmon and 
steelhead projects undertaken by Trout Unlimited, the national 
sport fishing and conservation organization.
    While we work to save wild salmon, our association also 
promotes sport fishing opportunities consistent with the 
conservation objectives and in compliance with the Endangered 
Species Act. Obviously, there's a self-interest in here because 
most fishing is done by boats.
    As Jeff said, this year approximately four out of five 
salmon harvested in Puget Sound region will be fish that 
originated in hatcheries. Those of us that participated with 
the State and tribal co-managers in setting the 2000 salmon 
season regulations know firsthand the protections afforded 
wildstocks by the restrictions we placed on our fisheries.
    Clearly, without hatchery salmon, there would be little or 
no opportunity to fish this year by anyone. Even with our best 
collective efforts to save wild salmon, I do not see wildstocks 
rebounding to levels that would allow significant harvest 
within the near future.
    Now we do recognize that some of the criticism of past 
hatchery practice is valid, and that is why we've joined with 
Trout Unlimited, the Puget Sound Anglers, the Poggie Club and 
other organizations in supporting Senator Gorton's Hatchery 
Reform Initiative, which has been co-sponsored by Congressman 
Dicks.
    It just doesn't make sense to ``throw the baby out with the 
bathwater'' as some advocate, when properly run hatcheries 
through enlightened management can both support wild salmon 
recovery and meaningful harvest by sports, commercial and 
tribal fishers.
    In his recent book, ``Salmon With Rivers,'' Jim Lichatowich 
is highly critical of hatcheries and alleges that little has 
been done to deal with the problems. He seems to suggest that 
hatcheries should be abandoned but offers no alternatives that 
would retain meaningful fisheries. I respectfully disagree with 
Mr. Lichatowich.
    New hatchery operation approaches in the Yakima Basin by 
the Yakima Indian Nation show promise. The mass marking of 
hatchery coho and recently hatchery chinook will not only allow 
biologists to assess the real interaction of wild and hatchery 
stocks on spawning grounds, but also enable selective 
fisheries.
    And I'm pleased to announce that the Muckleshoot Tribe and 
the Department of Fish and Wildlife I think just several weeks 
ago reached an agreement to mark hatchery chinook at the Soos 
Creek and the Issaquah Creek hatcheries, and that was a major 
accomplishment.
    Now sports anglers for several years have been targeting on 
marked hatchery coho and releasing unmarked wild coho where 
appropriate. This year for the first time the commercial 
trollers will be selectively fishing for coho off the 
Washington coast. Selective fishers will eventually allow us to 
address the very sensitive problems of excess salmon returning 
to hatcheries that several have referred to.
    The Oregon hatchery coho ``bonking'' video that several of 
our State legislators have shown has gotten lots of 
distribution and infuriated not just a few legislators 
concerned about the return on the public dollar spent on 
hatchery production when you have all these excess fish coming 
back.
    And it's important to mention that the success of hatchery 
supplementation is saving wild runs like the White River Spring 
Chinook, and we're also using supplementation in an attempt to 
restore wild steelhead in the north Lake Washington tributaries 
located not too far from where we're having this hearing today. 
And Senator Gorton, you were there at the Issaquah Hatchery I 
think this fall when we talked about that.

                           PREPARED STATEMENT

    We're excited about the work of the Hatchery Scientific 
Review Group and believe it holds great promise for helping to 
steer hatchery management in the right direction. We appreciate 
very much the leadership, Senator Gorton, and the role that 
you've played in establishing and funding this group of 
scientists, as well as the significant involvement and that of 
Congressman Dicks and others, and Senator Murray, in the 
Northwest salmon recovery, all of you.
    Thank you for this opportunity to speak on behalf of the 
sport fishing stakeholders.
    [The statement follows:]

                  Prepared Statement of Frank Urabeck

    Mr. Chairman, members of committee. I am Frank Urabeck, speaking 
for the Northwest Marine Trade Association. The association includes 
800 companies and other entities from Washington, Oregon and British 
Columbia that comprise much of the recreational boating industry in the 
Northwest. We very much care about the protection and recovery of wild 
salmon stocks and are active in salmon recovery efforts. I serve on 
three King County watershed committees and also volunteer my time in 
support of salmon and steelhead recovery projects undertaken by Trout 
Unlimited, the national sport fishing and conservation organization.
    While we work to save wild salmon our association also promotes 
sport-fishing opportunities consistent with conservation objectives and 
in compliance with the Endangered Species Act. Most fishing is done 
from boats.
    This year approximately four out of five salmon harvested in the 
Puget Sound region will be fish that originated in hatcheries. Those of 
us that participated with the state and tribal co-managers in setting 
the 2000 salmon season regulations know first hand the protections 
afforded wild stocks by the restrictions we placed on our fisheries. 
Clearly, without hatchery salmon there would be little or no 
opportunity to fish this year by anyone. Even with out best collective 
efforts to save wild salmon I do not see wild stocks rebounding to 
levels that would allow significant harvest within the near future.
    We recognize that some of the criticism of past hatchery practices 
is valid. That is why we have joined with Trout Unlimited, Puget Sound 
Anglers, the Poggie Club and other organizations in supporting Senator 
Gorton's hatchery reform initiative. It just does not make sense to 
``throw the baby out with the bath water'' when properly run 
hatcheries, through enlightened management, can both support wild 
salmon recovery and meaningful harvest by sports, commercial and tribal 
fishers.
    In his recent book, ``Salmon Without Rivers,'' Jim Lichatowich is 
highly critical of hatcheries and alleges that little has been done to 
deal with the problems. He seems to suggest that hatcheries should be 
abandoned but offers no alternatives that would retain meaningful 
fisheries. I respectfully beg to disagree with Mr. Lichatowich.
    New hatchery operation approaches in the Yakima Basin by the Yakima 
Indian Nation show promise. Mass marking of hatchery coho, and recently 
hatchery Chinook, will not only allow biologists to assess the real 
interaction of wild and hatchery stocks on spawning grounds but also 
enable selective fisheries. Sports anglers for several years have been 
targeting on marked hatchery coho and releasing unmarked wild coho 
where appropriate. This year commercial trollers will be selectively 
fishing for coho off the Washington coast. Selective fisheries will 
eventually allow us to address the very sensitive problem of excess 
salmon returning to hatcheries.
    The Oregon hatchery coho ``bonking'' video has gotten lots of 
distribution and infuriated not just a few legislators concerned about 
the return on the public dollar spent for hatchery production. Also it 
is important to mention the success of hatchery supplementation in 
saving wild runs like the White River Spring Chinook. We are using 
supplementation in an attempt to restore wild steelhead in the north 
Lake Washington tributaries located not too far from Bellevue.
    We are excited about the work of the Hatchery Scientific Review 
Group and believe it holds great promise for helping to steer hatchery 
management in the right direction. We appreciate very much the 
leadership role Senator Gorton has played in establishing and funding 
this group of scientists as well has his significant involvement in 
Northwest salmon recovery.

    Senator Gorton. Jim, it seems to me you spent your entire 
career attempting to facilitate answers to complicated 
questions with people who at least start with widely divergent 
point of views.
    How would you rank this one on the order of complexity and 
difficulty?
    Dr. Bergman. The complexity in terms of managing the 
scientific information I think is the biggest challenge, in the 
sense that this effort I believe is going to end up really kind 
of setting up the research and scientific framework where we're 
going to push the limits of our knowledge into some very 
complicated areas of genetic interactions, things that people 
have talked about, but we don't know a whole lot about.
    The good news is, I guess, two-fold. One, I've been in the 
middle when some of these folks couldn't hardly speak to each 
other, or their predecessors, and I was sort of the chief clay 
pigeon.
    And in this case, what Billy and Jeff have said I've heard 
from others throughout Puget Sound and the coast that they as 
managers believe it to be in their interest in the resource 
interest to make this work. And what Frank reported to you from 
the fishing community is, I believe, the fishing community is 
no longer saying don't change, they're just saying, try and 
change in a way where you make these two fit. And we realize 
things won't be the same. That's not always been the case in 
the past; it's been a no change philosophy.
    And the last thing. These scientists are impressive. They, 
I believe, are going to give us information which managers can, 
in fact, use to make informed decisions, and that's their goal.
    So I can't remember in the last couple of years where I've 
been as enthusiastic about an effort, I guess, Slade, in 
response to your question, as I am about this one. I think 
Billy's right, the stars are lined up, and we're going to look 
back and next year and the year after and say, probably not 
since the early 1900s did people set about accomplishing 
something of this significance and actually do it.
    Senator Gorton. Pete, let's say that this group, as 
distinguished as it is, can come up with answers. Are its 
recommendations going to be listened to by the managers? And 
perhaps even more significantly, will these recommendations 
likely be considered to be consistent with the Endangered 
Species Act, and do you have a relationship with NMFS that 
means you'll be able to implement whatever the recommendations 
are?
    Dr. Bergman. I think they will be consistent, and I think 
that there's several reasons for that. One is, the agencies--
and once again, I'm talking about the tribes as an agency--have 
been working very closely with the National Marine Fisheries 
Service to understand what the requirements are. And from the 
very beginning of this whole thing, we were assured that these 
things would and could mesh.
    Now, I think that the Federal agencies are going to be 
working closer with this particular group, right, Jim?
    Mr. Waldo. I might add to that, what Pete's referring to is 
the State and tribal managers have put together an 
implementation and coordination group. They recently asked U.S. 
Fish and Wildlife Service and NMFS if they would each appoint 
someone to join in that effort, and they will. And they have 
picked some very good people to do that, people who I consider 
to be knowledgeable and results oriented.
    So I think this is an area where, beginning with the 
submission of the hatchery and genetic management plans this 
summer and on through the course of this fall, there probably 
will be very effective detailed discussions, and it's going to 
lead decisions that will be implemented.
    Senator Gorton. Finally, Jeff, you got interrupted, and I 
think quite properly so, by Norm when you got to this clubbing 
or whatever term, the ``bonking'' that one might use for it. 
Let me see if I can follow through the logic.
    The hatcheries were created primarily to produce fish that 
would be caught, commercially and for sports purposes. As we 
move into a great emphasis on the restoration of natural 
stocks, we've cut down on that harvest on both sides. So what 
you're saying is the hatcheries under those circumstances were 
literally producing too many fish.
    Mr. Koenings. In some cases, yes.
    Senator Gorton. At least in some cases.
    Now, maybe perhaps you can tell me why is it that excess 
number of fish could not have been harvested at a point earlier 
in the cycle, then they get backed up to their hatchery and are 
clubbed?
    Mr. Koenings. Well, it's a very complicated question and a 
very complicated answer.
    Quite frankly, we go through a process under the Pacific 
Fisheries Management Council and north of Falcon, a process 
where we allocate fish based on their anticipated return back 
to various points of origin, if you will, both natural and 
hatchery stocks.
    We lack in some cases, in many cases, the ability to make 
adjustments to those pre-season forecasts as the fish come 
back. In some cases, the hatcheries outperform their 
expectation, in other cases, they underperform their 
expectation.
    And a large part, when we design fisheries, we can't 
capture if, in fact, there is an increased production beyond 
what we expect coming back to some facilities. And therefore, 
you have these large surpluses that we have to do something 
with.
    Our purpose is to do something constructively with those 
fish, and that's why I mentioned the food banks. Billy's 
familiar with giving fish away up in Nisqualle and so on.
    Senator Gorton. And so it's more--by the nature of the 
situation, you can't come up with totally accurate estimates--
than it is; that they're mixed in with wildfish that you must 
protect or are both of those factors involved?
    Mr. Koenings. Both of those are factors. And we've tried to 
address one of those factors by having selective fisheries, for 
example, and by having terminal fisheries as another example. 
But you have to realize, 30, 40, 50 years ago, there was a 
quite different construct in terms of fisheries and hatcheries 
than there is today. And we're in the process, the flux, the 
evolution of trying to redesign and reconfigure not only 
hatcheries but our harvest structure as well.
    Senator Gorton. Now if you didn't kill the fish, if you 
didn't bonk the fish, if you just paid no attention, then what 
would happen?
    Mr. Koenings. Well, in some cases the habitat isn't there 
to do anything with, so they would essentially be dead, 
obviously, from their own cycle, and contribute nutrients to 
the watershed, which in some cases isn't there as well. So a 
lot of the beneficial use wouldn't be there in terms of what we 
want to do with the fish anyway. I'm just using this as one 
example as well. There are other examples why fish need to be 
killed the hatchery rack, if you will, but this is a big one.
    If they're not killed, we just won't have the beneficial 
use for those fish that we think we can provide by having them 
killed at that hatchery.
    Senator Gorton. Norm.
    Mr. Dicks. Pete, I know you've been working on this 
Hatchery Forum Initiative, and I want to thank you, and all of 
you, for your efforts in this area.
    And this is one of the questions, when you have people come 
out here trying to explain hatchery fish--you can catch 
hatchery fish, you can eat hatchery fish. Some people think 
they shouldn't even have a salmon; that it's the wildfish that 
we're trying to focus on.
    And one of the challenges in operating these hatcheries, as 
I understand it, is trying to deconflict the wildfish that are 
reproducing in the river at the same time when you release 
these hatchery fish.
    Now, are we going to be able to do this? Can these things 
be managed so that you separate the hatchery fish from the 
wildfish? And anybody else who wants to get on this.
    Dr. Bergman. Well, I think they can. I think you're aware 
that the National Marine Fisheries Service has come out and 
said, we've got to be able to know what the mix is, and we want 
all of these fish to be marked, and not necessarily for 
selective fishing, but just so that we can----
    Mr. Dicks. In other words, you want to do the adipose fin 
clipping on all hatchery fish?
    Dr. Bergman. That's what I believe National Marine 
Fisheries Service is saying.
    There's some of us who wanted to do the same thing that, 
thinking that gives us a greater opportunity for the 
selective--there's some of us who wanted to see all the 
hatchery fish marked so that they could be caught, and so that 
you can find out whether a fish, when you've landed the thing, 
is a hatchery fish or a natural fish, and put them back and try 
to fish in ways----
    Mr. Dicks. Put the wildfish back?
    Dr. Bergman. Put the wildfish back and fish in such ways 
that the fishing gear does not injure the wildfish, that sort 
of thing. And probably what you'd want to do is fish in areas 
where you can tell that most of the fish are hatchery fish 
because they're identifiable. And that's the Federal request 
that just came out in a letter a short time ago.
    In the first place, you can't tell when the hatchery fish 
are mixed with the wildfish unless you can differentiate them 
in some way. And so they're just saying, hey, simply, we can 
look at the fish. And they're concerned about what fraction of 
the hatchery fish are spawning with the wildfish. And so now 
the idea is that we go out on the spawning ground and just take 
a look. And if we've got too many, we need to figure out how to 
change that.
    Mr. Dicks. Yes, Frank.
    Mr. Urabeck. Congressman, those are good questions, and the 
fact is, that we really started--and I think both of you were 
helpful in getting us into that mass marking. And the coastal 
fisheries again this year will be on hatchery marked coho; we 
have to have that. And it was pretty successful last year. The 
encounter rates were pretty good. It was, hey, this may not be 
a bad way to go. A little slow in the straits as some of you 
know, but we hope the encounter rates go up this year. And down 
in the lower Columbia River it's a way to go.
    People fought this idea. And we had some of those debates, 
but now people are recognizing that this does give us an 
additional tool to be used where appropriate. And the big 
breakthrough on chinook, there's still some issues to be worked 
out with the tribes, and they've got to be in agreement with 
this thing. That's one thing we learned, you can't rush ahead. 
The co-managers both have to agree this is the way to go. But 
we're seeing some promise on this thing.
    National Marine Fisheries Service just came out with a 
letter just a few weeks ago, that in effect said, as a matter 
of policy, mass marking is the way to go in order to 
differentiate between the wild and the hatchery fish on the 
spawning grounds. Coho, there are selective fisheries; chinook, 
we've still got to talk about because of the United States-
Canada thing, but we're moving in the right direction.
    Mr. Dicks. Jeff.
    Mr. Koenings. Just a brief comment on other ways that we're 
selectively harvest fish. Mass marking is one way of having a 
selective fishery. There are other time and area strategies 
that we have as well, where we try to separate healthy stocks 
from stocks that are not healthy. And of course, we have to 
provide the fishing opportunities and the custom places for the 
tribal co-managers. But they harvest in terminal areas, so 
there's a way of separating, in some cases, again, the stocks 
that are in trouble for those that are hatchery origin.
    I will mention one other reason why you do see, in certain 
cases, why we do have to kill fish at the rear, and that's 
simply because we have out of watershed stocks coming back to 
certain watersheds. And that's part of our review practice to 
not have out of watershed stocks coming back to a particular 
watershed to use the local endemic stocks in the watershed. And 
again, that will help us reduce the incidence of having to 
harvest fish when they come back. So there's a variety of 
different things we have to do and can do with this review.
    Mr. Dicks. Billy, what do you think about selective 
harvest?
    Mr. Frank. Tribes are not against it. There's a right way 
to do it and a wrong way to do it. And we're working to find 
the right way.
    Mr. Dicks. Is there new gear that you can use where you 
could release the fish rather than use gill nets? Is that 
possible?
    Mr. Frank. Well, you could go back to the old days of traps 
and whatever, you know. I mean, we're working with everyone and 
looking at different methods of doing things now. I mean, there 
is a change coming, and it's happening right in front of us, 
such as nets that are going to be sunk and mashes and different 
other things.
    When I was a young boy, again, we had cotton nets. They 
were cotton, and we hung them. And it took you a couple weeks 
to hang them. Well, cotton rots, and the salmon's got a chance 
to go through, and the cotton can be seen at daytime. And you 
can only catch salmon night with a cotton net. These are things 
that now, the filament comes out, you can fish 24 hours a day 
and catch salmon. But them are things that are being looked at. 
These are very trying times for managers to get right in and 
see what methods has to be done.
    We've got to look at the whole ecosystem, and we can't 
single any elements out. We've got to look at everything. 
Fixing hatcheries is not going to solve our problem. Everything 
has got to be together. We've got to look at everything, the 
habitat, the clean water, everything. And we've got to look at 
management, just exactly what we're talking about here. And 
we've got to be credible, we've got to be accountable, and 
we've got to do it right.
    Mr. Dicks. What about mass marking? The tribes have come 
along on this.
    Mr. Frank. As Jeff was saying, the Muckleshoot Tribe and 
Washington Department of Fisheries came to an agreement on mass 
marking. And that's what's happening throughout Puget Sound and 
along the coast.
    Mr. Dicks. Jeff, one thing I tried to do every year to ask 
that the State go out and meet one on one with each of the 
tribes on this issue and their areas. And I'm told that's being 
done.
    Mr. Koenings. That's correct. That's what Billy was 
referencing, the State working with the individual tribes, like 
the Muckle Sous Tribe and others to reach agreement on mass 
marking chinook as well as coho.
    Mr. Dicks. Thank you, Mr. Chairman.
    Senator Gorton. As you've all noticed, we've been joined at 
the time of this panel with Congressman Inslee, and now it's 
his turn, both for a statement, if he wishes to make one, and 
for questions.
    Mr. Inslee. I just have a couple questions.
    First, I should note, Billy made reference to hoping for a 
breath of fresh air. I thought you were going to introduce me, 
Billy. I was kind of disappointed a little bit by that.
    I appreciate the Senator convening this and all of your 
participation. I do have a couple questions.
    First, what percentage of these stocks are tagged now to 
identify them as hatchery and realistically, say a year from 
now, what's like to have identifying markers or hatchery fish? 
What do you think? Anybody can answer that, take a stab at it.
    Mr. Koenings. In Puget Sound?
    Mr. Inslee. Yeah, let's just stay with Puget Sound for a 
moment.
    Mr. Koenings. Well, for coho and chinook, I think in the 
next--well, if not this year but the next year, we'll have 
nearly 100 percent of the coho and chinook marked in Puget 
Sound from hatcheries.
    Mr. Inslee. That's when you do the adipes?
    Mr. Koenings. Right.
    Mr. Inslee. Not all of them will have the tag.
    Mr. Koenings. In the mass marking program, exactly. They'll 
be some scientific double index tagging and all that stuff that 
we don't need to go into. But, yeah, involved in the mass 
marking program.
    Mr. Inslee. And what percentage does that eventually save 
of the hatchery fish--of the natural run fish, that are tagged, 
or otherwise identified, what percentage actually get back into 
the water and survive?
    Does anybody have any idea how that works?
    Mr. Koenings. Well, I'll take a shot at it.
    We have an idea of what the total harvest rate is on fish 
from marking our hatchery fish, and we think those rates will 
be representative for the wildstocks. But the essence of it is, 
is that we hope--as Pete was saying earlier--the problem that 
we're trying to correct is, we can't harvest wildstocks at the 
same rate we harvest the hatchery stocks. So we can place a 
great harvest rate and emphasis on the hatchery stock, thereby 
reducing the overall harvest on the natural stocks. So on 
hatchery stocks we may harvest at a rate of 60 to 70 percent. 
We only harvest, incidentally, the weaker wildstocks as a rate 
of 20 to 25 percent. That's how far we've reduced it.
    So that's the hope here, that we can have some real 
opportunities, both in terms of tribal and nontribal fisheries, 
by having a higher harvest rate on the hatchery stocks, and at 
the same have a much, much lower incidental harvest rate on the 
wildstocks. That's the intent of the program.
    Mr. Inslee. Dr. Bergman, can you--and this is kind of a 
wide open question. But if you were consider all of the 
challenges that hatchery fish create for natural wild runs, how 
would you characterize those between increasing incidental 
take, being a competitor for nutrients, genetic interbreeding?
    What's the greatest threat? How do you, in an hierarchical 
basis put those? What's the biggest problem? What's the least 
problem?
    Dr. Bergman. I'm not sure I can really answer that. I guess 
my personal sense--and I know that others, unlike on this 
science group, disagree with me on this. But I think that 
putting too many hatchery fish in certain locations--that is, 
more fish than the environment can take--is a major problem. 
That's what I think.
    The other issue is, I think that the timing of when these 
fish are released and so forth, and probably the actual size of 
the fish. Natural fish just aren't ordinarily as large as these 
hatchery fish. So if a hatchery fish is being released on top 
of a bunch of natural stocks that are half the size, they 
simply get out-competed for food, and if there's too much 
difference, there is even predation and that sort of thing.
    But I guess I would have a hard time trying to decide which 
is the more important. And, in fact, I think part of the 
problem is that our science hasn't been that good. We didn't 
learn those things.
    Mr. Koenings. I think too, just a comment you might find 
that it's on a case-by-case basis. There isn't one factor or a 
combination of factors that's unique. It has to be determined 
on a case-by-case basis. And that's one reason why we're 
looking at this scientific review group to give us sort of the 
risk and benefit guidelines by which we can make those 
judgments. That's the importance of this group.
    Mr. Inslee. We talked a little bit about the potential of 
doing the harvest at the, terminus, if you will, closer to the 
hatchery.
    Billy, has there ever been a case where any of the tribes 
have agreed to do that? In other words, at least on a temporary 
basis not fish in their usual and accustomed geographic area, 
but, in fact, accept a terminus location of harvest? Has that 
ever happened?
    Mr. Frank. The tribes right now are down to about 90 
percent of no harvest, and most all of the harvest right now is 
pulled into the terminal area and fishing directly on hatchery 
stock.
    In the past, the hatcheries were not build on watersheds; 
they were build little creeks over here on each side of the 
watershed or something. And that's a problem. But if there's a 
hatchery there an there's a bay there, that's a terminal 
fishery, and it's going on right here, so that they're taking 
that harvest of hatchery stock, and they manage it that way, 
along with the State of Washington.
    But if we had this hearing 10 years ago, or 20, or 30, or 
100 years ago, we wouldn't be talking like this. Things were 
bad.
    Now things--when I say lining up better, this hatchery 
reform, and at least the public hopefully will understand 
better what the manager and the scientific team are looking at. 
And they're looking at everything that you just laid out, 
Congressman. You know, when do we release the salmon? Is there 
a good time to release them? How big do they get? Do we feed 
them to what size so they won't outbid for the food?
    All of these things are being looked at, and they're very 
important to the watershed, to bringing the recovery of the 
wildstock back as well as how do they work together when 
they're on a watershed, and they're all released from a creek 
or whatever it might be.
    Mr. Inslee. Thank you. Thank you, Senator.
    Mr. Dicks. Tell us how--and I know Long Live the Kings have 
worked on this--you've used hatcheries and supplementation to 
restore wild runs? How do you do that?
    Mr. Koenings. I'll take a first crack at it.
    If there's a wildstock run that is particularly bad shape--
and we have some of those in the State, obviously, one way we 
can use hatcheries is to do the normal increase in survival 
during the freshwater phase, increase it by putting what stock 
does come back into hatcheries----
    Mr. Dicks. Wildfish. You take the wildfish and put them 
back in the hatchery.
    Mr. Koenings [continuing]. Wildfish, put them back, no 
broodstock capture. But you take the broodstock as it comes 
back to the wild, and that's where you have your egg-take, put 
them in the facility where the survivorship goes up 9-fold, 10-
fold from what it is in the natural environment, especially in 
our sick environments we have--put those fish in the hatchery 
to increase their survivorship, have them go to sea and 
complete their life's cycle. But you've increased the number of 
successful migrants out of the freshwater phase by 10-fold by 
using the hatcheries.
    And the hope is, by over a period of time, you will have 
enough fish coming back from the process that they will 
naturally spawn and keep the run going, and you can end the 
supplementation. So that's the way supplementation is 
envisioned to work. There is an end product by which you've 
increased the size of the natural run to the point it can carry 
itself through natural spawning.
    Mr. Dicks. Are we doing enough of that? Is there the 
financing to do the amount of that that's possible? Can you 
tell us about that?
    Mr. Koenings. Well, do have some of those programs going 
on. Right now, I think they've been used to basically 
supplement some of really the weakest and the most dire need of 
help, if you will. And that's one of the things that this 
Hatchery Scientific Review Group is looking at, is giving us a 
risk-benefit analysis, if you will, of expanding that type of 
program into other runs--is the risk worth the benefit or not? 
And, yes, that's one of the questions that's going on right 
now.
    Mr. Frank. Congressman Norm, what we're doing is we're 
taking our own stock at Nisqualle, and we're introducing them 
back into the upper watershed, into the cold water--chinook, 
salmon. And they're bypassing the hatchery on the 8 miles of 
the river, and they're going on up into the 40 mile. And 
they'll never come back to that hatchery. They'll just migrate 
back out to sea and will rebuild that stock up there, 40 miles 
up.
    And 40 miles is where the first dam is on Nisqualle. I 
mean, there's all kinds of problems along the watershed, so we 
have to look at this as a watershed management, and that's what 
is happening right now, and how many can we put into that 
particular river that's 40 miles up and all of these things?
    Mr. Dicks. Carrying capacity?
    Mr. Frank. Yes. The city of Eatonville is up there, and 
what are we doing. But we're working with the city of 
Eatonville, we're working with Yelm, we're working with the 
whole watershed to let them know what is going on on the 
watershed now.
    Mr. Waldo. I think part of what the repositioning--sort of 
a strategic plan on repositioning is designed to answer that 
type of question.
    Let me give you two examples, one of which I think, 
Senator, you're going to see over the weekend out in the Hamma 
Hamma. But it's a combination of both work on the habitat and 
they had some tributaries to the canal where literally the 
species were gone. So they went to the next tributary over 
where they still had some, and they very carefully decided on a 
reintroduction program. And they raised then so that the fish 
are reared in a sort of semi-natural state. They decide when to 
go back into the river on their own.
    It's quite a bit different. I mean, it doesn't look at 
all--when you say a hatchery, this is not what you would 
envision as a hatchery program, but it is, in fact, artificial 
production for targeted purpose combined with changes in the 
habitat.
    Another example, the Tualips have got a program in the 
Stilliguamish. That river has been severely damaged because of 
a lot of landslide activity, mass failure. It used to be one of 
the best sports fishing rivers in the State, and now a couple 
species are about to go extinct.
    Well, they want to go in and capture that genetic stock, 
and then figure out how you start helping the river heal itself 
to a point where it can sustain those stocks again and then 
reintroduce them. Because it's not a permanent condition. The 
river doesn't always have to be in that shape, but you would 
like to be make sure that the stocks that have survived it over 
thousands of years are still around when that healing is 
occurred. That's a different use of a hatchery than we would 
have thought of 10 years ago, a different combination of 
factors.
    So when we talk about repositioning, it's not just do you 
reshape the concrete or you just kind of a little bigger or a 
little smaller; it's, we're going to try and accomplish some 
very different things here, I think.
    Mr. Dicks. Thank you very much.
    Senator Gorton. Thank you. Each and every one of you has 
made a major contribution and has been most enlightening. And 
we greatly appreciate not just your efforts here but your 
continued efforts.

STATEMENT OF DANIEL DIGGS, ASSISTANT REGIONAL DIRECTOR 
            FOR FISHERIES, PACIFIC REGION, U.S FISH AND 
            WILDLIFE SERVICE, DEPARTMENT OF THE 
            INTERIOR

    Senator Gorton. And the fourth panel will deal with natural 
factors of salmon decline, research and policy. Will the three 
of you come forward, please?
    Senator Gorton. We'll start Mr. Diggs with you.
    Mr. Diggs. Thank you. Senator Gorton, Congressman Dicks, 
Congressman Inslee, it's really a pleasure to be here today on 
this panel. I would have loved to sit in on all these panels 
and provide some input. And perhaps on the next panel in which 
I sit I can add to those discussions we've already heard. But, 
of course, this panel is addressing one of the issues in regard 
to salmon recovery and restoration in the Northwest, and that's 
the issue of natural decline.
    And as I understand, you particularly wanted to hear from 
the Fish and Wildlife Service today in regards to the tern 
issue and the salmon predation issue in the Columbia River. So 
my comments will be rather brief in those regards on that 
specific subject of interest.
    Mr. Chairman, I am honored to be here today and grateful to 
you for your efforts to bring focus to the issues surrounding 
salmonid restoration in the Northwest. I am Daniel Diggs, the 
assistant regional director for Fisheries for the Pacific 
Region out of Portland, OR. And I am providing testimony on 
behalf of the U.S. Fish and Wildlife Service today.
    We appreciate this opportunity to add to the discussion on 
salmon recovery and hope that today's hearing can help people 
of differing perspectives work toward a common concern for 
salmon and their habitats.
    This issue has fostered an interagency effort within the 
Department of Interior and other Federal agencies. And as you 
know, Dr. Daniel Roby, the assistant unit leader of the Oregon 
Cooperative Fish and Wildlife Unit, testified 2 days ago on 
this very subject before the Senate Energy and Natural 
Resources Subcommittee on Water and Power.
    So I will offer brief remarks on issues that I know are of 
specific concern to you, and then be happy to answer any 
questions that you may have or provide any additional 
information you may need.
    I understand you're interested in hearing more in 
particular about the seabird, particularly, the Caspian tern 
predation and its impact on salmon restoration in the Columbia 
River Basin.
    The Service provides technical assistance on the Migratory 
Bird Treaty Act issues, and also serves in the advisory role on 
the seabird predation group through the Caspian Tern Working 
Group.
    Now, Caspian terns are colonial nesting species that are 
native to the Columbia River and the Northwest. The terns first 
nested in the Columbia River estuary in significant numbers 
around 1984, when about 1,000 pairs were documented at the East 
Sand Island.
    By 1996, this colony had moved to Rice Island, a bit 
farther up the river, which is a Corps of Engineers dredged 
disposal island, and it increased roughly to 8,000 pairs. Now 
Rice Island is one of only two known colonies along the Oregon 
and Washington coasts, and support about 10,000 pairs of 
Caspian terns.
    As discussed by Dr. Roby, the United States Geological 
Survey in 1998, research has indicated that Caspian terns 
nesting on Rice Island consume between 7 and 15 million smolts. 
This consumption represents roughly 6 percent of the total 
number of smolts produced basin wide, 80 to 90 percent of which 
are hatchery-produced smolts. Losses of wild chinook salmon 
smolts were estimated to be less than 1 percent. So the primary 
consumption appeared to be on hatchery fish.
    Declines in salmon populations occurred----
    Senator Gorton. On that point, because that's unclear here.
    You said the loss of chinook salmon. Are you saying wild 
chinook salmon or are these hatchery chinook salmon?
    Mr. Diggs. I believe this is a reference to wild chinook 
salmon at this point.
    Declines in salmon populations occurred prior to the 
development of Columbia River estuary tern colonies, as we all 
know them. And despite avian predation, returns of hatchery-
reared chinook have been the highest on record over the last 10 
years. However, in an effort to provide some short-term 
recovery benefit by reducing predation, the Caspian Tern 
Working Group developed a strategy to translocate the terns 
nesting on Rice Island to an island near the mouth of the 
estuary known as East Sand Island.
    Caspian terns feed on a wide variety of fishes. 
Specifically which fish depends upon their availability. So 
that is, in part, the rationale behind encouraging a shift in 
tern nesting from Rice Island back to East Sand Island, where 
they nested in the mid 1980s.
    By moving the birds closer to the mouth of the estuary, 
there will be a greater mix of fish available to the terns, 
thus reducing the proportion of their diet that is made up of 
salmon smolts.
    In 1999, 1,400 pairs of Caspian terns were successfully 
encouraged to relocate to East Sand Island. These birds had 
about 40 percent less salmonids in their diet compared to birds 
nesting on Rice Island. And our goal with the 2000 relocation 
effort is to see this 40 percent reduction realized for all 
outmigrating salmonid smolts, which should result in saving 
approximately 3 to 6 million smolts.
    The Service recognizes that this effort to reduce predation 
may be a short-term recovery effort until more substantial 
efforts to begin restoring salmon populations begin taking 
effect in the basin. And the Service believes that Caspian tern 
predation on salmon smolts, although it may not rise to the 
same level as other causes to recovery, is nonetheless an issue 
that we are addressing over the short-term with the other 
Federal agencies involved.
    The Service supports a step-by-step science-based approach 
to managing fish-eating birds. A comprehensive assessment is 
needed to address all the factors that influence salmon 
recovery to enable managers to focus efforts on actions that 
will be the most significant benefit for salmon restoration. We 
must keep in mind, for example, that tern predation, much like 
salmon and steelhead trout declines, is at its base a habitat 
issue.
    In that light, Mr. Chairman, I want to take advantage of 
this opportunity to thank you for the support that you've 
provided to salmonid ecosystem restoration in the Northwest. 
We've heard much about that today from the various panels. We 
would really like to thank you for your continued support for 
the Service's efforts in our nation's Fish Passage Program, and 
this has been a direct benefit to the State of Washington 
already, with funding work on the Tahuya River and on the west 
side of the Cascade Mountains and Icicle Creek and the upper 
mid Columbia drainage.
    We also would like to recognize the other Service programs, 
such as what is termed the 100th Meridian Initiative, which is 
addressing another serious concern throughout the west, the 
invasion of aquatic nuisance species, such as mitten crab and 
zebra mussels. All of these programs, the continued work on the 
Chehalis River restoration project, Jobs-in-the-Woods, Partners 
for Fish and Wildlife, are needed for the restoration of 
salmon, bull trout and other native species. And so we would 
like to recognize all of you today for the support you 
contribute to restoration in those ways.
    I'd also like to really personally thank you, as the 
assistant regional director for Fisheries, for your role in 
supporting the use of hatcheries for native fish restoration 
and your tireless efforts in helping implement hatchery reform 
throughout the west, in the Columbia River Basin and here in 
Washington State.
    I think, as you know, the Service has taken to heart the 
message from Congress to refocus our hatchery programs to 
implement hatchery reform and to support the recovery and 
restoration in the Northwest, while we continue to meet our 
Federal mitigation and trust responsibilities.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my prepared remarks, and 
again, I thank you for the opportunity to participate here in 
this discussion. It's such a critical discussion that we need 
to keep going in the Northwest. And I would be glad to answer 
any questions that you might have.
    [The statement follows:]

                   Prepared Statement of Daniel Diggs

    Mr. Chairman, I am honored to be here today and grateful to you for 
your efforts to bring focus to the issues surrounding salmonid 
restoration in the Northwest. I am Daniel Diggs, the Assistant Regional 
Director for Fisheries, and will provide testimony on behalf of the 
U.S. Fish and Wildlife Service (Service).
    We appreciate this opportunity to contribute to the discussion on 
salmon recovery and hope that today's hearing can help people of 
differing perspectives work toward a common concern for salmon and 
their habitats. This issue has fostered an interagency effort within 
the Department of the Interior. As you may know, Dr. Daniel Roby, 
Assistant Unit Leader of the Oregon Cooperative Fish and Wildlife Unit 
of the U.S. Geological Survey, testified 2 days ago on this very 
subject before the Senate Energy and Natural Resources, Subcommittee on 
Water and Power. I will offer brief remarks on issues that I know are 
of specific concern to you and then will be happy to answer any 
questions you may have or provide any additional information you may 
need.
    I understand you are interested in hearing more about seabird, 
particularly Caspian tern, predation and its impact on salmon 
restoration. The Service provides technical assistance on Migratory 
Bird Treaty Act issues and also serves in an advisory role on seabird 
predation through the Caspian Tern Working Group.
    Caspian terns are a colonial nesting species native to the Columbia 
River and the Northwest. The terns first nested in the Columbia River 
estuary in significant numbers around 1984 when about 1,000 pairs were 
documented at East Sand Island. By 1996, this colony had moved to Rice 
Island, a Corps of Engineers dredge disposal island, and increased to 
roughly 8,000 pairs. Now Rice Island is one of only two known colonies 
along the coast of Oregon and Washington and supports about 10,000 
pairs of Caspian terns.
    As discussed by Dr. Daniel Roby of the U.S. Geological Survey, in 
1998, research indicated that Caspian terns nesting on Rice Island 
consumed between 7 and 15 million smolts. This total consumption 
represents roughly 6 percent of the total number of smolts produced 
basin-wide, 80-90 percent of which are hatchery-produced. Losses of 
chinook salmon smolts are estimated to be less than 1 percent.
    Declines in salmon populations occurred prior to the development of 
Columbia River estuary tern colonies. And despite avian predation, 
returns of hatchery reared chinook have been the highest on record over 
the last 10 years. However, in an effort to provide some short-term 
recovery benefit by reducing predation, the Caspian Tern Working Group 
developed a strategy to translocate the terns nesting on Rice Island to 
an island near the mouth of the estuary, known as East Sand Island.
    Caspian terns feed on a wide variety of fishes--specifically which 
fishes depends upon their availability. That is in part the rationale 
behind encouraging a shift in tern nesting from Rice Island back to 
East Sand Island where they nested in the Mid 1980's. By moving the 
birds closer to the mouth of the estuary, there will be a greater mix 
of fish available to the terns, thus reducing the proportion of their 
diet that is made up of salmon smolts. In 1999, 1,400 pairs of Caspian 
terns were successfully encouraged to relocate to East Sand Island. 
These birds had about 40 percent less salmonids in their diet compared 
to birds nesting on Rice Island. Our goal with the fiscal year 2000 
relocation effort is to see this 40 percent reduction realized for all 
outmigrating salmonid smolts, which should result in saving 
approximately 3 to 6 million smolts.
    The Service recognizes that this effort to reduce predation may 
provide a short-term recovery benefit until more substantial efforts 
begin to restore salmon populations. However, the Service believes that 
Caspian tern predation on salmon smolts does not rise to the level of 
other causes of salmon mortality. The Service supports a step-by-step, 
science-based approach to managing fish-eating birds. A comprehensive 
assessment is needed to address all the factors that influence salmon 
recovery to enable managers to focus efforts on actions that will have 
the most significant benefit for salmon restoration. We must keep in 
mind, for example, that tern predation, much like salmon and trout 
decline, is at its base a habitat issue.
    In that light, I want to also take advantage of this opportunity to 
thank you, Mr. Chairman, for the support you have provided to salmonid 
ecosystem restoration in the Northwest. We also thank you for your 
continued support for other Service efforts such as our nation-wide 
fish passage program (of direct benefit to the State of Washington 
already, with funding for work on Tahuya River on the west-side and 
Icicle Creek on the east-side), and other specific Service programs 
such as the 100th Meridian Initiative (and other invasive species 
projects), Chehalis River Restoration Project, Jobs-in-the-Woods, and 
Partners for Fish and Wildlife. All of these programs, and so much 
more, are needed for the restoration of salmon, bull trout, and other 
native species.
    I also want to personally thank you, in my capacity as Assistant 
Regional Director for Fisheries, for your role in supporting the use of 
hatcheries for native fish restoration. The Service, as you are aware, 
has taken to heart the message from Congress to refocus our hatchery 
program to support the recovery and restoration of declining native 
salmonid stocks in the Northwest, while continuing to meet our Federal 
mitigation and trust responsibilities.
    Mr. Chairman, this concludes my prepared remarks, Again I thank you 
for the opportunity to participate in this discussion, which is so 
critical to the Northwest. I will be happy to answer any questions you 
may have.

STATEMENT OF FRANK L. CASSIDY, JR., CHAIRMAN, NORTHWEST 
            POWER PLANNING COUNCIL

    Senator Gorton. Mr. Cassidy.
    Mr. Cassidy. Thank you, Senator Gorton, Congressman Dicks, 
Congressman Inslee. How are you today?
    I appreciate this opportunity. I am Larry Cassidy, chairman 
of the Northwest Power Planning Council, and also Governor 
Locke's appointee to the Salmon Recovery Funding Board.
    As you well know, the Northwest Power Planning Council is 
an interstate compact made up of four States, two members from 
each State. And we have the responsibility, in fact, the sole 
responsibility in the Northwest, to mediate and work on the 
reliable source of energy we have in the Columbia-Snake Basin 
and also mitigate the fish and wildlife losses related to that 
hydro system and funded by Bonneville ratepayer money.
    There are several things going on in the Power Council now, 
which I will take a moment to talk about, and then I'll get 
into some of the issues that my colleague also addressed.
    When Governor Locke asked me to leave business and go to 
the Northwest Power Planning Council, he said to me, ``Don't go 
down there and scratch your nose; go see what's going on with 
all that money.'' And I have, and my counterpart, Tom Karier, 
from Spokane and I, as well as the other members of the present 
power council from the other States, have taken a very 
different approach with to regard to how the monies that are 
expended for fish and wildlife mitigation are used.
    An example might be that we took the 1997 Gorton Amendment 
in creating the Independent Science Review Panel seriously, and 
we have begun to make every project that we review go through 
that review process at the Independent Science Review Panel, 
not to be confused with the earlier science review panel that 
is working on other issues inside Washington State.
    An example of the results of that is, for the first time in 
knowledgeable history we reduced a hatchery proposal from $37 
million to $8 million with an axiom, that, you show us some 
results, then we'll talk about more dough.
    So I think there's a very significant business-like 
approach occurring in the Northwest Power Planning Council, and 
I think you'd all be pleased with that, and we thank you for 
your leadership in that regard.
    One of the other things we're working on is the multi-
species framework, which is a series of studies and tests that 
have come out now with various alternatives for the Columbia-
Snake system, and this document is sort of a primer on that, 
and I'll leave it for you. But it talks about seven 
alternatives with regard to changes that can occur on the 
Columbia-Snake Basin, including four alternatives that deal 
with breaching and what happens to them.
    Our goal was to take the emotion out of this issue and try 
to logically say what's going to happen if you breach, if you 
don't breach, what can you do if you don't breach, et cetera. 
And I think it's a significant achievement, and it's beginning 
to bear some fruit.
    The other thing we've worked on is an artificial production 
review (APR) which was mandated by Congress for us to 
undertake. We spent 2 years reviewing the hatcheries on the 
Columbia-Snake system. Here again, it should not be confused 
with the other artificial production reviews that have gone on, 
although we have shared that document with the other working 
people inside Washington State.
    I'm not going to spend a lot of time on the APR review, 
except that we came to somewhat similar conclusions as what 
I've heard on the earlier panels. There are only two statistics 
I would have brought out--there are over 120 artificial 
production facilities in the Columbia-Snake Basin. If planting 
fish were the answer, we wouldn't have a salmon problem.
    I listened to a Canadian speaker about 2 months ago, and he 
brought to our attention the fact that in the North Pacific, 
including Alaska, British Columbia, Oregon, Washington and 
Idaho, we planted 5 billion fish, artificially produced fish, 
in 1999. So again, if planting fish were the answer or spending 
money were the answer, we wouldn't be here today with this 
problem.
    Certainly they're a key component, and we at the Power 
Council understand that. We worked on a memorandum of 
understanding with Bonneville with regard to our annual amounts 
of expenditures for fish and wildlife mitigation, and we live 
up to that. But for the first time in a long time there's a 
very serious attitude about how that money is spent. Is it 
science-backed, is it going to be used on the ground, and is it 
going to make things better, hopefully, for the habitat and 
salmon in general?
    Every now and then you run into disappointments, and one of 
those is what the former speaker addressed.
    I spent, as chairman, as well as the other members of our 
council, 18 months working out an agreement on the Caspian tern 
relocation issue, to move them from Rice Island--which is 
probably of all the points in Columbia the worst possible point 
for the terns to nest because they are right where the 
freshwater and saltwater block meet. As you know, fish tend to 
avoid that salt water confrontation on their outbound 
migration, and they're more easily preyed on as they come to 
the surface to stay in freshwater as long as they can.
    Relocating them to East Sand Island was a mediated effort 
that took some number of months to come to agreement on. Our 
Power Council held up a $760,000 appropriation for the Tern 
Working Group until they came up with a working plan that was 
satisfactory to us.
    We finally achieved that, and we all signed off. And to be 
sued, as we have been, is a major disappointment for our 
council and for the States of Oregon and Washington. I will 
tell you that I'm recommending to our Governor's office today 
that we join the Corps of Engineers as an amicus--the State of 
Washington, that is--to avoid the fact that we have to file an 
EIS so we can proceed with this plan for this year<plus-minus>.
    As I said, this is a major disappointment for us, and I 
don't want to lose another season. I do not by any sense of the 
word imply that the Caspian tern population is the sole reason 
for our salmon decline. But if you look at this situation, 
we're expending huge amounts of public money to produce fish, 
some artificially produced, some wild by what we do in the 
protection of the pristine area.
    Senator Gorton. Spilling water.
    Mr. Cassidy. Sorry?
    Senator Gorton. Spilling water as well.
    Mr. Cassidy. Also true, and which is a loss of power.
    We also claim--and I feel comfortable, and this is a good 
statistic--that we are getting better escapement today of the 
downstream migrants than in the 1960s before they built dams, 
all through the tweaks we've done on the system for channel 
diverters and screening and other efforts that we've done to 
get these little devils down to the mouth to the river.
    To then let this huge predation go on, whether they're 
hatchery or wildfish, doesn't make sense to me.
    Senator Gorton. From essentially artificial birds, in the 
sense of their----
    Mr. Cassidy. Well, there are strong proponents for the 
terns, and I respect those people. I've been down on the 
island. I sort of like the birds. They're actually sort of cute 
to be honest with you. I'm sort of sorry I went down there, to 
tell you the truth.
    Mr. Dicks. It's just unfortunate the Corps of Engineers 
built this island where they did.
    Mr. Cassidy. Well, I don't know if I can address that or 
not. The dredging of the Columbia is the key component to our 
economic structure, and it has to be done. So it's a constant 
ongoing process.
    I think if you want to address the real unfortunate thing 
is that they didn't vegetate the island from day one. And 
that's what we've been sort of getting the Corps to try to 
commit to. If they'll vegetate their spoil sites, you reduce 
the tern nesting potential because they will not nest on areas 
that have vegetation.
    But as I say, to get back to my point about the Caspian 
terns, this was not a permit to reduce the population. I mean, 
there's a precedent with cow preying and bears scratching trees 
and other things in our State where we do undertake that. This 
was an effort to work out a resolution that would relocate the 
terns to reduce their diet from 90 percent salmonids to 40 
percent salmonids. It's a reasonable conclusion. And then to 
end up being sued as we are is a very major disappointment.
    And, in fact, we had agreement with the Audubon groups in 
Portland and Vancouver which are geographically close to the 
area. Now I'm very disappointed that this turned out the way it 
is. I just don't want to lose another season or two.
    In any event, I do think things are in good shape at the 
Northwest Power Planning Council. We do recognize the reliable 
source of electrical power we have in our Northwest is vital to 
us. It needs to be protected. I believe sometimes we take it 
for granted, and we can't do that.

                           PREPARED STATEMENT

    So I'm working this out so that we do remain strong in the 
power generation areas and still have strong fish runs, which 
is the real goal for the Power Council, and I feel good we're 
headed in a good direction.
    I appreciate the opportunity to talk before you, and I'm 
willing to answer any questions.
    [The statement follows:]
              Prepared Statement of Frank L. Cassidy, Jr.
    Thank you, Mr. Chairman, for the opportunity to testify today on 
behalf of the Northwest Power Planning Council and our Columbia River 
Basin Fish and Wildlife Program.
    As you know, the Council is an agency of the four Northwest states 
of Washington, Oregon, Idaho and Montana. The Council was authorized by 
Congress in 1980 through the Pacific Northwest Electric Power Planning 
and Conservation Act (the Power Act), and created by the legislatures 
of the four states in 1981. The Council is the only regional agency 
charged with balancing fish and wildlife mitigation in the Columbia 
River Basin with a reliable, affordable power supply. The Council's 
three principle responsibilities are:
    1. To develop a regional power plant to assure the Northwest an 
adequate, efficient, economical and reliable power supply;
    2. To develop a fish and wildlife program as part of the power plan 
to protect, mitigate and enhance fish and wildlife affected by 
hydroelectric development in the Columbia River Basin; and
    3. To provide for broad public participation in these processes and 
inform the Northwest public about regional energy issues.
    There are eight Council members, two from each state, who are 
appointed by the governors. I am one of Washington's members, and also 
the Council chair for 2000. The other Washington member is Tom Karier 
of Spokane.
    I am pleased that you are addressing salmon and steelhead recovery 
issues through this hearing, and I am grateful for the opportunity to 
briefly discuss the Council's efforts in mitigating the impact of 
hydropower dams in the Columbia River Basin. Each year, the Council 
directs the expenditure of a substantial amount of Bonneville Power 
Administration electricity revenues to implement our fish and wildlife 
program. For fiscal year 2000, the Council's program budget is 
approximately $130 million. These expenditures are directed at 
improving survival at all life-cycle stages for anadromous and resident 
fish, and also to replace wildlife habitat affected by the dams. I 
believe the Council's efforts offer a model for others to emulate, 
particularly Federal agencies implementing the Endangered Species Act.
    Specifically today, I would like to highlight the Council's use of 
independent scientific review in the annual project selection process, 
the Council's recommendations regarding the future use of fish 
hatcheries, the Council's consideration of ocean conditions in our 
annual project-funding recommendations to Bonneville, and the Council's 
response to the impact of predation by Caspian terns on salmon and 
steelhead smolts in the Columbia River estuary.

                     INDEPENDENT SCIENTIFIC REVIEW

    Due to Senator Gorton's leadership, in 1996 Congress amended the 
Northwest Power Act by directing the Council to create the Independent 
Scientific Review Panel. The purpose of the amendment was to provide a 
higher level of scrutiny of Bonneville's annual direct expenditures on 
fish and wildlife projects in the Columbia Basin. The result, we 
believe, after nearly 3 years of implementation, is improved 
credibility and public accountability.
    The 1996 amendment directed the science panel to make 
recommendations to the Council on project priorities within the 
Council's Columbia River Basin Fish and Wildlife Program, and to review 
project proposals for their scientific merit. For fiscal year 2000, the 
Panel reviewed 397 project proposals. It is worth noting that this 
year, as for fiscal year 1999, the Review Panel found about 40 percent 
of the project proposals to be either inadequate for scientific review 
or not supported by sound science. Ultimately, many of these projects 
were revised by their proponents and approved by the Review Panel. Two 
years ago, a provision that Senator Gorton sponsored in the fiscal year 
1999 Energy and Water Development Appropriations Conference Report 
expanded the scope of the Independent Scientific Review Panel's work to 
include the fish and wildlife projects reimbursed to the United States 
Treasury by Bonneville. Through these efforts, and the subsequent work 
of the Review Panel, electricity customers who pay for the Council's 
fish and wildlife program can be assured that their money is being 
spent in the most efficient, scientifically credible way possible.

                    REVIEW OF ARTIFICIAL PRODUCTION

    Independent scientific review also made an important contribution 
to the Council's recommendations to Congress last year for new policies 
to guide the future use of artificial production of fish in the 
Columbia River Basin. In July 1997, through another provision sponsored 
by Senator Gorton, Congress directed the Council, with the assistance 
of the Independent Scientific Advisory Board (ISAB), to conduct a 
thorough review of all federally funded artificial production programs 
in the Columbia River. The ISAB is a panel of 11 scientists who advise 
both the Council and the National Marine Fisheries Service on 
scientific issues related to fish and wildlife. Congress directed the 
Council to recommend a coordinated policy for future operation of 
artificial production programs and to provide recommendations for how 
to obtain such a policy.
    Artificial production of fish has been used in the Columbia River 
Basin for many purposes during this century. Most of the artificial 
production programs in the basin are financed with Federal money, 
Hatchery programs have produced both resident fish (those that do not 
migrate to the ocean, such as bull trout and rainbow trout) and 
anadromous (ocean-going) fish, especially chinook and coho salmon, and 
steelhead. These species have also been the focus of tribal, sport and 
commercial fisheries management in the basin. There are more than 150 
hatcheries and associated facilities for anadromous and resident fish 
in the basin. Federal and State agencies, Indian tribes and private 
interests operate them. Many are intended to mitigate the impact of 
dams, which have blocked access to about one-third of the salmon and 
steelhead habitat that existed historically in the Columbia Basin. Dams 
also affect resident fish by blocking historic freshwater migration 
routes, inundating spawning areas and altering the ecosystem.
    Fish hatcheries play a unique role in the Columbia Basin. They have 
been identified as one of the causes of the current declines, 
particularly for salmon, because the volume of fish production prompted 
long fishing seasons, which in turn caused overfishing of the less-
numerous naturally spawning runs. At the same time, hatcheries also are 
considered part of the solution to the declines, as they are capable of 
producing fish for release into rivers and streams to rebuild naturally 
spawning runs.
    The dilemma identified by Congress and addressed by the Council and 
the ISAB is that the purpose of many artificial production programs 
currently is unclear. While many artificial production facilities were 
built to mitigate the impact of dams or to produce fish for harvest, 
their role today is less certain. There also is concern about adverse 
impacts of artificially produced fish on fish that spawn naturally. As 
declines continued, fisheries scientists increasingly recognized that 
traditional fish hatchery practices should be changed. Producing fish 
for harvest remains a legitimate use for artificial production 
programs, but scientists are identifying and articulating a role for 
artificially produced fish as functioning components of ecosystems. 
Artificial production programs might be used to rebuild populations of 
fish that spawn naturally and also provide fish for tribal, sport and 
commercial harvest. In doing so, however, they should minimize the 
adverse impacts from interactions between artificially produced fish 
and those that spawn naturally. Interactions can adversely impact the 
unique genetics of fish that spawn naturally and, over time, dilute or 
weaken the unique genetic makeup of those populations.
    The Council and the ISAB submitted their report to Congress in 
October 1999. The report was developed in conjunction with a committee 
of fish production experts representing Indian tribes, State and 
Federal fish and wildlife agencies and environmental groups. The report 
includes six recommendations for implementing new artificial production 
policies:
    1. Tribal, state and Federal agencies should evaluate the purposes 
for each artificial production facility and program in the basin within 
3 years.
    2. Program managers should evaluate and improve the operation of 
artificial production programs that have agreed-upon purposes, 
consistent with the proposed policies in this report.
    3. Program managers should use existing processes to implement 
artificial production reforms. Examples of existing processes include 
the annual Federal agency and Northwest Power Planning Council funding 
processes, Endangered Species Act implementation and the Council's 
periodic revisions of its Columbia River Basin Fish and Wildlife 
Program.
    4. Congress and the Bonneville Power Administration need to ensure 
that money to implement the reforms is available.
    5. The Council should assist in the formation of an interagency 
team to oversee and evaluate the reforms.
    6. The Council, other regional decision-makers and Congress should 
assess the success of the recommended reforms after five years.
    Artificial production is only one of many tools for meeting fish 
recovery objectives. Its effectiveness must be evaluated as objectives 
evolve so that it is consistent with an ecologically based scientific 
foundation for fish recovery. Accordingly, the report also recommends 
10 policies to guide artificial production in the future:
    1. The purpose and use of artificial production must be considered 
in the context of the environment in which it is used.
    2. Artificial production remains experimental. Adaptive management 
practices that evaluate benefits and address scientific uncertainties 
are critical.
    3. Artificial production programs must recognize the regional and 
global environmental factors that constrain fish survival.
    4. Species diversity must be maintained to sustain populations in 
the face of environmental variation.
    5. Naturally spawning populations should be the model for 
artificially reared populations.
    6. Fish managers must specify the purpose of each artificial 
production program in the basin.
    7. Decisions about artificial production must be based on fish and 
wildlife goals, objectives and strategies at the subbasin and basin 
levels.
    8. Because artificial production poses risks, risk management 
strategies must be implemented.
    9. Production for harvest is a legitimate management objective of 
artificial production. But to minimize adverse impacts on naturally 
spawning populations, harvest rates and practices must be dictated by 
the need to sustain naturally spawning populations.
    10. Federal and other legal mandates and obligations for fish 
protection, mitigation, and enhancement must be fully addressed.
    For fiscal year 2001, the Council is seeking $1 million for new 
line items in the budgets of the National Marine Fisheries Service and 
the U.S. Fish and Wildlife Service that would be entitled ``Artificial 
Production Review Implementation, Columbia River.'' The funds would be 
used for the completion of Hatchery Genetic Management Plans, and 
monitoring and evaluation activities, consistent with the 
recommendations included in the Council's report.

                       IMPACT OF OCEAN CONDITIONS

    In addition to directing the Council to form the Independent 
Scientific Review Panel, Senator Gorton's 1996 amendment to the Power 
Act also directed the Council to account for conditions in the Pacific 
Ocean, where salmon and steelhead spend their adult lives, in making 
its annual project-funding recommendations to Bonneville. This 
direction responds to current scientific thinking that fish and 
wildlife mitigation and recovery efforts should consider the entire 
life cycle of the species. In the case of migratory fish like salmon 
and steelhead, that life cycle by definition includes the Pacific 
Ocean. By reviewing the broader scope of impacts within the salmon and 
steelhead life cycle, regional decision-makers like the Council members 
are increasingly aware of scientific complexities and uncertainties 
and, therefore, are able to make better-informed decisions.
    Perhaps no segment of the salmon and steelhead life cycle is as 
little understood as that which occurs in the ocean, yet the body of 
scientific knowledge is steadily increasing. To address the state of 
scientific knowledge and improve our understanding of the salmon and 
steelhead life cycle, the Council sponsored a symposium on ocean 
conditions and management of Columbia River salmon in July 1999. 
Consistent with the presentations at the symposium and Congressional 
direction in the amended Power Act, the Council has adopted two 
concepts to guide its annual decision-making: first, that the Columbia 
River estuary and the near-ocean plume are important ecological 
environments for salmon; and second, that it is necessary to modify and 
adjust salmon and steelhead management in the freshwater stages of 
their life cycles in response to changing conditions in the ocean.
    Through our fish and wildlife program, the Council is helping to 
shape the growing body of concepts concerning ocean variability and its 
effects on salmon and steelhead. For fiscal year 2000, the Council 
directed $5.094 million in funding to projects intended, among other 
things, to reduce predation on juvenile salmon and steelhead in the 
estuary, better understand the ecology of the estuary and near-shore 
plume environment, limit the effects of disease in the estuary and 
study the survival of juvenile fish in that environment.
    The Council also is following with interest the continuing 
scientific research on impacts of the ocean environment on fish from 
the Columbia Basin. For example, we are intrigued by presentations from 
Dr. David Welch, a Canadian researcher whose work in the ocean off 
Vancouver Island and in the Gulf of Alaska suggests clear patterns of 
abundance and decline of salmon and steelhead from the Columbia River 
and British Columbia. Dr. Welch believes these shifts may be related to 
patterns of food availability, which may themselves be related to 
shifts in the ocean climate caused by global warming.
    The clear message from this research is that while the ocean 
environment is a key factor in salmon and steelhead survival, and while 
its magnitude may be substantial, there is still a lot we don't know. 
Research needs to continue so that decision-makers will be able to 
structure management of salmon and steelhead in freshwater to permit 
their continued persistence across the full range of ocean conditions.

                       PREDATION BY CASPIAN TERNS

    As I mentioned, Mr. Chairman, one of the projects we are funding 
through our fish and wildlife program addresses predation on juvenile 
salmon and steelhead by Caspian terns in the estuary. Specifically, the 
Council recommended that Bonneville contribute to the project to 
relocate the tern colony on Rice Island away from known concentrations 
of juvenile salmon and steelhead.
    For the last three years, the Council has participated in funding 
the relocation project being undertaken by the Corps of Engineers and 
the National Marine Fisheries Service. In September 1999, concerned 
that the agencies were not moving quickly enough, the Council announced 
it would withhold its share of the funding--$642,000--unless an 
acceptable management plan to address the problem this year were 
completed by November 1999.
    The Council recommended that predation by terns be reduced to less 
than 5 percent of the migrating juvenile salmon and steelhead in the 
estuary. Last year, terns nesting on Rice Island are believed to have 
consumed about 11 percent of the migrating juvenile fish. We were 
concerned then, and we remain concerned today, that predation by terns 
has a severe impact on the fish the public is paying to produce and on 
the naturally spawning fish we are trying to protect. In short, the 
Council acted in defense of the ratepayers' substantial investment in 
mitigating the impact of hydropower. In November, as requested, the 
Federal agencies completed their management plan for 2000, and the 
Council approved its share of the funding. We continue to watch 
developments in the tern relocation project with interest.
    This concludes my testimony. Thank you again, Mr. Chairman, for the 
opportunity to be here today. I would be pleased to answer any 
questions you may have.
STATEMENT OF VICTOR W. KACZYNSKI, SCIENTIST
    Senator Gorton. Dr. Kaczynski.
    Dr. Kaczynski. Thank you, Senator, Congressman.
    My name is Vic Kaczynski, and I reside in St. Helens, OR. 
I'm a practicing fish scientist with 31 years of professional 
experience with salmon issues from Alaska to California.
    I understand the committee is interested in the effects of 
climate and ocean on our salmon. My understanding that the 
relative importance of climate and ocean on salmon has evolved 
from the time that I began work in here in 1969 as relevant 
information became available.
    When I first came to the University of Washington, I was 
struck with a great abundance of food for salmon in our area. 
In my mind at that time, from 1969 to 1972, the ocean appeared 
as an unlimited resource. The California current was strong, 
nutrients were good for phytoplankton growth and primary 
production rates were very high. Zooplankton were abundant and 
Krill were noticeably large and abundant. Krill were, and Krill 
are, an especially good favorite food for juvenile salmon. 
Herring, anchovy, and sandlance were in high abundance.
    If you were a sport fisherman, you would remember the 
baitfish constantly hitting your line. All three of these small 
fish species are favorite food for larger salmon as they 
approach adulthood and start the return journeys back to their 
home rivers. Seabirds were in great abundance. You saw 
individual flocks of murres that numbered in the thousands, and 
salmon were big, and they were abundant.
    In the late 1970 era, something began to happen. It took 
longer to catch unlimited salmon, and some days you couldn't 
catch a limit, and the coho were not as large.
    By the mid 1980 era it became hard to catch unlimited 
salmon. In 1985, I was the senior author of the Klamath River 
Basin Fisheries Research Plan, a project done for the 
Department of the Interior, which evaluated the causes for the 
declines of salmon runs in the Klamath Basin in Northern 
California.
    We recognized at that time that El Nino events occurred in 
1982, 1983 and 1984, and that those events recognizably caused 
declines in ocean salmon catches and escapement runs along the 
entire coast. And we recognized that the basin had suffered 
drought notably in 1977, 1978 and 1981. The 1977 drought year 
was the work on record, but we still concluded--and this was a 
quote directly from our report--the results of the information 
search indicate that the current constraints on anadromous fish 
production in the Klamath Basin involved overfishing and 
habitat loss or degradation. Our report conclusion echoed the 
thinking of salmon biologists at that time.
    Let's skip forward to 1993, when I was the senior author of 
a major report that evaluated the cause for declines in salmon 
that still had abundance in Oregon, and the reasons for the 
lack of recovery. And I was a junior author of a similar report 
in Washington.
    Our conclusion in both of those reports were that multiple 
factors were responsible for the salmon problem. No one factor 
was responsible by itself, and all factors needed to be 
addressed for significant salmon recovery.
    In both of these reports we were able to relate that inland 
climate changes had impacts on the freshwater stages of salmon 
and that ocean-related impacts affected the saltwater stages of 
salmon growth and survival.
    We recognized that natural variability was occurring and 
that they were parts of the problem. However, in both of these 
reports, we tended to focus more on human-caused impacts, such 
as overfishing, dam, flood control, water use and land use. 
With hindsight, in 1993 we still did not appreciate the 
relative importance of climate and oceans and the very 
important and apparent salmon declines.
    After completing those 1993 reports, something really 
nagged me. I wasn't satisfied that we had fully understood the 
problems. In particular, there are obvious patterns with 
southern chinook--that is, all chinook salmon from the Rogue 
River south--compared to northern chinook salmon, all chinook 
salmon north of the Rogue River.
    All the southern chinook populations were declining; the 
northern chinook populations were either growing or holding 
steady. Furthermore, year-to-year differences in abundance were 
well correlated within each group but not from group to group. 
Further, the coastal coho populations were following the same 
trends as the southern chinook populations.
    Some broad geographic factors were affecting Pacific 
Northwest salmon. The effects were major. No land use or water 
use or fishing pressure information could explain these broad 
geographic trends and year-to-year variations in salmon 
abundance. This was a major very important realization for me, 
and these observations are important in understanding our 
Northwest salmon problems.
    I defy any salmon biologist to try to explain these broad 
decade-scale, geographic trends and year-to-year in salmon 
abundance through changes in hydroelectric use, flood control, 
irrigation, farming, logging or fishing pressure. One can only 
explain these decade-scale trends and year-to-year differences 
in abundance to a combination of inland climate and ocean 
productivity.
    This is not to say that human-caused impacts haven't been 
important. They have been important, and human impacts need to 
be addressed. This says that we have grossly undervalued the 
importance of climate and ocean productivity. Their impacts on 
salmon have been grossly ignored. Too many people have blamed 
the salmon declines wholly on human impacts, the 4H's; habitat, 
hydroelectric, hatcheries, and harvest.
    Condition of the California Current is a primary 
productivity constraint for coastal coho and southern chinook 
salmon. And salmon and steelhead stocks that swim through the 
California Current to reach their ocean pastures in the North 
Pacific Ocean of Alaskan marine waters have also been affected.
    I describe my conclusions more in my written testimony. And 
I also refer to a paper that I presented----
    Senator Gorton. Go ahead. I haven't called time on anyone 
yet.
    Dr. Kaczynski. And salmon and steelhead stocks must swim to 
the California Current to reach their ocean pastures in the 
North Pacific Ocean.
    When we've had a California Current that was strong and 
cool, we've had good salmon survival and growth. When the 
California Current was weak, from about 1976 to 1995--and 1997 
and 1998 are confusion years because we had very strong 
independent El Ninos in those years--we had warmer surface 
waters, lowered nutrient availability, lowered upwelling, poor 
phytoplankton production, poor zooplankton abundance, poor 
baitfish abundance, low seabird numbers, poor salmon survival 
and poor salmon growth.
    When the California Current is strong, cool and productive, 
we have cool and relatively wet inland climate conditions in 
the Northwest. Cool and wet inland is also good for freshwater 
salmon survival and growth.
    When the California Current is weak and warm and 
unproductive, we have warm and relatively dry inland climate 
conditions. Droughts have not been uncommon. Warm and dry 
inland is poor for freshwater salmon survival and growth.
    These ocean and climate relationships are easiest to see in 
coastal coho and southern chinook salmon. In 1998, I was able 
to gather much available information--all that I could find at 
the time--and presented this information in a paper at the 49th 
Annual Pacific Northwest Fish Culture Conference. That paper is 
appended to my written testimony.
    The paper presents and discusses the importance of changing 
ocean conditions for salmon survival in fairly good detail and 
the importance of climate in less detail. I am more confident 
in dealing with ocean phenomena and much less confident in 
dealing with climate phenomena.
    Finally, NOAA scientists have now reported that the 
California Current was relatively strong and cool and very 
productive in 1999, upwelling was very good, phytoplankton 
production was very high, zooplankton were abundant, and this 
includes the larger desirable krill species. Jack chinook 
salmon returns at Bonneville Dam fish ladder were very high 
last fall.
    These jack salmon entered the California Current as smolts 
in the spring of 1999 and spent some 6 months at sea. They 
entered a very friendly ocean with a good food supply compared 
to the previous 25 years. A strong jack salmon run predicts a 
strong adult return 1 year later. I am hopeful that we've 
returned to a cool, productive, salmon friendly California 
Current, and that we will see a proportionate turnaround on our 
Northwest salmon populations.

                           PREPARED STATEMENT


    I sincerely hope that my testimony provided you with some 
reasonable information that can assist you in your 
deliberations and that can be helpful to you in producing a 
legislation that benefits our society.
    [The statement follows:]

               Prepared Statement of Victor W. Kaczynski

    My name is Victor W. Kaczynski and I reside in St. Helens, Oregon. 
I am a practicing fisheries scientist with 31 years of professional 
experience with salmon issues in Alaska, Washington, Idaho, Oregon, and 
California. I began my professional career here in 1969 as an Assistant 
Professor of Biological Oceanography at the University of Washington. I 
studied the early marine life history of coho, chum and pink salmon and 
their invertebrate prey. I also studied zooplankton productivity in the 
North Pacific Ocean, and along the coast of Oregon and Washington 
associated with upwelling. After that, I have worked as a consultant 
with practically all entities affecting and managing salmon in the 
Pacific Northwest. I have been the Environmental Technical Director for 
Texas Instruments, President of Beak Consultants Inc., and Director of 
Environmental Sciences for CH2M-Hill. For the last 10 years, I have had 
my own firm. My resume is attached and it more fully describes my 
experience.
    I understand that the Committee is interested in the effects of 
climate and ocean on our salmon. (I use salmon to refer to all the 
northwest species of the genus Onchorynchus.) My understanding of the 
relative importance of climate and oceans on salmon has evolved with 
time and the availability of relevant information. From 1969 to 1972 
when I was an active researcher on the early marine life history of 
salmon in Puget Sound and zooplankton (a primary food item for juvenile 
salmon) abundance related to upwelling along the coasts of Oregon and 
Washington, I was struck with the great abundance of food for salmon 
locally. Zooplankton in Lake Cayuga in central New York (where I had 
spent the last five years) was very sparse in comparison. In my mind at 
the time (1969-1972) the ocean appeared as an unlimited resource for 
salmon. The California Current was strong in those days. Nutrients were 
good for phytoplankton growth and primary production rates were very 
high. Zooplankton were abundant and krill were notably large and 
abundant. Krill were and are an especially good favorite food for 
juvenile salmon. Herring, anchovy and sand lance were very abundant. If 
you were a sport fisherman during those years you would remember these 
baitfish almost constantly hitting your fishing line. All three of 
these small fish species are favored food for larger salmon as they 
approach adulthood and start their return journey back towards their 
home rivers. Sea birds were in great abundance; you saw individual 
flocks of murres that numbered in the thousands. And the salmon were 
big and they were abundant. It was usual to catch coho in those years 
that weighed fifteen pounds and a twenty pounder was quite possible. 
You could catch your limit of coho salmon at the mouth of the Columbia 
River in an hour and I think the limit was four or five salmon at that 
time. The general consensus in the fisheries profession was that the 
ocean was an unlimited black box for salmon. Freshwater conditions were 
the only limiting factors for salmon populations.
    Then in the late 1970-era something began to happen. It took longer 
to catch a limit of salmon and some days you couldn't catch a limit. 
And the coho salmon were not as large. By the mid 1980-era, it became 
hard to catch a limit of salmon and the limit had been reduced to two 
salmon. Baitfish weren't hitting your fishing line anymore and the sea 
birds were noticeably fewer. But we fisheries biologists didn't make 
the connection. In 1984 we had a major El Nino which really whacked the 
baitfish and birds and this time we did make a connection when the 
coastal coho salmon and southern chinook salmon were whacked too. But 
we thought it was an isolated incidence separate from the gradual 
decline in coho salmon and southern chinook salmon from the mid 1970-
era.
    In 1985, I was the senior author of the ``Klamath River Basin 
Fisheries Resource Plan''. This report was the outcome of a project 
done for the Department of the Interior which evaluated causes for the 
decline of salmon runs in the Klamath Basin in northern California. 
Fall chinook salmon was the primary species of concern. We recognized 
that El Nino events occurred in 1982, 1983 and 1984 and that these 
events recognizably caused declines in ocean salmon catches and 
escapement runs to rivers along the entire coast from California to 
Washington. And we had recognized that the basin had suffered recent 
droughts notably in 1977, 1978 and 1981. The 1977 drought was the worst 
on record. But we still concluded that, ``The results of the 
information search indicate that the current constraints on anadromous; 
fish production in the Klamath basin involve overfishing (particularly 
for fall chinook salmon) and habitat loss or degradation.'' Our report 
conclusion echoed the thinking of salmon biologists at that time. We 
knew there was a drought effect and we knew there was an ocean effect 
but we gave less weight to this knowledge and more weight to the state 
and Federal agency biologists opinion that the problems had to be 
overfishing and freshwater habitat problems. The report became Federal 
Law Public Law 99-552, The Klamath Act with 20 years of funding to 
primarily address identified freshwater habitat problems (and there 
were plenty of those).
    Let's skip forward to 1993 when I was the senior author of a major 
report that evaluated the causes for the declines in salmon and 
steelhead abundances in Oregon and the reasons for the lack of 
recovery. And I was the junior author of a similar report in 
Washington. Our conclusions in both reports were that multiple factors 
were responsible for the salmon problems. No one factor was responsible 
by itself. And that all factors needed to be addressed for significant 
salmon recovery. In both of these reports, we were able to relate 
inland climate impacts on the freshwater stage of salmon and ocean 
related impacts on the saltwater stage of salmon growth and survival. 
We did recognize that natural climate and ocean changes were parts of 
the problems and that these factors needed to be addressed as well. But 
in both reports we tended to focus more on human caused impacts such as 
overfishing, dams, flood control, water use, and land uses. With 
hindsight, we still did not appreciate the relative importance of 
climate and oceans in the very apparent salmon declines.
    After completing these 1993 reports, something nagged me. I wasn't 
satisfied that we had fully understood the problems. In particular, 
there were some obvious patterns with southern-chinook (all chinook 
salmon from the Rogue River south) compared to northern chinook salmon 
(all chinook salmon north of the Rogue River). While the southern 
chinook populations were declining, the northern chinook populations 
were either growing or holding steady. Furthermore, year to year 
differences in abundances were well correlated within each group but 
not from group to group. Further the coastal coho populations were 
following the same trends as the southern chinook populations. And if 
you looked closer at the northern chinook populations, most of these 
had correlated year to year trends from the Fraser river in British 
Columbia, the Columbia River groups, the Washington coastal rivers, and 
the Oregon coastal rivers down to the Umpqua River. And if you looked 
further into the Alaska salmon fisheries , they were 100 percent 
opposite of the lower U.S. salmon fisheries. Some broad geographic 
factor(s) were affecting Pacific Northwest and Alaska salmon. The 
effects were major. No land use or water use or fishing pressure 
information could explain these broad geographic trends and year to 
year variations in salmon abundance. This was a very major, very 
important realization for me and these observations are important in 
understanding our Northwest salmon problems. I defy any salmon 
biologist to try to explain these broad decade-scale geographic trends 
and year to year variations in salmon abundance through changes in 
hydroelectric use, flood control, irrigation, farming, logging, or 
fishing pressure.
    One can only explain these decade-scale trends and year to year 
differences in abundance through a combination of inland climate and 
ocean productivity. This is not to say that human-caused impacts 
haven't been important. They have and they need to be addressed. This 
says that we have grossly under valued the importance of climate and 
ocean productivity. Their impacts on salmon have been grossly ignored. 
Too many people have blamed the salmon declines wholly on human 
impacts, the four H's (habitat, hydroelectric, hatcheries, and 
harvest). Climate and ocean impacts on salmon have probably masked the 
habitat benefits that we have made here in the Northwest through 
advances in conservation practices in agriculture and forestry, 
advances in wastewater treatment, and advances made to decrease salmon 
impacts at the dams in operating projects for flood control, 
irrigation, and hydroelectric power generation.
    Inland climate and ocean productivity are linked; they are not 
independent phenomena. The condition of the California Current is the 
primary productivity consideration for coastal coho and southern 
chinook salmon. And salmon and steelhead stocks that must swim through 
the California Current to reach their ocean pastures in the North 
Pacific Ocean and Alaska marine waters have also been affected. When 
the California Current was strong (eg., from about 1960 through 1975) 
we had cool, nutrient rich, coastal waters from Washington to 
California. And under these physical conditions we had good upwelling 
which helps keep the surface waters cool and replenishes nutrients. We 
had high phytoplankton growth, high zooplankton abundance, high bait 
fish abundance, high sea bird, numbers, high salmon.survival, and good 
salmon growth.
    When the California Current was weak, from about 1976 through 1995 
(1997 and 1998 are confusion years because of independent strong El 
Nino events and adverse impacts on marine productivity and salmon 
survival), we had warmer surface waters, lowered nutrient availability, 
lowered upwelling, poor phytoplankton production, poor zooplankton 
abundance, poor baitfish abundance, low sea bird numbers, poor salmon 
survival, and poor salmon growth.
    When the California Current is strong cool and productive, we have 
cool and relatively wet inland climate conditions. Cool and wet inland 
is also good for freshwater salmon growth and survival. Tributary. 
streams have higher surface flows, more cool groundwater inflows, pools 
are larger and deeper, and the waters are cooler. There is physically 
more stream habitat available and it is better in quality. The 
mainstems of rivers such as the Snake and Columbia Rivers have higher 
flows and the waters are cooler and juvenile salmon migrating 
downstream and adults migrating upstream have higher survival.
    When the California Current is weak warm and unproductive, we have 
warm and relatively dry inland climate conditions. Droughts are not 
uncommon. Warm and dry inland is poor for freshwater salmon survival 
and growth. Tributary surface flows are lower, groundwater inflows are 
lower, pools are smaller and shallower, and the stream waters are 
warmer. Many stream temperature water quality violations occurred 
during strong drought years. There is less stream habitat available for 
juvenile salmon and it is lower in quality in such years.
    More information on the importance of inland climate and ocean 
productivity has become available, especially in recent years. Now many 
salmon biologists and politicians recognize that these natural factors 
are important in affecting salmon abundance. But some people do not 
want to recognize that they have any effect on salmon or they minimize 
their importance. These people apparently have special agendas and the 
role of climate and ocean variability and their effects on salmon do no 
fit their agendas. I try not to postulate but I become frustrated at 
times with special agendas and politically correct science that 
permeates the salmon debate.
    These ocean and climate relationships are easiest to see in coastal 
coho and southern chinook salmon. In 1998, 1 was able to gather much 
available (all that I could find at the time) relevant information on 
the coastal coho salmon problem and I presented this information in a 
paper at the 49th Annual Pacific Northwest Fish Culture Conference. 
That paper is appended to this summary testimony. The paper presents 
and discusses the importance of changing ocean conditions for salmon 
survival in fairly good detail and the importance of climate in less 
detail. I am more confident dealing with ocean phenomena than with 
climate phenomena.
    Finally, NOAA scientists have reported that the California Current 
was relatively strong, cool, and very productive in 1999. Upwelling was 
also good. Phytoplankton production was high and zooplankton were 
abundant (including the desirable large krill). Jack chinook salmon 
returns at the Bonneville Darn fish ladder were very high last fall. 
These jack salmon entered the California Current as smolts in Spring, 
1999 and spent some six months at sea. They entered a very friendly 
ocean with a good food supply compared to the previous 25 years. A 
strong jack salmon run predicts a strong adult return one year later 
(plus 2 and 3 years later for chinook salmon). And right now St. Helens 
sports fishermen are catching an unusually high number of summer 
steelhead in the Multnomah Channel, part of the lower Willamette River. 
This is another good sign that ocean conditions have changed for the 
better.
    I sincerely hope that my testimony provides you with information 
that can assist you in your deliberations and that is useful to help 
produce legislation that benefits our society.

    Senator Gorton. Dr. Kaczynski, let me put my first question 
to you then.
    Does this very recent--you say 1999--return to a cooling 
trend have anything to do with the healthy run of sphinx 
chinook this year in the Columbia.
    Dr. Kaczynski. It appears to be. I live in St. Helens, and 
the people there fish a lot in the Multnomah Channel, and 
unusual number of summer steelhead have showed up in their 
catch. In fact, none of the people can ever remember catching 
as many summer steelhead as they're catching this spring. And 
they've also caught quite a few spring chinook as well.
    And so, yes, you do have an apparent relationship.
    Senator Gorton. Even though it only started last year. So 
those fish that are being caught now were going downstream 
while you still had the warmth.
    Dr. Kaczynski. Yes, that's correct.
    Senator Gorton. So do you expect that if this continued for 
2 or 3 more years, the numbers would increase even more?
    Dr. Kaczynski. They should. It generally takes two to three 
cycles of salmon or steelhead to start a really good 
turnaround. You should start to see the benefits of the 
advances that have been made in agricultural conservation 
practices, forestry conservation, the many things that Larry 
talked about in terms of the advancements that have been made 
at the facilities on the Columbia-Snake Rivers.
    Senator Gorton. Thank you.
    Mr. Cassidy. One additional comment too, Senator. On the 
outbound migrant period of 1997 that most of these spring 
chinook went out, we had really good flows then too. And we 
think that made a significant contribution to getting these 
fish out quickly. It's pretty clear that the faster you can 
move them down the system and get them to the ocean, the better 
chance you have for survival. It isn't the only answer, but 
it's very important, and we had a good flow year.
    Senator Gorton. Well, my next question is for you and Mr. 
Diggs. And I may be missing something, but I see a dramatic 
inconsistency.
    You have told us that you now have a better survival going 
down river than you did before the Snake River dams were 
created. And you have indicated to us a very serious concern 
with the terns on Rice Island.
    We have something that the Fish and Wildlife Service put 
out not long go that States that there's a 40 to 80 percent 
mortality from the hydropower system on the Columbia River in 
these matters, and that the Caspian terns hardly matter at all.
    I'd like both of you to discuss that rather dramatic 
inconsistency.
    Mr. Cassidy. Sure. I must say also, the Fish and Wildlife 
Service has been particularly cooperative in this issue. I'm 
not here to bash them at all. There are people in Portland who 
we've mainly worked with that have been very cooperative 
working out the agreement that I described about relocating the 
terns from Rice Island to East Sand Island.
    The statistics about whether they're wildfish or hatchery 
fish that they're eating, whether the mortality occurs or 
doesn't occur is very difficult to define. You can ask Vic 
Kaczynski, you get 12 fisheries biologists in one room, you've 
got 24 opinions on the fishery source.
    And so I do know that the particular statistic that 
indicates or supports their contention on hatchery consumption 
is that they find pit tags in the feces of the terns. Well, the 
wildfish aren't tagged, and so, obviously, that could be a 
misleading statistic.
    I can't give you with authority whether his contentions are 
correct or not. It just is clear that they're eating them. I've 
been down there watching them eat them. And they're now the 
largest colony of terns in North America, if not the world, and 
we're feeding them the finest ice cream that we can, paid for 
by the public. That doesn't make sense to me, when we can 
successfully move them to another location to reduce that diet, 
which everybody, including Fish and Wildlife agreed to.
    Fish and Wildlife Service does have the responsibility of 
representing these terns, and I don't argue that at all, nor do 
I contend they're the only problem with regard to salmon. But 
this particular issue's a disappointment for us, simply because 
we worked so hard to get to sort of ameliorated position, and 
here we are losing now because a private representative group 
sued the Corps of Engineers, which may require an EIS, which 
means we maybe will lose two seasons before we get back to the 
program.
    Senator Gorton. But I did here accurately, your statement, 
that you feel the down river loss due to hydropower now is less 
than it was?
    Mr. Cassidy. The indications from the Corps, Bureau of 
Reclamation Service, and the State agencies, which I believe 
all signed off on, is that the outbound migrant survival rate 
is as good as it was in the 1960s with all the tweaks we've 
done to the system.
    Mr. Dicks. This is a transportation system you're talking 
about?
    Mr. Cassidy. Part transportation, part flowing through the 
turbines, part escapement down the fish ladders--the whole 
variant ways that they travel down the river, that escapement. 
And, of course, remember, we're piling a lot of artificial fish 
into that system. But they claim that the number of outbound 
migrants reaching the mouth of the river is equal to what we 
had in the 1960s and 1970s when the dam construction really got 
rolling along.
    Senator Gorton. Mr. Diggs.
    Mr. Diggs. Yes, when the Service took a look at this issue, 
we immediately went to try to find out what we knew and 
understood about the effects of avian predation on salmonid 
production; and one of the only long-term work and examples we 
had to look at was a similar situation on the East Coast, where 
there was a cormorant problem on Atlantic salmon, and a 10-year 
effort to control cormorants as an aid to Atlantic salmon 
recovery. So the conclusion of that operation was that, it did 
not help. It did not aid.
    Now, that doesn't automatically translate to what the 
situation here is in the Columbia, and the figures of predation 
are alarming in terms of the size of their numbers. But the key 
point we are trying to understand, as well as everyone involved 
in this project, is how does this smolt predation--the millions 
of smolts--how does that translate into reduced adult 
production or reduced ability to recover these fish?
    And that's an issue that we don't have the final answer to 
at this point. And it obviously could go two ways. What 
biologists like to talk about at this point in the estuary is, 
is this predation what we call compensatory mortality? That is, 
is it occurring on fish that may already be predisposed to die 
or are going to suffer predation from the other sources of 
predation that salmon hit in the ocean? And that is an answer 
we do not have at this point.
    But nonetheless, we've taken, I think, a very aggressive 
approach to try to control this problem, a target of 20 to 40 
percent reduction. If we could see that type of result in any 
of the other 4H's in the next couple of years, I think we would 
say we've done a pretty good job. So we're committed to trying 
to continue this effort.
    Mr. Dicks. But Mr. Diggs, it appears to me you still don't 
get it.
    Did you hear what the doctor said down there on the other 
end about the ocean conditions may have more to do with this 
than the apparent fixation that some people have on the 4H's?
    Mr. Diggs. Absolutely. I heard it and I agree that ocean 
conditions absolutely have an effect on salmonid production 
along the coast, in the Columbia River Basin and everywhere 
else. But that does not mean that we stop all of our efforts to 
deal with those issues of man-caused mortality that we can 
control.
    I think as evidenced by what we heard here today from 
everyone that's dealing with habitat restoration, hatchery 
reform, all those issues--as a fisheries manager, we do not 
manage on the margin of the uncertainty of what's going to 
happen in the natural world in the ocean environment. That's, 
to some extent, unpredictable and, obviously, uncontrollable. 
But we can help control and restore and habitat, hatchery 
reforms, control harvest, and we think those are absolutely 
crucial to recovery.
    Senator Gorton. Does Fish and Wildlife have one of the nine 
representatives on Dr. Bergman's science group?
    Mr. Diggs. Yes, Dr. Don Campton is on that committee. We've 
participated since the beginning and have been absolutely 
delighted to be there and to work with this group. It's an 
issue near and dear to the heart of the Fish and Wildlife 
Service not just in Washington State but across the West Coast 
and nationally.
    We are working very, very hard--not just here in this 
region, but within the Fish and Wildlife and Service and the 
Federal Government across the country--to deal with the issues 
of hatchery reform.
    Very honestly, what we do here in the Northwest is 
providing real leadership, I think, for this issue across the 
country, and I know the eyes are upon us, and we're very 
pleased to be a part of that.
    Mr. Dicks. It still bothers me. This whole thing bothers 
me. Here we're spending all this money, the Bonneville Power 
Administration is paying hundreds of millions of dollars a 
year, and the Corps of Engineers creates an island--from the 
perspective of protecting this fish--in a very poor place. And 
you all talk about invasives.
    It's very hard to get people in Olympia, particularly, in 
leadership positions, to even say we've got to put any money 
into this issue if they don't think we're serious about dealing 
with these terns.
    Just like Hershel the Sea Lion in front of the locks; these 
are things people can understand and see happening, and they 
want to know, ``You're going to make us do what?'' and then not 
deal with this problem.
    Now, I think the plan was a good plan. I was at Bonneville, 
and was briefed on the problem. I think the plan has a good 
chance of working. But I hope we're going to stay committed to 
this thing. I understand the problem with the judge, but we're 
going to have to try to work that out.
    Mr. Diggs. We agree.
    Mr. Dicks. Even though I'm getting heat in Grays Harbor. 
They don't want them all on Grays Harbor either.
    You might want to address that, Larry.
    Mr. Cassidy. If you'd like me to, Congressman Dicks.
    The idea of relocating some terns nesting sites to Katy 
Island and Grays Harbor involved about 300 pair of terns. We're 
talking close to 10,000 pair in the mouth of Columbia.
    Mr. Dicks. But how many will 300 pairs be 5 years from now?
    Mr. Cassidy. Well, we've committed in the working group to 
reduce the habitat to one acre. And also, in meeting with Dan 
Roby yesterday, he indicated that we could control the number 
of nests--and we met with D&R and Fish and Wildlife yesterday--
control the number of nesting terns by simply reducing the 
habitat further if they begin to grow.
    But as you know, public information tends to get askew 
sometimes, and the last story I heard was that we were sending 
all 10,000 nesting pairs to Grays Harbor, et cetera, and it 
never was the intention nor the goal.
    But I also would tell you that without the Katy Island 
component, which was most important to study their diet than 
anything, the idea of moving them to East Sand Island has real 
benefit. And I once again emphasize, this was an ameliorated 
position. We talked about some much more stringent resolutions 
to this issue on the Power Council; and it was through the Fish 
and Wildlife contribution, and other people, that we came to 
sort of a mediated result, and now to see that go down the tube 
is very disappointing to us. And I suspect that Fish and 
Wildlife feels the same way; I don't know.
    I would like to mention that I just was passed a note that 
our Governor's office has cleared the fact that Washington 
State will file as a friend of the court and the Corps of 
Engineers, which doesn't happen very often, on this particular 
issue. And I understand from Governor Kitzhaber, the person on 
the Power Council who I talked to an hour ago, they're going to 
join tomorrow morning as well. Maybe we can up the pressure a 
little bit with regard to the importance of this issue.
    Mr. Dicks. Let me ask Dr. Kaczynski. I believe that what 
you're talking about probably has much to do with this problem. 
Ocean conditions have got to be a major factor.
    How much research have we done on ocean conditions? Has 
NOAA, has the National Marine Fisheries Service, have we done 
anything about monitoring ocean conditions to look at all these 
other things?
    Dr. Kaczynski. They are monitoring it now.
    Mr. Dicks. Are they doing it now? Was there a big period 
there where not very much was done?
    Dr. Kaczynski. There was a period of inactivity, a period 
of relatively light activity.
    Mr. Dicks. Why is that?
    Dr. Kaczynski. I don't know.
    Mr. Dicks. We just didn't understand it? Should we have 
understood this?
    Dr. Kaczynski. Yes, quite frankly, we screwed up. And I'm 
speaking as a member of the scientific community. We missed it.
    Mr. Dicks. I'm going to look at your paper. I want to read 
your paper.
    How would you evaluate the 4H's versus ocean conditions? 
How do you balance this? Is it 80/20, 50/50? Can you give us 
any help so we know something or have at least a better feeling 
for the significance of this?
    Dr. Kaczynski. The only way I could even try would be with 
the relative survival of coho salmon in freshwater, which the 
best estimates put it around 3 percent. And that's from about a 
half dozen scientific studies.
    In contrast, the survival in the ocean for coho salmon, 
coastal coho salmon, has been as low as perhaps as \1/2\ of 1 
percent here in the 1990s, when you had really deleterious 
conditions, to as high as, perhaps, 14 percent back in the 
1960s.
    Mr. Dicks. You're talking about return fish; 1.5 percent 
were returning and then it went up to 14 percent coming back?
    Dr. Kaczynski. No, I'm just talking about the survival in 
freshwater. The best estimates say it's about 3 percent, and 
those estimates don't have as much variation about them as the 
estimates from rain survival, that is the period when----
    Senator Gorton. When you say freshwater survival, you mean 
fish that never leave fresh water; is that right?
    Dr. Kaczynski. No. No. I mean from the time the egg is laid 
in the gravel until the smolt goes out.
    Senator Gorton. The survival's 3 percent.
    Dr. Kaczynski. About 3 percent is the best estimate.
    Senator Gorton. And then of that 3 percent, the \1/2\ 
percent to 14 percent is figured?
    Dr. Kaczynski. No. When the fish enter the ocean as the 
smolt, until the time they return as the adult, here is where 
your survival really bounced all over the place.
    Senator Gorton. Because of ocean conditions.
    Dr. Kaczynski. Because of ocean conditions. About \1/2\ a 
percent we've observed in the 1990s when the oceans were the 
warmest, conditions were the worst----
    Senator Gorton. And that's \1/2\ of 1 percent--of the 3 
percent who get there?
    Dr. Kaczynski. Exactly. And to a high of perhaps 14 
percent. So if I look at the magnitude of the range of 
survival, which is very high in the ocean and not as high in 
freshwater, would suggest to me that the most important thing 
is happening in the ocean. That's the only way I have to 
evaluate it.
    Mr. Dicks. Larry.
    Mr. Cassidy. Congressman Dicks, I'd support what Dick says, 
but I would give it to you in maybe simpler terms because I'm 
not a fisheries biologist, I'm a businessman.
    We can't have salmon runs without some sort of freshwater 
component that's receptive to them. But the process in the 
1950s, 1960s, 1970s and 1980s in the Columbia-Snake Basis where 
I do most of my work, was that we changed the component of the 
river for social and solid economic reasons. And then as we 
changed the tributaries we said, let's not worry about that, 
we'll artificially produce these fish and pour them into the 
system. And then we sat there and ignored the ocean as a black 
hole for all the time I've been involved in this issue.
    There is a Canadian oceanographer named David Welch--who, I 
agree, doesn't have peer review of his work yet, but he's very 
exciting to talk to. And I would urge you to read his material 
and get in touch with him, and of course, consult your own 
scientist as well--who has come up with serious work in the 
ocean about where these fish are migrating, what the food 
supply is, what the global warming issue may be impacting with 
regard to the North Pacific and the food supply for salmon.
    And there is a possibility that we could be doing all this 
work, which is, of course, beneficial--clean water in our State 
is a component to the lifestyle we all enjoy--but there's the 
possibility we could do all this and still have trouble in the 
ocean. And if there's anything I think the three of you could 
work on, would be to contribute the significant amount of the 
funds we now spend to where we really find out the story of the 
ocean, what's going on and why we ignored this black hole all 
these years. We need to know.
    A salmon spends 75 percent of his life in the ocean and 25 
percent in freshwater either going out or coming back. To me 
that makes basic sense. We need to study the ocean now, and it 
needs to be, I think, urgent.
    Mr. Dicks. Thank you.
    We've all been worrying and concerned about this decision 
on the Snake River Dam. I mean, to me this is just another--
this, and the fact that the transportation system is working, 
surface collection is working, a lot of these other things that 
we can do to get these fish down the river are working, and we 
haven't looked at the ocean--I mean, to me, I don't see how we 
could possibly make a decision to take those dams out without 
knowing the impact of the ocean conditions on this equation. 
This seems to me it would be a serious mistake in judgment.
    Senator Gorton. Congressman Inslee.

                 Statement of Representative Jay Inslee

    Mr. Inslee. I want to ask a question, but would you allow 
me to make a brief statement? Is that allowed for freshmen 
Representatives?
    Senator Gorton. Yes, I certainly will.
    Mr. Inslee. I appreciate that.
    I just want to say something that listening to this 
discussion and all of the other discussions I've been involved 
with for salmon for some time, I think we can get in the wrong 
mind-set a little bit. And I want to comment on it, because it 
reminds me a little bit about the defense propounded by the six 
fellows involved in the bank robbery, who all defended 
themselves, by saying the other guy took more money than I did; 
and therefore, I am innocent.
    And in our salmon discussions, that syndrome of 
essentially, no matter what we're talking about, asserting some 
other cause as being a greater contribution to the problem than 
ours, is self-defeating and doomed to defeat of our mutual 
efforts to restore these stocks.
    And I really think that if we spend our time on that 
discussion, that if we wait until the last somebody else who 
had not exhausted what they should be doing to recover these 
stocks, disappear, the salmon will too.
    And I just think that in our discussions we've started 
we've got to stop asking what somebody should do to recover 
these stocks, and start asking what we should do individually 
to recover these stocks. And I think we ought to keep that 
tenor in these discussions.
    And this discussion--and I don't want to cast dispersions 
because this is an extremely important discussion. But I just 
don't think we can even lose site of the fact that the Creator 
may have some bearing with temporary climate conditions as 
well, and to deviate 1 second, one heartbeat, one moment, to 
deviate, trying to figure out what we should do to recover 
these stocks. And I just want to make that comment because I 
think it's an important one.
    And I want to turn to the science of this because I think 
this is an intriguing discussion.
    Doctor, first off, how do you characterize the extent of 
reduction in the stocks versus pre-European arrival levels, if 
you will. If you were going to put it at a percentage, where 
would you put it? Let's take Columbia or Puget Sound 
separately, if you can----
    Dr. Kaczynski. I'd rather stay with Columbia Basin.
    Columbia Basin, you might be at 30 percent historical pre-
European settlement. And much of that has to do with all of the 
historical habitat you have cut off. There's just no way to 
replace that kind of production.
    Mr. Inslee. Well, I guess you've said we've had somewhere 
in the order of a 70 percent reduction----
    Dr. Kaczynski. Something like that.
    Mr. Inslee [continuing]. Associated, at least to some 
degree, with habitat.
    Dr. Kaczynski. If not more.
    Mr. Inslee. The reason I ask is, are you asserting or are 
you of the belief that there is some transient, climatic, 
ocean-related problem that just occurs on a period-like basis 
that would cause a 70 percent reduction?
    Dr. Kaczynski. That's reasonably--well, I don't think you 
could say that it's all ocean. I agree with the statement, you 
must also address your human impacts as well. You cannot ignore 
them. But you can see these periods of ocean and climate 
changes.
    They've been traced back with good correlations between sea 
surface temperatures and growth rates of Eastern Oregon 
Juniper, and then you can take the growth rates of the Eastern 
Oregon Juniper by taking a core, a plug of wood out of that, 
and looking at the growth rates in the Eastern Oregon Juniper.
    You can go back 500 years, and you can see that for 500 
years you have had these cycles of cool, wet, inland climate 
associated with a cool productive ocean and a dry warm inland 
climate associated with a weak, warm California current. And on 
average over the last 500 years, these cycles have averaged 17 
years.
    Mr. Inslee. But have you also seen a 70 percent collapse on 
salmon stocks in the Columbia Basin on a periodic basis? And 
the reason I ask is, frankly, I find it hard to believe that's 
occurred or man may have been extinct besides the salmon, 
frankly, for all those years.
    Dr. Kaczynski. I want to take a look at that a little bit 
harder to see if you can go back in. It's very hard to go back 
into the historic record to see this. The historical fishing, 
which occurred at the turn of the century, I mean, basically, 
came pretty close to wiping a lot of stocks out. And you had a 
very low period of activity in the 1940s and 1950s. And then 
starting in the late 1950s you appeared to have an increase in 
productivity which carried through until about 1975. And then 
in 1976, which is a little bit closer than some of the 
installation and operations of the dams up river, you had these 
disappearances. It's coincidental.
    Mr. Inslee. Knowing what you know, assuming that we as a 
community have a goal to restore the salmon runs, are you 
suggesting to us that we should diminish our efforts on all the 
other 4H's at all?
    Dr. Kaczynski. No. I say you proceed cautiously. You need 
to factor the ocean survival very carefully into your allowable 
harvest rates to ensure that you get your return runs that can 
saturate--I want to see these fish saturate the environment 
proportionate to their ecological capabilities. I don't want to 
see these junk runs showing up in the stream; I want them 
saturated with fish.
    Mr. Inslee. Larry.
    Mr. Cassidy. Jay, let me just share a couple statistics 
that sort of registered in my mind, and I think it will make 
sense to all of you too.
    If I remember right, I think 16 million was the estimated 
total amount of settlement at the best years ever in the 
Columbia Basin, somewhere in that area, and we're down to about 
2 million in the assorted species now. And I would refer you to 
one chapter in Lichatowich's book, which deals with the Fraser 
River.
    I believe in 1912, they had their best run ever of sockeyed 
salmon. He estimates it at 100 million fish. Now remember, 16 
million was the best estimate that Columbia Basin ever had 
clear into Canada. There were 100 million sockeye in a river in 
Canada, the Fraser River.
    Then they had a landslide, Hellsgate landslide, which cut 
the river down to 80 yards in width several miles up. Four 
years later the sockeye run was 8 million fish, and it never 
recovered. Now, they took the slide out. They went in there 
with machineries in later years, removed it, put the habitat 
back to the way it was, but they never recovered from that one 
impact on habitat in the river.
    So the ocean is a key component, but we can't ignore what 
we're doing, and we can't stop what we're doing in our State.
    I think the real problem is, as many people as there are in 
Washington State that enjoy the salmon resources, there are 
many people, particularly in Eastern Washington--where 
significant impacts are going to have to occur--that aren't 
aware of this issue; and they're struggling economically to 
begin with. And how we bring that public awareness to them is 
the real issue.
    I think that if we can bang a billion bucks between Bangkok 
and Beirut by computer and send guys to the moon, we can solve 
this salmon issue, but it's going to have to be a joint effort. 
Everybody's going to have to be working together. It's going to 
be your folks in Puget Sound reaching over the mountains to the 
people in Eastern Washington, saying, we've got to do this 
together. Because it ends up with NMFS forcing it down people's 
throat, which is a likely alternative if we don't get this 
worked out in advance--and that's what Governor Locke's trying 
to do--then it's going to be extremely more difficult if not 
impossible. And the Okanogan and the Methow are examples.
    But this is a partnership, and it really has to happen. And 
that's the role I think all of us--you and I and everyone 
else--must play. We have to bring all these issues out and 
continue this public education.
    And frankly, I think it's going along well. I see my 
grandkids talking about salmon and working on issues that 
didn't even exist. I've been around this camp for a while. I 
could be Bill Frank's brother I've been around this camp for a 
while.
    But in any event, it's just important to know that the 
public awareness is now, and this issue is before us for 
perhaps the best opportunity in any time before or after. Now 
is the time to get it done. The next few years are very 
critical to getting this done. I think we have public energy.
    Mr. Inslee. I have one more question, Senator, if we've got 
time for one more question.
    Doctor, I was reading some issue about climate change 
issues the other day. And I've read that some of the modeling 
that's been done to try to predict atmospheric temperature 
associated with CO<INF>2</INF> density or concentrations, that 
for a long time the models predicted a high atmospheric 
temperature, and there's always been a question, where is that 
missing energy from the models.
    And I just read about a week or two ago that there was some 
new research that indicated that they'd done a rather pretty 
fantastic global sorting of old records about oceanic 
temperatures, and that this research came back to suggest that 
that missing energy is in the oceans essentially.
    Dr. Kaczynski. I read the same report.
    Mr. Inslee. First off, does that have any meaning to you? 
Is it significant in this issue? Could it be associated with 
this problem?
    Dr. Kaczynski. It scares me, yes.
    Mr. Inslee. Tell me why. What do you mean?
    Dr. Kaczynski. Because if that's correct, then we're 
heading to this scenario that Larry talked about, Dr. Walsh's 
scenario, that the oceans are going to continue to warm in 
response to this global warming, and if it's being driven to 
greenhouse gases or whatever. And if his scenario is right, 
there's not going to be a salmon left alive in the entire 
northeast Pacific Ocean; they're only going to be alive from 
the--sea, north.
    Mr. Inslee. Do you think the science is credible enough 
that is a realistic concern of yours? I'm just going to ask 
your personal opinion?
    Dr. Kaczynski. I'm concerned. And there's one thing that 
kind of bothers me about removing of the dams. If that 
scenario's correct, how do you replace that electricity other 
than by fossil fuels, which increase CO<INF>2</INF>, which 
increase the gashouse effect? I don't know how do we valuate 
that. I would like a atmospheric scientist to take a serious 
look at that.
    How much would you spike the CO<INF>2</INF> greenhouse 
effect if you had to replace the hydroelectricity in the 
Columbia-Snake Basin with fossil fuel production? I cannot 
answer it; I'd really like it addressed.
    Mr. Inslee. Well, I'm going to end my questioning, so we 
can save lights and save energy through conservation. How's 
that?
    Senator Gorton. Thank you. This has been an interesting 
group.
    I guess, Mr. Diggs, you stay.
    Mr. Diggs. I stay.
    Senator Gorton. You stay. And Will, if you and Bill 
Ruckelshaus would come up.

STATEMENT OF WILL STELLE, REGIONAL ADMINISTRATOR, 
            NATIONAL MARINE FISHERIES SERVICE

    Senator Gorton. This last group--the audience isn't here to 
give a formal testimony, but to hear from Bill Ruckelshaus 
who's been here all day and from Will Stelle, who's been here 
most of the day, what their reaction is to what's going on 
here.
    Bill, you were here first. We're going to give you the 
privilege of going last.
    Will, do you have any informal reaction, at least, to what 
you've heard this afternoon?
    Mr. Stelle. Yes. And thank you, Mr. Chairman, for the 
opportunity to appear here. This has been a great day, a great 
afternoon.
    My name is William Stelle, and I'm the regional 
administrator of the National Marine Fisheries Service for the 
Pacific Northwest, and I live day and night in salmon land, as 
you might well appreciate.
    Let me give you some summary observations on where we are 
now, a year after listing chinook in Puget Sound. And I will 
focus my remarks largely on the Puget Sound work that is 
underway.
    First, obviously, the most important reference point is the 
listing itself and what it means. The heart of the listing 
decision is the scientific judgment that if we keep doing what 
we're doing, there is a high probability that Puget Sound 
chinook will go extinct. What we learn from that most 
fundamental point is that we must change what we're doing if we 
are going to have salmon in our future. The status quo equals 
extinction.
    That change must be comprehensive and it must be durable. 
And you understand the point about comprehensiveness; the issue 
of durability is of equal significance.
    The solution here will not be a flash in the plan. The 
solution here will be a permanent change that will effectuate 
improvements in salmon survivals on the health of our river 
systems over decades. This is a long-term proposition that we 
face, and we should organize ourselves and prepare for the 
long-term because it will require long-term durable 
commitments.
    Do not expect success in a year or to because it will not 
be forthcoming. Expect progress and insist upon it but 
understand that we must gear ourselves for the long haul 
because it will be a long haul, and it can be a successful long 
haul.
    At this point in time, my own view is that we have cause 
for substantial optimism in the effort underway here in Puget 
Sound. Why? It is because we are making substantial progress in 
constructing the basic building blocks for that long haul, and 
it is just that simple.
    Have we fully constructed all those building blocks? No, 
sir, we have not. Will it take more time? Yes, sir, it will. 
But we have made substantial progress in them.
    What are those building blocks for a long-term successful 
effort?
    Science capabilities. We are putting into place more 
sophisticated, more focused science capabilities at the Federal 
level, the State and tribal level and at the local and private 
level to help guide us in our efforts. Building those science 
capabilities is essential because they will be headlights on 
the automobile that help us steer through the darkness.
    Second, we are building the institutional capacities that 
will be necessary in order to achieve success at all levels. 
You've heard here today about those capacity limits that a 
number of different levels of effort are encountering. Those 
capacity limits are real, but nevertheless, we are building 
that capacity at the local level through the watershed 
councils, in the tribal governments, in State capacity and in 
the Federal capacity.
    So again, the second key building block is building the 
institutional capacity to get the job done, and we are making 
good progress.
    Third. Are we doing what all of this should be focused 
upon, which is putting into place the protective mechanisms to 
help protect the fish and rebuild the productivity of this 
system? And the answer is, yes, we are, as you have heard this 
afternoon.
    On hatchery reform, we have made huge reforms and are in 
the process of huge and substantial reforms in the hatchery 
system here in Puget Sound. Those reforms are essential, they 
will contribute to the rebuilding of chinook populations here 
in Puget Sound, and we will put them into place.
    In answer to the earlier questions of, is NMFS a part of 
this effort, and we will use our abilities to help put them 
into place? The answer is yes on both counts, and you can count 
on it. So you can check yes in that column, unequivocally.
    On harvest reform. Have we made substantial changes in the 
way we approach the management of our fisheries here in Puget 
Sound to build towards that new paradigm? And the answer again 
is yes. We're not 100 percent there, but I would say we are 
about three-quarters there in developing new, more 
sophisticated, more weak-stock sensitive harvest management 
regimes so that we protect the necessary escapements to rebuild 
the populations which themselves will be the building block for 
long-term, health Puget Sound chinook ESUs. So in the harvest 
column, check yes.
    On habitat. Habitat, as you all know, is the tough nut to 
crack, and I do not think that we should expect that we will 
fix the habitat problem in a day or a week or a year or even 
longer, but we have substantial efforts underway in taking a 
hard look at the habitat issue and developing strategies to 
address it. And I think the showcase for that is the Forest and 
Fish agreement here in the State of Washington, which frankly, 
10 years ago would have been filed in the fictional category. 
It is now real, it is committed to, and we are implementing it.
    So again, on the habitat strategies, we are making 
progress, and it is a cause for optimism.
    Planning for future efforts. While we get on with the case 
of implementing the early actions that we know will benefit 
fish, are we building the planning mechanisms to make us 
smarter, better, more efficient? And the answer there, again, 
is yes. At the Federal level, at the State level, at the county 
level, and at the private level, planning efforts are underway 
to get the job done and to get it done most efficiently.
    Another key building block for a long-term campaign to 
rebuild Puget Sound chinook is funding. This will not happen if 
it does not have the funding to make it happen. Have we begun 
to build the funding mechanisms that we will need to be 
successful? And the answer there is, again, yes, we have, due 
in no small part to your contributions.
    They are absolutely essential. They are not sufficient, but 
the State has stepped up with funding mechanisms. The private 
sector is set up through the establishment of the Puget Sound 
Salmon Foundation, and all the necessary building blocks for 
funding are being put into place. And again, that is a case of 
huge progress.
    Finally, public education, public support and the taking of 
responsibility at the end of the day will be the key to 
success. And I would offer as exhibit B on that point 
yourselves.
    Look at the quality of the sophisticated questioning that 
you are bringing to bear to these panels here and the quality 
of this debate. And ask yourselves, are we getting educated on 
what it's going to take? And the answer is, yes, we are, across 
the board.
    That education coupled with the plain old public commitment 
that the public wants salmon in our future will be the key to 
success, and we are making huge strides there.
    So my report card to you a year after listing Puget Sound 
chinook is that I think that we are making huge efforts in 
putting together the basic building blocks.
    Is the perfect salmon recovery machine developed and 
implemented? No, it is not, and it will take several years. We 
are in a period of incubation, we are in a period of 
experimentation, and from my own personal view we should not 
rush to freeze out that period of incubation because seeds are 
being planted through the watershed councils and through 
private efforts that will grow into solutions that we today 
can't imagine. And I think we need to be a little patient in 
not trying to over-engineer the system. We are fertilizing it 
with the efforts that we need now. Let those seeds of 
creativity grow. Let inventiveness occur, and in 5 years we 
will have strategies and institutional capabilities that we are 
not even thinking of today; and that is all for the good.
    I would be happy to go over some key issues, but I think in 
deference to the time here, I turn it over to the other.
    Mr. Dicks. What about your staffing level?
    Mr. Stelle. A couple other key issues, one of which is 
bottlenecks. Are there problems with bottlenecks? Absolutely. 
And again, they are very serious with my agency. My agency's a 
little agency. We have about 130 people running all of our 
regulatory programs in Oregon, Washington, and California, and 
that's not enough to do the job. It's just not enough.
    So there are bottleneck problems, and they are significant. 
And if you'd look at the simple map of these listings and 
understand what it means, you will understand that those 
bottlenecks are real and getting more and more challenging. We 
need to deal with that.
    Having said that, issues with Federal capabilities are not 
the only issues where there are bottlenecks or capacity 
problems. As you've heard from some of the earlier panels, some 
of the counties absolutely need better technical assistance in 
order to do the planning work that they need to build their 
homegrown solutions; so too with the local lead entities.
    So the capacity issue is not unique to the Federal 
agencies, it is shared with the other entities in the effort. 
But it is a serious problem, Congressman.
    Senator Gorton. Mr. Diggs, do you have any more further 
comments at this point?
    Mr. Diggs. Yes, I do, frankly. Can I have a few moments?
    Senator Gorton. You go right ahead.
    Mr. Diggs. I'm going to give my comments in the context of 
the Fish and Wildlife Service's role in salmon recovery and 
restoration. Just to make sure everyone is not confused and 
understands what that distinction is. I get this question 
often.
    And we understand what NMFS is doing with salmon and ESA, 
but what do you guys do--well, obviously, we're working very 
closely with NMFS on the ESA aspects of salmon recovery, but 
also this agency that I work for is an action agency in regards 
to salmon restoration recovery.
    We've been out here on the west for over 100 years, and so 
the comments I'm going to give you today at this point are kind 
of my perspectives on what do we need to be doing as an action 
agency. And related to the comments I heard earlier today from 
particularly the first panel, I found that an extremely 
informative and fascinating discussion.
    First of all, it hit me, listening to the people, such as 
Mr. Ruckelshaus and Mr. Sims, that we here in the government 
agencies are not communicating past each other any more. We're 
not talking past each other with the people that we're working 
with. I heard from that panel a lot of the same types of 
things, the same type of language, the same type of commitment 
to salmon recovery and restoration that we have. So that was 
very heartening to me.
    So just a couple of issues. I'd like to focus on some of 
the habitat issues and then hatchery reform.
    When it comes to what we're doing to try to restore 
habitat, whether it's salmon or bull trout, we in this 
profession have some idols. And there was one fellow some years 
ago that said, ``If you're not focusing on the watersheds, 
you're really missing the picture'', Mr. Aldo Leopold. And so 
that's absolutely the first message.
    As we deal with these issues here, we need to be focusing 
on the watersheds, not just the species, but the watersheds. 
And that's a message I really want to deliver from the Fish and 
Wildlife Service. We're focused on everything that happens in 
that watershed, and there's a lot of benefits to that.
    I mean, there's just been an assault of listings under the 
Endangered Species Act, but if we're addressing fixing 
watersheds, fixing water quality, fixing habitat, that should 
be ameliorated over the long run.
    So I heard mentioned that we need a common watershed 
assessment process. As part of everything that's ongoing up 
here in Puget Sound and coastal Washington, I believe that's an 
absolute must, and we're committed to assisting and helping 
develop that process in whatever forums that takes place.
    Second, Mr. Ruckelshaus said, increasingly science is 
informing our decision. Well, this is music to a biologist's 
ears like myself.
    Absolutely, we have to have good information and good 
science, and there are obvious reasons for that. First, we want 
to make sure that what we're doing is going to work. Second, if 
we don't have good science we get called to task for it and 
quite regularly. We end up in court. We end up a lot of places 
we don't want to be if we're not doing things right and 
operating on good science.
    So we encourage and support all those efforts that are 
ongoing, as in the hatchery reform effort to increase the 
quality of our science and all those efforts in habitat 
restoration and get a better understanding of what works best 
and when is the right time to apply it.
    Third. A key to this and habitat restoration is the 
development of partnerships, and we heard a lot about that 
today at the local and State level. And I want you to know that 
the Fish and Wildlife Service is absolutely committed to that. 
We are participating in all those forums you heard today; 
Timber Fish and Wildlife, Agricultural Fish and Water, The Tri-
County agreement, Salmon Recovery Board, the forest fish and 
report process. We're there, and we're committed to being 
there. We get spread thin, no doubt about that, and maybe I'll 
get the same question that Mr. Stelle did a moment ago.
    Fourth. This is an area we think and that we heard today 
that probably we need to do more of and do better on, and 
that's this program coordination. There's a plethora of efforts 
underway out there. We've got to make sure that they're 
coordinated, that they make sense, and that what we're doing is 
having the results that we expect and need.
    I've spent 25 years in the Fish and Wildlife Service and 
most of that in Pacific salmon restoration. And we're hearing 
the criticism about how much money it's costing down in the 
Columbia River, the billions of dollars that are being thrown 
around. We're sensitive to that. I think everyone is sensitive 
to that; that these dollars don't come easy, it's not cheap. 
And the public and the Congress should expect that there will 
be results.
    And so one of the things that's going to help facilitate 
particularly is there's a sense of urgency--and we are seeing 
more funding come this way--is to make sure that it's done 
right, make sure that it's spent right. So coordination overall 
is a key thing we need to do.
    Fifth, maybe finally. We need to provide oversight and 
review to ensure that when we are investing habitat 
restoration, again, that we're getting the results. So 
monitoring and evaluation is an absolutely crucial thing that 
we need. I know that's a great frustration in my agency. As we 
work on the front end of these issues and develop habitat 
conservation plans, whether it's the forest plan, whatever, 
that the key to that long-term success is getting out there and 
see if it works. And very honestly, that's one of the areas we 
have not been funded well into; and it's something that, not 
just at the Federal level, but at the State level and the local 
level, we all really need to focus on. We need to monitor, we 
need to evaluate the results, and I believe this is still kind 
of an unmet need that we face.
    Finally, just on the issue of hatch reform. I spoke to that 
on the last panel, but it's an opportunity for me to just 
reemphasize that.
    I recently finished visiting every congressional district 
in Oregon, Washington, Idaho, every Senate office here. We're 
making visits to you up on the Hill. And one of the things 
you're hearing from the Fish and Wildlife Service is this is an 
extremely high priority for us, not just in this region, but 
nationally.
    We're ecstatic about what we're seeing in terms of the 
collaboration between the States, between the tribal partners 
and between the Federal agencies, and we're linked together 
now, I think stronger than we ever have been before. And there 
are keys to making that a long-term success, and one of those 
is the fact that we have created these independent scientific 
reviews. We're bringing science into the culture of salmonids 
in a way that we've never have before.
    And I just want to thank you, Senator Gorton, for your 
efforts in supporting that, and know that the Fish and Wildlife 
Service and the National Marine Fisheries Service is committed 
to ensuring that, when we're operating hatcheries we're doing 
that in a way that it's part of the solution, not part of the 
problem. We're meeting those multiple objectives that we have, 
whether it's creating fisheries for tribal harvests, sport 
harvests or help in restoring endangered species. And we're 
just committed to that. Thank you very much.
    Senator Gorton. Bill.
    Mr. Ruckelshaus. Mr. Chairman, let me make just really one 
point, and that is, I think what you've heard here all day, and 
what I've heard here all day listening, is the imperative of 
the need for a shared strategy for what we're doing.
    When the Endangered Species Act was passed, and the Clean 
Water Act was passed and a lot of other laws that we're trying 
to implement together and regulations under these laws and 
counterpart laws at the State level, none of these acts 
contemplated something as complex as these multiple species 
that had been declared threatened and endangered, that 
overlapped one another. And there are ranges that affect 
metropolitan, suburban, rural, forested areas throughout our 
State.
    This is not what the drafters of these laws had in mind 
when they were passed. So in my judgment, at least, it's little 
wonder that we're having trouble with all of the various 
agencies and departments that are involved in trying to 
administer these laws, in a set of conditions that weren't 
understood when the laws were originally passed, are having 
trouble doing that. They're stumbling around over one another 
and pursuing their own jurisdictions, and it's difficult to a 
rational strategy or a rational set of approaches to bringing 
these fish back that take into account things like decadal 
oscillations in ocean conditions and how should we think about 
those.
    What NMFS says in its status document which declared the 
chinook as threatened is that, yes, these decadal oscillations 
exist. They're not even decadal. Why they are called decadal, I 
don't know, because sometimes they last a lot longer than that.
    But what happens that, we've seen when they're coming 
back--if this is a normal run--then they drop off when the 
ocean conditions change, and they come back, but they don't 
come back as far. And then they drop off again, and they drop 
down further. So that the trend over several decades, if that's 
the right measurement period, is downward.
    Now, is that right? Is that challengeable? We ought to find 
out if it is. And if we're, therefore, wasting money because 
we're dealing with a problem that's beyond us, all right. But 
that's where the science is as far as that status document is 
concerned.
    It seems to me that I think this is a very good thing that 
you've done here, Mr. Chairman, in pulling us all together, 
just like you did a year ago and that Congressman Dicks and 
Congressman Inslee are participating. Through your political 
leadership, you're forcing attention to be paid by all the 
various agencies, including the SRF Board, that is trying to 
deal with a mix of these issues, and to come together and come 
to you and try to say what's positive about what's going on, 
and at the same time pledge to you that something like this is 
what we need.
    We need a strategy that says, here are the things that 
we've got to address, here's the sequence in which we ought to 
address those, and we're all committed to do it so as to cause 
as little disruption--the human kind--in this area as possible.
    This won't happen unless we develop a shared strategy. I'll 
guarantee you it's not going to happen, unless we all say, 
these are the things we need to do in this sequence, and we're 
all going to pull together in doing that. Because if we don't 
do that, we're going to have serious problems. There are 
positive things that are happening, and those things ought to 
make us feel good about the last year.
    Those positive things--the 4(d) rule issues, when the co-
managers established their rules, their goals, when the 
technical review team for Puget Sound establishes its rules, 
unless those are all coordinated--those are just three things, 
and those are all harmonized with the hatchery reform, with the 
harvest--not necessarily harvest reform; there is reform going 
on. But there needs to be a lot more transparency in our whole 
harvest process and decisions that are made, not just here in 
this State, but between us and Canada and Alaska; that all 
needs to be understood and harmonized. If that isn't 
coordinated, we're going to have serious problems.
    Now, we're trying very hard to coordinate it in the process 
that I mentioned, and here's the early stages of that 
coordination. We're trying to bring this to fruition by the end 
of next month. That's a very ambitious undertaking on the part 
of the people involved in that. We're then trying to expose a 
much broader group of people to get them to buy into the same 
strategy.
    If we can do that, then we have, I think, a real chance of 
success. But pulling all these pieces together and drilling 
down into these individuals, and finding where the conflicts 
lie and trying to resolve those and get us all on the same 
stage is a very large undertaking, a very complex one.
    We need political leadership in order to get this done. We 
need to have our feet held to the fire. We need to have people 
continue to say, I understand what you're up to, and we need to 
see some success in this. We need to have you come back to us 
with a strategy that we understand and that we can communicate 
to our constituents and that everybody else can understand.
    I agree with what was said. I think planets are lining up 
here, and we have an opportunity to accomplish a lot, but it's 
just a moment in time. And if that moment passes us, all this 
enthusiasm that many of us have seen and pointed out, what's 
going on in these lead entity watershed groups by restoring 
habitat, could stop in a hurry if the government's efforts are 
not coordinated and fitted together neatly and pushed forward. 
And I think it's your pressure and political leadership that is 
needed, and it's needed across the board or we're not going to 
make it.
    Senator Gorton. Will, I've got just two questions for you. 
I'm not sure whether you were here during the first panel, but 
the two county executives both reflected what we read in The 
Wall Street Journal yesterday, the Tri-County effort----
    You haven't seen that?
    Mr. Stelle. No, I haven't. I'm not sure it was all true 
though.
    Senator Gorton. That the Tri-County effort that they had 
hoped to be done by the first of June really can't be done by 
then. And both they here and their spokespeople in this Wall 
Street Journal article were expressing the hope that there was 
some flexibility in announcing and implementing 4(d) rules so 
that they could get their act together and be a part of it.
    And I'd just like your comment on that desire and that 
process?
    Mr. Stelle. I was here, and I did hear those comments, and 
I understand that circumstance.
    And the question is, are we going to be able to accommodate 
the need for more time before the 4(d) rule for chinook in 
Puget Sound gets into place or takes effect? And I am 
optimistic that the answer to that is yes.
    Senator Gorton. That's wonderful. I'm not going to pursue 
it any further.
    Mr. Stelle. I have to have some conversations with my 
lawyers, but they're in the works.
    Senator Gorton. Fine. And the second that you also heard 
here was a fairly, widely expressed frustration on the part of 
these citizen groups against the governmental groups that they 
were being subject to section 7 consultations even when--as 
they put it at least--they were talking about positive projects 
rather than the kind of projects that might threaten salmon 
recovery.
    And because they are a citizens group mostly operating 
through volunteers and on very, very small budgets, don't we 
face the very situation that Bill warned us of? If we subject 
these citizen groups to too many frustrations and too many 
procedural requirements, do we lose their enthusiasm and their 
ability to do good things, particularly for our habitat? Is 
there a way around that so that they can continue in the future 
to do the kind of things they've done in the past?
    Mr. Stelle. Senator, it's a real issue. It's one that I 
absolutely acknowledge, and we need to try to figure out how to 
minimize the risks of that happening. From my perspective, I 
see a couple of choices here.
    First of all, for those restoration projects or 
undertakings that require Federal permits--and a lot of the in-
stream work require 404 permits, just plain and simple--that 
requirement does trigger consultation obligations.
    That's unavoidable; it's the law. So the obligation for us 
and the Corps of Engineers, who is the permitting entity here, 
is to figure out a way to go programmatic, put into place the 
guidelines for restoration activities, that if the projects are 
properly designed in accordance with those guidelines, you 
avoid case-by-case, project-by-project reviews.
    Senator Gorton. Are you close to reaching that goal?
    Mr. Stelle. We have serious negotiations with the Corps on 
that subject, largely in the Oregon district because it's the 
same issue in Oregon as it is up here. And I don't want to 
leave you with any happy talk; it's hard. It's hard. But that 
is the course that we need to pursue.
    The second is, where there aren't Federal permits, so you 
don't get caught into this section 7 consultation obligation, 
then what about the take liabilities? I know that in our 
proposed 4(d) rule we had a whole series of fairly complex 
limitations that would have been proposed in order to avoid as 
a formal matter potential take liabilities for restoration 
activities over the short-term and over the longer term.
    In the final rule that we will release later on, I think 
that we will reshape the way we approach that subject, to add a 
little bit of--and this is not really a legal issue; it's a 
common sense issue.
    If local groups are engaged in watershed restoration 
activities that are consistent with watershed planning 
guidelines developed by the State and funded through the board; 
and if they happen to have the potential to cause injury to 
fish, which is really the legal issue on take--if that's 
happening, what is the remedy? What is the fix for that?
    The fix for that isn't some sort of law enforcement action 
against that watershed group, that's a nutty idea. The fix for 
that is to take a look at those guidelines and make adjustments 
in them so that you reduce the likelihood that there may be 
some adverse injury that nobody wants.
    So in that case, that's not a legal solution; it's a 
practical solution. It's a statement by us that the remedy, in 
the event that there's some potential take liabilities for 
those problems, is to work with the State to develop the right 
kind of guidelines to avoid it. It's not lawsuits; that makes 
no sense at all.
    And I think that if we come out with a fairly formal 
statement along those lines, then that will take a lot of the 
pressure off of the local watershed groups, that they may be in 
some sort of hot water with NMFS enforcement on those types of 
activities. Again, there are four far more higher priorities, 
from my perspective, on enforcement action, not that stuff. So 
a little dose of common sense here.
    Senator Gorton. I do have one more.
    Are we're going to be able to avoid this year the highly 
localized, but nonetheless locally catastrophic kind of 
situation we faced in the Methow last year?
    Mr. Stelle. A couple of responses.
    The first one, which is the safest one, is I sure hope so. 
The second is that we are, in fact--we're in a couple of the 
ditches making some very substantial progress in negotiating 
longer-term strategies that can solve the problems and obviate 
the need for short-term shutdowns. And I'm hopeful that those 
agreements are going to be cemented fairly soon, in which case, 
again, that's a solution that we need to put into place.
    Part of the problem in the Methow is going to be some 
funding from some source in order to try to finance the putting 
into place of a longer-term, more comprehensive water 
management strategy for the Federal ditches and the non-Federal 
ditches so that it's more fair and more effective. I think that 
discussions are underway very actively to try to identify how 
we can solve that problem in that particular sense.
    Senator Gorton. Good.
    Norm.
    Mr. Dicks. Bill, you heard the complaints about the 
matching requirements. It's clearly a problem, especially for 
some of the groups that are nonprofits and don't have a lot of 
money.
    What do you think we should do about that? Are we causing 
this problem at the Federal level?
    Mr. Ruckelshaus. Well, I listened hard to what people had 
to say about the SRF Board policies, and I take it to heart. 
Our first process wasn't perfect; we've got a lot to learn. And 
we're going to try to adjust to some of these because we really 
do see our role as being in a partnership with these groups 
that are making application.
    As I mentioned, undoubtedly, somebody will come up and tell 
you after the hearing. But I was not aware that anybody 
withheld a project because they weren't able to meet the 15-
percent matching requirements for the SRF Board funding.
    Mr. Dicks. They have to have one-on-one. They have to have 
100 percent match.
    Mr. Ruckelshaus. But that's part of the requirement from 
the Congress in the agreement that they have. So they'll be 
funding a somewhat different kind of project maybe than we 
would. We had a lot of discussion of this, and we put it out 
for public comment and review. We got some negative comments 
back from people about the 15-percent match that the SRF Board 
has.
    I was just a little reluctant to go ahead and spend 
taxpayer's money without any match coming from the grant, and 
other members of the board were too. Because if people don't 
have any skin in the game, they don't tend to pay as much 
attention to other people's money. And we were able, I think, 
as a result of that match to get a very good mix of projects. 
And they use imagination in matching the money, but that's all 
right. I mean, we're willing to be flexible on that score.
    Mr. Dicks. Well, I think the idea of building up capability 
is also important. As I said, I've got some counties out there 
where they just literally have one person. Barbara Woods, 
sitting right here in the front row, is the one person from 
Mason County.
    And what are you doing here today? You should be back 
working.
    Do you still think we need a coordinator?
    Mr. Ruckelshaus. We need a coordination policy. We need a 
coordinated process.
    We're trying to do that. Let me make clear, everybody's 
that involved in this who's testified here today is in favor of 
bringing the fish back. There's nobody standing here saying, 
this is all a lot of nonsense, a waste of time, forget it. 
Everybody involved in this wants to get these fish back. They 
want to fish to recover.
    The people in this State are--not 100 percent by any 
means--but are overwhelmingly in favor seeing the salmon 
recover. It's really a question of how to do it, not whether we 
ought to do it. And there is a way to do it in an orderly 
sequenced way, where all these agencies are cooperating 
together.
    I mean, if you don't have the political leadership and you 
don't have the requirement to coordinate, you're essentially 
asking people with overlapping jurisdictions to commit a 
unnatural act, and that is to work in a coordinated way without 
anybody telling them what to do. That is a tough----
    Mr. Dicks. Is it possible--do you have meetings?
    Mr. Ruckelshaus. We meet all the time. This is a result of 
our meeting.
    Mr. Dicks. Of your 199 people that got together?
    Mr. Ruckelshaus. Well, that's where it started. And since 
then, Will Stelle has the people I've listed.
    Mr. Dicks. And you intend to keep that going?
    Mr. Ruckelshaus. We're going. We intend to have this filled 
out so that by the end of May we have a shared strategy. 
Whether we'll be able to get there or not, I don't know. 
Everybody's voluntary that has shown up at these meetings. 
Nobody's forcing anybody.
    Mr. Dicks. So what you're saying is that coordination is 
occurring?
    Mr. Ruckelshaus. It is occurring. We're making progress, 
and we are committed to have a shared strategy by the end of 
May.
    Mr. Dicks. Does Fish and Wildlife Service have enough 
people?
    Mr. Diggs. No. Simple answer.
    Mr. Stelle. Senator, I want to amend my comment on the 
Methow.
    Senator Gorton. OK.
    Mr. Stelle. We, NMFS, alone don't have the ability to solve 
the problem in the Methow. And so to answer your question of, 
are we going to have another train wreck in the Methow this 
spring or this summer, the answer is, it depends. It depends on 
whether or not we can get the types of commitments. The State 
is essential, the Department of Ecology is essential here, and 
they're working hard on it, the right local mix----
    Senator Gorton. Are you the only Federal agency?
    Mr. Stelle. I believe Fish and Wildlife Service is involved 
in the effort as well. I think NMFS is probably the lead on 
this because it's a salmonid issue.
    But we really need to construct a solution, and it is not a 
solution we can do unilaterally.
    Senator Gorton. Right. Thank you.
    Mr. Inslee. I just want to comment.
    We've got this Puget Sound Ecosystem Restoration Bill. 
We're trying to get the Army Corps involved in this process as 
well, I'm sure you're familiar with. I just want to let you 
know we've got a 75/25 match situation, and the administration 
has put this in their first cut of the bill for $10 million. We 
appreciate that too, at least get this idea going.
    I hear a lot of concern about landowners and folks in 
development transportation projects; that they're concerned 
getting the permitting process going. And what I've explained 
to them--and I want you to tell me if I'm right--that basically 
Congress has not given you enough people to process the permits 
really in a timely fashion. And that the problem is as much 
with Congress' failure to give you the mechanism to process 
these permits as it is perhaps with the statutory requirements.
    Is that an accurate read? And No. 2, why do you think we're 
missing at least your message in this regard?
    Mr. Stelle. Thank you, Congressman. No, I didn't plant this 
question.
    Mr. Inslee. Well, I have this conversation a lot.
    Mr. Stelle. It's a serious issue. The administration has 
asked for an increase in $30 million in order to build the 
capacity here. If we don't have the capacity, we have train 
wrecks. And train wrecks don't help anybody, and it won't get 
the job done.
    If you want a train wreck, don't fund this, because the law 
won't go away, the requirements won't go away, and it just 
won't get done. And if those consultations don't occur, the 
permits won't ensue; and if the permits don't ensue, the 
projects don't go forward. And if they go forward without them, 
they'll get sued.
    Mr. Dicks. How many loaned staff do you have from other 
entities?
    Mr. Stelle. In the Olympia office, just to give you a sense 
of this--well, we have received about, I believe it was a $9-
million increase covering Oregon, Washington, California, and 
Idaho. And understand that we make a policy judgment--and it is 
a policy judgment--that we spend generally about 50 to 60 cents 
of every dollar on science.
    Why do that when we're facing these bottlenecks? Because if 
you don't make a commitment to investing into science, and if 
you start to let it slip, you'll never get it back. So we put 
about half of our dollars into science because of our 
commitment to the science underscoring the program. But when 
you spread that money out, it doesn't go far.
    The administration has repeated its request for this coming 
appropriations cycle, and we'll just have to see how it pans 
out.
    Mr. Inslee. Well, I'll just tell you, I'm going to do 
anything I can. My transportation projects--everybody knows the 
transportation problem we've got right now. And it's getting 
worse because we have not given the infrastructure it requires 
to issue those permits. And I still fear--even though I'm a 
person with great optimism and hope--there are those who think 
if they can starve this agency and a train wreck occurs, that 
ESA is going to collapse and go away.
    That is not going to happen. ESA is not going to evaporate. 
For those who may be interested, I can share that reality with 
them; this is not a way to solve this problem. And I just want 
to let you know where I'm coming from on this.
    I want to ask, unfortunately, a controversial question at 
the end of this.
    I want to ask about the Snake River issues, and I want to 
ask about the State of the science on the dam and dam bridging 
prospect of being part of a recovery plan. And I guess I would 
like any three who can assist me on that, to just tell me your 
best assessment of the State of the biological science as to 
probabilities of success.
    I've tried to educate myself on this. I've read the Path 
report, at least the executive summary that I could get into.
    I'd like you just to tell me what your belief or your rate 
of the existing biological science on probabilities of success 
with or without dam breaching as part of the recovery plan. And 
just allude to any science you think we ought to read in this 
regard. I realize there are huge economic issues on this, there 
are huge transportation issues. I'd just like you to talk about 
the science, if you can.
    Mr. Stelle. Bill, do you want to take that?
    Mr. Ruckelshaus. The SRF Board doesn't have enough money to 
do----
    Mr. Inslee. Well, let me tell you why I asked. When I read 
the Path Report, what I see are a range of numbers. And when I 
read that report--and there's another biological report, and I 
can't remember which one it was--would suggest that the highest 
probability of the variety of the menus of what we could do--
that the highest probability included dam bridging within part 
of that plan.
    And I guess my real question is, are there other credible 
scientific assessments that indicate that that is not true; 
that, in fact, it has a less probability of success, and I 
would just ask for you to educate us on the state of the 
science in that regard.
    Mr. Stelle. Let me try. Obviously, this is a hugely 
complicated subject. A couple of initial observations, 
Congressman.
    We have just recently released several weeks ago a new more 
comprehensive risk assessment of the risks of extinction of all 
but one of the populations of salmonids listed in the Columbia 
and the Snake. And the prognosis is very bad.
    This is a hugely important diagnostic tool because it tries 
to use the same measuring stick for risk predictions for the 
Snake River stocks, and for the first time, for the upper 
Columbia stocks, the mid Columbia stocks and the lower Columbia 
stocks, so we have the ability to compare apples and apples.
    And the short form of the prognosis is that the stocks 
facing the highest risk of extinction in the Columbia system 
are the upper Columbia chinook stocks and steelhead stocks in 
the upper and lower Columbia and the Snake.
    If your strategy is to put your greatest effort on those 
stocks that are facing the greatest risks, Snake river dam 
removal doesn't do it because Snake River dam removal doesn't 
do much for the upper Columbia or lower Columbia stocks. That's 
one point.
    What about those Snake River stocks though? Let's just 
focus now on the Snake River and not the upper or lower 
Columbia.
    Can we conclude with confidence that breaching Snake River 
dams is not necessary to recover these stocks? No. Is the 
science fairly clear on that point? In my view, yes.
    Can we recover these stocks without breaching the Snake 
River dams? The question is answered by what you believe the 
progress we can make in improving habitat productivity. And it 
is a tall order.
    What do I mean by that? What I mean by that is, from a 
purely arithmetic perspective, the area where you get the 
biggest bang for your buck is the area in the life stages of 
salmonids where you lose the most. So a 1-percent or a 5-
percent or a 10-percent improvement in those areas yields the 
biggest bang for the buck.
    What are those areas for the spring/summer chinook stocks 
and steelhead stocks in the Snake? The area is not mainstem 
migration, down or up. The area is in the survivals in that 
first year life stage in the tributaries and in the estuaries 
because that's where we lose the biggest percentages.
    So if the recovery equation for the snake, as it is for the 
other stocks, is to try to calculate how many pounds of 
survival improvements we need--and we've made substantial 
progress in those calculations--then you have an allocation 
question. Where do you think we can get those pounds of 
improvements?
    Do you believe that we have the will, the fortitude, to 
make the changes in the way we manage our land and our water in 
those tributaries to rebuild the productivity so that we don't 
need to take out dams? If you do, and if we are successful, 
then that answers your question. If we are not, then the other 
area of major survival improvements is dam removal.
    So in some respects, the question of is the removal of 
Snake River dams necessary is answered by what types of 
undertakings are we prepared to make in the other sectors in 
order to get those pounds of improvements that we need and are 
we prepared to make those commitments or not? And that is the 
$64,000 question. And it is not a $64,000 question; it's more.
    Mr. Inslee. In summary form, I take it you're telling us 
that if we as a community make a decision not to breach the 
dams, we won't escape cost, we will be incurring in other 
places in the salmon's life cycle? Fair statement?
    Mr. Stelle. Absolutely.
    Mr. Inslee. Thank you.
    Senator Gorton. Well, I think you stated that proposition 
accurately, particularly as you expand beyond that to determine 
whether or not our society values these relatively high costs 
at a greater level than it does those particular stocks. And 
while you disagreed with me last week when we put them before a 
Senate committee, it seems to me, the unstated implication of 
what Mr. Stelle says is, we may be looking at taking down 
mainstem Columbia River dams as well, as the single most 
endangered run is on a part of the upper Columbia, unless these 
other alternatives end up being easier. And I do not think this 
society or this State is prepared to do that.
    I'm sorry, I told you I had only a couple of questions; I 
do have one more on a different subject.
    One of the earlier panelists, if you heard, Jack Kaeding at 
Fish First, referred to a programmatic biological assessment 
that the Fish and Wildlife Service adopted that is more 
streamlined than your process at the National Marine Fisheries 
Service.
    Is it possible for the Fisheries Service to use a similar, 
more streamlined biological assessment for projects that are 
either designed to help fish or would have no effect?
    Mr. Stelle. Senator, I don't know the facts of that 
particular matter, so I can only surmise in my answer. I'd be 
happy to take a look at answering that question for you.
    Senator Gorton. Do you have any comment on that? Do you 
know what he was talking about?
    Mr. Diggs. I guess I'm not sure about ``the'' specific 
case, but doing programmatic biological assessments and 
opinions is an approach that both NMFS and the Fish and 
Wildlife Service uses very commonly to try to batch projects 
together, take like kinds of projects--do one assessment and 
opinion, again, to expedite the process and remove the 
regulatory process----
    Senator Gorton. If you'd take a look at that and see if 
there's any difference?
    Mr. Stelle. I will do so, Mr. Chairman, absolutely.
    Mr. Dicks. I would just like to read this out of his 
statement, Mr. Kaeding:

    Now we find ourselves stopped in our tracks because of 
National Marine Fisheries Service's interpretation of the 
Endangered Species Act, which requires us to do a biological 
assessment on each project. This, we are told, takes from 18 
months to 2 years to complete.

    Apparently, they were working before with the Fish and 
Wildlife Service, as I understood what he was saying, and they 
were able to go forward and do these projects.
    I think we have to take a look at that.
    Mr. Stelle. I will take a look at it. If we can batch and 
bundle and secure some efficiencies from that, absolutely. 
Because I can promise you, the bottlenecks are more painful for 
us or as painful for us as for anybody else. So we are 
constantly probing for efficiencies, and I will take a look at 
it.
    Senator Gorton. That's a constructive answer, and I believe 
we'd made some very real progress today. There has been a good 
deal of listening, and the degree of coordination that we've 
had without our following Bill Ruckelshaus' advice of last year 
to create a formal facilitator seems to me to have been very 
impressive. And I think my colleagues join in that.
    And we thank you for your hard work and for your help 
today.

                         CONCLUSION OF HEARING

    Thank you all very much for being here, that concludes our 
hearing. The subcommittee will stand in recess subject to the 
call of the Chair.
    [Whereupon, at 5:30 p.m., Thursday, April 20, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   <all>

</pre></body></html>
